<html>
<title> - FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                        APPROPRIATIONS FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION
                                ________
   SUBCOMMITTEE ON FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED 
                                PROGRAMS
                    SONNY CALLAHAN, Alabama, Chairman
 JOHN EDWARD PORTER, Illinois       NANCY PELOSI, California
 FRANK R. WOLF, Virginia            NITA M. LOWEY, New York
 RON PACKARD, California            JESSE L. JACKSON, Jr., Illinois
 JOE KNOLLENBERG, Michigan          CAROLYN C. KILPATRICK, Michigan
 JACK KINGSTON, Georgia             MARTIN OLAV SABO, Minnesota      
 JERRY LEWIS, California
 ROGER F. WICKER, Mississippi       
                        
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
     Charles Flickner, John Shank, and Christopher J. Walker, Staff 
                              Assistants,
                     Lori Maes, Administrative Aide
                                ________
                                 PART 4

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 65-408                     WASHINGTON : 2000




                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 RON PACKARD, California             NANCY PELOSI, California
 SONNY CALLAHAN, Alabama             PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York            NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina   JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio               ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma     JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan           ED PASTOR, Arizona
 DAN MILLER, Florida                 CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia              MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi        ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,          Alabama
Washington                           MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,          LUCILLE ROYBAL-ALLARD, California
California                           SAM FARR, California
 TODD TIAHRT, Kansas                 JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                    ALLEN BOYD, Florida                
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     

                 James W. Dyer, Clerk and Staff Director

                                  (ii)

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 
      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                        APPROPRIATIONS FOR 2001

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                          Thursday, March 30, 2000.

          FOREIGN AID FOR EDUCATION, HEALTH AND HUNGER ISSUES

                                WITNESS

HON. TONY P. HALL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Callahan. Congressman Hall.
    Mr. Hall. Thank you, Mr. Chairman. I want to thank you and 
Ms. Pelosi for the work that you have done. Basically, I am 
very pleased with a lot of the funding this time.
    I am very much a proponent of wanting to see more foreign 
aid. I think we can do better as a country, and we have more 
and more responsibility, whether we like it or not. I am always 
amazed how much people think it is when, in fact, it is not 
very high at all. Especially in development assistance, it has 
been cut so much in the last 12 years.
    My report speaks pretty much for itself. There are three 
areas--microenterprise, and I think--or microcredit. If we can 
help them. I think this is our newest humanitarian tool, and it 
is one of the most promising.
    You are familiar with how that works, and it is a very good 
tool. We certainly use it in the United States, and we have to 
go to other poor nations to find out what works, so we can 
present it to our own country.
    I think in basic education you have helped us a lot in that 
area. We are hoping to get maybe an increase in an area this 
year; we find when we educate, especially women, the population 
goes down and the gross national product goes up and the 
country is much better off.
    People talk about planned parenthood. You don't need it. 
The women get smart and the kids get healthier and they have 
less children. Basic education plays a big part in that, 
reading and writing; and I have seen a lot of those programs, 
and they work very well.
    And TB, I don't think that there is much of an earmark on 
TB, but TB is really on the increase in the world and even in 
our own country. I think the President asked for $50 million, 
and if we can maybe possibly earmark TB even higher than that, 
it is a tremendous problem coming back in a big way.
    The last thing is--I have been studying this--Ambassador 
George McGovern has come out with an idea about ending world 
hunger in our time, and he suggested that we apply the lessons 
that we learned from the school lunch program and that we might 
think in terms of a school lunch program in some of these 
countries of the world. I was thinking, maybe as a legacy to 
you, doing a pilot project of a school lunch program in a 
country like Sierra Leone for maybe $2 million.
    Sierra Leone ought to be able to feed themselves, but the 
country has been destroyed. It has diamonds and emeralds, it 
has soil and fish, grain; but because of Civil War and a lot of 
problems in the country, the country is the poorest in the 
world, and because of Civil War they can't go back to the 
fields. It is amazing that they have hunger problems in Sierra 
Leone.
    I thought Ambassador McGovern had a very good idea--instead 
of trying to start the program, that we have a pilot program to 
see if this thing could work overseas.
    We have a lot of bang for our buck in our school lunch 
program. That is all I wanted to say.
    Mr. Callahan. I appreciate that. The school lunch program 
sounds like something we may be interested in. I imagine those 
kids who are going to school are probably being nourished; it 
is the ones who are not going to school who are suffering. 
Thanks to your efforts, we have the money to educate them. But 
we will be happy to entertain that.
    Maybe that is something that we can turn over to an 
organization like we turned over the polio problems to a civic 
organization like we have done with the Rotarians or the 
Kiwanis; they have done such wonderful work in that regard. 
Maybe we can get a civic organization to provide them with some 
resources and try to create a pilot program.
    I certainly appreciate your efforts, Tony. You are renowned 
for your efforts for humanitarian causes, and because of you, 
education is in the child survival account. Child survival is 
above $700 million; the President is requesting it in his 
budget.
    Mr. Hall. Yes, it is a big problem.
    Mr. Callahan. Thank you.
    Also TB, we have had USAID facilitate a TB project between 
Mexico and the United States.
    We have appropriated money for TB, so we have done some.
    The Clerk. It is in the vicinity of 12 to 15 million.
    Mr. Hall. Thank you. World food program, too, and UNICEF.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Callahan. The subcommittee is in recess.
    [Recess.]
                              ----------                              

                                          Thursday, March 30, 2000.

           CHILD SURVIVAL, TUBERCULOSIS, AND THE PEACE CORPS


                                WITNESS

HON. JAMES WALSH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Callahan. Congressman Walsh of New York.
    Mr. Walsh. Thank you, Mr. Chairman. I look forward to this 
visit every year because of the good work that this 
subcommittee does, and you have shown real leadership, 
especially in areas of children's health and survival globally. 
I don't know where these kids would go for health, sustenance, 
for medicine, if it wasn't for this subcommittee. This is 
something that both parties in the Congress are very proud of. 
I commend you and Ranking Member Pelosi for that. I think it is 
a remarkable contribution to global health.
    I would also like to encourage, if it is possible--and I 
know my allocation is not going to be much better than yours--
but if there is a way to increase the child survival account, I 
think it would have broad support.
    Also, the micronutrient program--vitamin A, UNICEF, all of 
these are priority items.
    TB is something that the subcommittee has begun to involve 
itself with. It is a tremendously debilitating disease. We can 
never control TB in this country if we don't control it in the 
rest of the world. What a contribution that would be to 
everyone.
    As I have told you before, I personally was on medication 
for 2 years after my Peace Corps experience. And I was lucky; 
there are a lot of people who aren't.
    No visit to the subcommittee would be complete without a 
plug for the IFI, International Fund for Ireland. These funds 
provide jobs for Protestants and Catholics to work together to 
build this country, and it is a partnership with other 
countries around the globe.
    And lastly, for the Peace Corps, the most popular foreign 
aid program that we provide. It has provided this body alone 
with some good people--Tony Hall, Sam Farr, Chris Shays; I 
would like to include myself in that group. But across the 
spectrum of our society in this country, Peace Corps volunteers 
come back home and contribute in a positive way. It is good for 
the country and for the globe.
    Mr. Callahan. Well, we thank you for your interest in some 
of our activities and for your knowledge. I told the Director 
of the Peace Corps if he wanted any money at all, I said he 
would have to come through you.
    Mr. Walsh. He said you said that.
    Mr. Walsh. You know that you will always have a pliant ear 
when it comes to me.
    Mr. Callahan.
    The other projects you mentioned, I totally support. I 
don't know if we can put more in the child survival account, 
but if we can we will. It has grown dramatically.
    Mr. Walsh. It is a tribute to what you have begun here.
    Mr. Callahan. Also you expressed some interest in obtaining 
funds for the visa program for Ireland.
    Mr. Walsh. Yes.
    Mr. Callahan. I have spoken to Congressman Rogers about 
that. If Congressman Rogers is unable to give you the 
assistance you need, we will try to facilitate you through this 
committee.
    Mr. Walsh. I think we are okay, but you never know. We go 
from year to year. But it wouldn't have happened without your 
help.
    Mr. Callahan. I thank you for your testimony. Your entire 
statement will be accepted for the record.
    Mr. Walsh. I will leave it right here on the table.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

              THE SEQUELLA GLOBAL TUBERCULOSIS FOUNDATION


                                WITNESS

LEW BARKER, M.D., M.P.H, CHIEF MEDICAL OFFICER
    Mr. Callahan. Mr. Barker, we ask that you be very brief. 
When the bell rings, I will to go upstairs. Good morning.
    Mr. Barker. Thank you for the opportunity to testify. I 
work for the Sequella Global TB Foundation, and our mission is 
to support the TB research community to find better tools for 
TB treatment and control, better vaccines and better 
diagnostics.
    My purpose today is to applaud your initiative and to 
strongly support the Stop Tuberculosis Now Act introduced by 
Congressman Brown and by my own favorite personal 
Representative, Congresswoman Connie Morella. This act is 
urgently needed to apply the currently available tools for TB.
    These tools are antiquated. There is a lot that can be 
accomplished with them to stop TB now, which will make a 
critically needed contribution to slowing the current TB 
crisis.
    I am not going to repeat the staggering statistics. You are 
quite familiar with them. They are in the record. It is a very 
old disease producing some new problems, particularly drug-
resistant TB, which is the most prevalent in developing 
countries. But it is spreading to developed countries, and we 
had our own painful experience with it in New York and a number 
of other big cities just 5 or 10 years ago. In fact, in the 
1990s, 45 States and the District of Columbia all had 
experience with drug-resistant TB, which is a very tough 
disease, a serious illness with high fatality rate.
    As we see it, the Stop TB Now Act, by applying the current 
tools, particularly the Directly Observed Therapy, Short 
Course, also known as DOTS, will help deal with drug-sensitive 
TB and reduce the incidence of drug-resistant TB. The bill will 
provide $100 million for TB drug control programs specifically 
focused on DOTS, and it will facilitate access to TB drugs in 
the 22 highest-burdened countries to strengthen their public 
health systems, to help make those programs successful.
    Finally, I would like to recognize and also thank the 
American Lung Association, the American Thoracic Society, the 
International Union Against TB and Lung Disease, WHO, the Gates 
and Rockefeller Foundations, the Princeton Project 55 TB 
Initiative and many others who have advocated to support this 
bill. By passing the bill, you have the amazing potential to 
save a lot of lives. I urge the Congress to follow your 
leadership in supporting the success of international TB 
control programs for humanitarian as well as national health 
and security reasons. Thank you very much.
    Mr. Callahan. I thank you for your interest and thank you 
for your comments regarding this problem. We are concerned 
about it and we do intend to do everything we can to facilitate 
the abolition of this disease, as we have done with the other 
programs. It is a very noble program. We will accept your 
written statement in its entirety.
    [The information follows:]
    [Recess.]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 30, 2000.

         CHILD SURVIVAL AND DISEASES, UNICEF, AND TUBERCULOSIS


                                WITNESS

HON. CONSTANCE A. MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF MARYLAND
    Mr. Callahan. Congresswoman Morella, someone just preceded 
you, saying very kind words about you.
    Ms. Morella. Thank you.
    Mr. Chairman, I am very happy to be here and I thank you 
for the opportunity that you give us to come before you. I know 
how busy you are. I have testified before you on many occasions 
to share my priorities, and I thank you for the partnership 
that you have forged on those issues, and especially your 
continued protection and expansion of funds within the Child 
Survival and Diseases Account and for UNICEF.
    Chairman Callahan, you have taken it upon yourself to 
increase funding for the fight against infectious diseases in 
recent years, and I applaud your vision. I want you to know 
that I offer you my support and strong encouragement to do more 
in this area and I am here today in the fight against 
tuberculosis.
    Currently, the administration invests roughly $20 million, 
up from $12 million the year before and only $1 million the 
year before that, and it is because of your leadership that the 
United States is doing more in this area. But with TB claiming 
more lives this year than ever before, we have to do more.
    It is tragic that in an era where a highly cost-effective 
cure exists for TB--the drugs to cure one TB patient costs as 
little as $11--that so many still perish from it. If we do more 
now, when we have the chance, people will be able to go back to 
work, children will not be taken out of school to care for sick 
parents and have to earn money to help feed their families, and 
little ones will not become orphaned by a disease that is 
curable.
    I am especially concerned about TB because it takes such a 
severe toll on women and girls globally. In a developing world, 
tuberculosis destroys women's and girls' futures. TB is the 
biggest killer of young women in the world. In fact, TB kills 
more women than any single cause of maternal mortality--more 
than childbirth or AIDS.
    Also women who suffer from TB are often less likely to be 
detected and treated than men. Over 900 million women are 
infected with TB worldwide, 1 million will die and 2.5 million 
will get sick this year from the disease, mainly between the 
ages of 15 and 44.
    Sadly, there are many barriers for women to access health 
services. They are often unable to leave their families. They 
often need permission from their families to go to a clinic, 
and many women do not control their own income and lack the 
money needed to travel to clinics or pay for treatment.
    In some parts of the world there is a great stigma attached 
to contracting TB. This leads to increased isolation, 
abandonment, and divorce of women. According to WHO, recent 
studies on India found that 100,000 women are rejected by their 
families because of TB every year. In Nepal, there are numerous 
stories of young widows with no income and no prospects for 
another marriage turning to prostitution in order to support 
their families.
    TB also often means the loss of educational opportunity for 
girls of poor families. Frequently, in order to pay for medical 
costs and generate income, families take young girls out of 
school and put them to work. Based on WHO studies from India, 
roughly 300,000 children leave school every year due to TB.
    TB's toll on women and girls takes a direct toll on their 
families as well. It tends to attack its victims in their most 
productive years, often killing or sickening the primary 
breadwinner of a family. In addition to the economic losses 
that a family suffers when a woman gets sick, the household 
loses the activities that the women routinely perform in the 
family, child care and managing the activities of the 
household.
    A number of studies of the basic recommended TB treatment, 
Directly Observed Treatment, or DOTS, strategy showed that the 
introduction of DOTS considerably lowered the toll of TB to 
patients and their families. Estimates suggest that the 
introduction of DOTS could halve the current potential national 
economic loss from TB. So I think investment in highly cost-
effective treatment is a great way to save lives and decrease 
the need for foreign assistance in the future. It is also in 
our best interests.
    Currently, an estimated one-third of the world's 
population, including some 10-15 million people in the United 
States, are infected with the TB bacteria. It is an infectious 
disease which can be transmitted simply by breathing in TB 
bacteria and there is no way to stop it at the national 
borders.
    The only way to eliminate it in the United States is to 
control it abroad. It is crucial that we act immediately to 
control the spread of TB worldwide. There is only a small 
window of opportunity available to us. If we fail to act now, 
the resistant strains of TB will continue to develop, which are 
incredibly costly and may be impossible to treat. According to 
TB experts, an additional $1 billion annually is needed 
worldwide to adequately address this disease. If we in the 
United States could invest $100 million, we could jump-start 
effective TB control programs in those countries that have the 
highest TB rates, and it would lead----
    Mr. Callahan. We are going to have to jump-start this 
meeting.
    Ms. Morella. The bottom line, Mr. Chairman, is that I urge 
you to put $100 million----
    Mr. Callahan. We will accept your entire statement. There 
is nothing in there that this committee is going to disagree 
with.
    Ms. Morella. I felt that would be the case, and I thank you 
for allowing me to mention it.
    Mr. Callahan. We accept your statement for the record.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 30, 2000.

                    TROPICAL FOREST CONSERVATION ACT


                                WITNESS

HON. ROB PORTMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Callahan. Mr. Portman.
    Mr. Portman. Thank you, Mr. Chairman. Thank you for 
allowing me to come before the subcommittee again. I thank you 
for your guidance in this effort. The Tropical Forest 
Conservation Act is bipartisan legislation, and it was signed 
into law in 1998. It provides a creative, market-oriented 
approach to protecting the world's most threatened tropical 
forests on a sustained basis.
    You have to start with what the tropical forests are. They 
have 50 to 90 percent of the Earth's terrestrial biodiversity. 
They act as carbon sinks, absorbing massive amounts of carbon 
dioxide. We can argue about the greenhouse effect, but we know 
that they do absorb gases.
    They regulate rainfall on which agriculture is dependent 
and which is of great importance to all areas of the country. 
They are also breeding grounds for new drugs that cure disease.
    Sadly, half of the forests have disappeared since 1950. 
Roughly 30 million acres a year are being destroyed. This act 
gives the President the authority to reduce some of the debt 
that countries owe us in exchange for protecting these forests. 
In exchange for debt relief--and it is beneficial to us from an 
environmental perspective--it creates a local fund which 
restores tropical forests. We developed this with the support 
of a lot of these respected environmental groups out there such 
as conservation groups, and their support is appreciated. They 
do third-party swaps under the legislation.
    Two goals: First, you alleviate some of the economic 
pressure that is the underlying problem in the countries. So we 
are not just going in and saying, we are going to help you 
restore or protect your forests, but we are going to alleviate 
some of the debt on the books and relieve economic problems.
    Second, we do provide real money for conservation efforts 
in these countries. There is the power of leveraging here, and 
I have my diagrams. It is interesting, $1 of debt reduction in 
many cases is going to buy $2, and in many cases more than $2, 
of conservation of these countries. So you end up with 
government paying more in local currency to protect the forests 
than we are relieving.
    In 1990, we passed a credit reform bill that says if we 
want to reduce someone's debt below the fair market value, we 
have to subsidize it with an appropriation. It is a good bang 
for the buck. There are a number of criteria that these 
countries must meet. They have to be democratically elected 
countries, cooperate on narcotics controls, and they cannot 
support terrorism or violate human rights, which is consistent 
with the old EAI, and that is something we have kept in the 
legislation.
    I have been disappointed that the Treasury Department has 
not moved more rapidly to implement the legislation. However, I 
am encouraged that we are making significant progress right 
now. We feel that the Treasury Department, State Department, 
and others are engaged; they are interested in pursuing this 
aggressively. We recently made significant progress with two 
countries, Bangladesh and Peru, and the Treasury Department 
tells me that they are reviewing other interested countries.
    Costa Rica is very close to being eligible, and both the 
Treasury Department and some of these conservation groups who 
are working with Costa Rica are telling me that they are very 
encouraged by their actions to address some of the outstanding 
land disputes, which is why they are not immediately eligible. 
I know that you went down there, and you have seen some of this 
firsthand. If Costa Rica can get in the program, we can protect 
those forests.
    In Bangladesh, I think it shows where these funds can be 
very helpful. Last March 19, a couple of weeks ago, the 
President announced that the U.S. and Bangladesh are going to 
do an agreement to reduce their outstanding debt. There needs 
to be more detail written on how we are going to use our funds 
here, but it will happen; it will be an exchange. This would 
make Bangladesh a country that we can use as a model to move 
forward with other debt-for-nature swaps. In Bangladesh, it is 
3 million acres. They are very important tropical forests; half 
of them are mango forests. They are home to about 400 Bengal 
tigers, the largest single population of tigers left, and this 
is considered to be endangered and just the kind of forest that 
we do need to protect in terms of protecting biodiversity.
    I am delighted that this subcommittee agreed to provide $13 
million in this fiscal year, and I want to thank you for your 
support of that and the subcommittee's help in putting together 
the proposal.
    This year, the President's request is $37 million. It is my 
vote that the committee provide a strong appropriation for the 
bill. $37 million is not as high as we have authorized, but 
nearly all of the $13 million appropriated for fiscal year 2000 
will be used for debt-for-credit forest restoration with 
Bangladesh and Peru, if the negotiations are successful, and $1 
million has been set aside for administering the program.
    Given the interest in participating in this act by other 
nations, this amount clearly is not going to be sufficient. I 
believe that it is very appropriate to approve more than what 
the President has proposed and take it up to $50 million, which 
is below the authorized amount.
    I might point out that this $50 million is what the 
President requested last year to ensure its success. Again, I 
want to thank you, Mr. Chairman, we would like to move forward 
aggressively with these other countries like Peru and 
Bangladesh, where we are close to making the final deal and we 
have all of these other countries in line. This is something 
where our government is already providing debt relief to 
countries around the world, but here we get something very 
beneficial to the United States in conservation efforts in 
return for that investment.
    I hope that the subcommittee will work with us to put 
together an appropriate appropriation and continue this strong 
positive effort.
    Mr. Callahan. We thank you. Your goals with tropical 
forests are noble, and we certainly support them. The debt 
forgiveness we are going to have to talk about that. I have 
offered to the administration a proposal that if they will 
accept some type of written agreement from a nation that we 
forgive debt to, they won't go right back into debt, we will 
provide the money for debt forgiveness. But under the current 
program, they can spend that money on the rainforest or 
whatever, on human suffering and needs.
    If you permit them to go right back into debt, there would 
be no money. These countries that are in this horrible debt are 
not paying their interest or their principal, so you are not 
freeing up cash. But if you cleanse their books and say to 
them, it is all right to borrow another million dollars, they 
are going to be right back where they are.
    As long as the administration will agree to some limitation 
on going back into debt, then they have no problem getting the 
money from this committee. But the administration is unwilling 
at this time to commit that they will put that contingency on 
there, that no debt forgiveness will be given until the country 
agrees no additional debt will be incurred.
    That is a big problem that lot of the missionaries who are 
concerned about this and advocating this have overlooked. Their 
cause and your cause is noble, but if it solves no problem and 
frees up no cash, then it is not useful. It doesn't help.
    Mr. Portman. I appreciate that. I think that is a sensible 
approach.
    Two things: Under this bill they have no choice but to set 
up this fund in local currency. This is why, frankly, some of 
the poor countries won't be interested in the Tropical Forest 
Conservation Act. They do have to set up this local currency 
and use it for this purpose.
    Mr. Callahan. If they are in debt and they are having to 
begin paying interest and repaying principal, which some of 
them are not, then the very cause that all of these church 
groups and missionaries are coming to Congress and rock stars 
and saying you have to do this in the name of human rights, it 
is problematic that they are not thinking all of the way 
through. As long as they agree they will not permit these 
countries to go right back into debt, that's fine with me.
    Thank you for your testimony.
    Mr. Portman. Thank you. I appreciate it.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Callahan. I guess we had better go vote. We want to 
reserve your testimony, Mr. Kucinich, until some other members 
get here. Mr. Murtha and Mr. Lewis and Mrs. Pelosi want to hear 
the testimony on Serbia.
    [Recess.]
                              ----------                              

                                          Thursday, March 30, 2000.

                     UNITED STATES FUND FOR UNICEF


                                WITNESS

CHARLES J. LYONS, PRESIDENT
    Mr. Callahan. We are going to impose a policy that the 
shorter your speech, the more money you get.
    Next is Mr. Lyons.
    Mr. Lyons. Thank you, Mr. Chairman. We would like to submit 
a formal statement, but I will summarize three points. First 
and foremost is to acknowledge and thank the leadership from 
the Hill, but particularly from this committee, both members 
and staff. It is your leadership that has made child survival a 
program priority that gets funded, which means that it gets 
results for kids. Your leadership in creation of the Child 
Survival and Disease programs fund is the best result.
    We are doing a lot of the right things, but there are 
30,000 on average that are dying from preventable causes. There 
is more that we feel that we can do.
    The second main point is, I think you know well that the 
appropriation for UNICEF allows UNICEF to continue to lead on 
the World Summit for Children agenda, meeting as many of those 
goals from the World Summit as possible. UNICEF is focused on 
that, as you well know. But it allows UNICEF to respond to 
emergencies, which unfortunately are all too frequent.
    At the time of the Summit in 1989-1990, there were fewer 
than five emergencies. In this year alone, 1999, UNICEF has 
recorded over 50 emergencies of various kinds in various 
places. I came back the day before yesterday from a working 
visit to Mozambique, maybe the best example of how a country 
and its partners get thrown off by emergencies. The progress 
since 1992 in child mortality reduction, maternal mortality 
reduction, has been dramatic there. This one photograph I think 
illustrates the one major artery road north of the capital 
city, thousands of acres of farmland swamped and flooded. 
People are not able to grow their own crops anymore in a 
country with per capita average income of $300. There are 
approximately 1 million people affected by these floods, over 
200,000 children under the age of 5 at risk. UNICEF and others, 
the U.S. Government, are helping those people; but there is an 
enormous amount that needs to be done that UNICEF will address. 
The appropriation we respectfully request be not less than $110 
million.
    Third, and finally, sir, I want to emphasize the degree to 
which we view the appropriation as an investment in UNICEF's 
leadership for a future agenda for children, which we 
characterize as trying to achieve circumstances where all 
children are born in a safe environment, there are no women 
that die of preventable deaths in the process of giving birth, 
that a child at age 2 is fully immunized and on a safe 
nutrition path, a child of 5 is ready for school and has a 
place in a good school.
    That is the future agenda for children that UNICEF is 
pushing.
    We see the subcommittee as a vital partner in achieving 
that agenda, as well as our partners with Kiwanis and Rotary 
and many others around the country.
    Mr. Callahan. We see no reason why we will not be able to 
fulfill your $110 million request. Until we get the allocation, 
we can't make the commitment, but we know of your missions and 
we certainly applaud them.
    Mr. Lyons. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

           SOUTHERN CAUCASUS REGION OF THE INDEPENDENT STATES


                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Callahan. We are waiting on Ms. Pelosi.
    We ask you to limit your time to 5 minutes. Pete, if you 
are ready.
    Mr. Visclosky. You have my entire statement in the record. 
Again, we are asking that section 907 be retained, and also I 
am asking for an earmark for the Kellogg Institute for 
International Studies. Your staff has been good to work with. 
We would like to continue to do that in the future.
    Mr. Callahan. Well, whatever you need, you get, if that is 
your statement.
    Mr. Visclosky. Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 30, 2000.

 DEBT RELIEF FOR SUB-SAHARAN AFRICA, CARIBBEAN AND OTHER POOR COUNTRIES


                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Callahan. Ms. Waters.
    Ms. Waters. Thank you.
    Mr. Callahan. Your entire statement is accepted for the 
record, if you would just summarize your request.
    Ms. Waters. Mr. Chairman, I am here to seek your assistance 
for debt relief of sub-Saharan Africa and poor countries in 
general. I would like to mention that I just introduced a bill 
for debt relief for Mozambique. While we are involved in relief 
for them for the flood disaster, the infrastructure of 
Mozambique along the Limpopo River is in great disrepair, the 
roads and bridges, and in order to benefit really from the 
relief that we are giving, they need some infrastructure 
repair.
    I would like to mention also, in addition to those floods, 
that Tanzania, for example--these places are all trying to 
service debt relief. That is causing them real problems in 
education and health for their countries. I am asking you to 
take a special look at Nigeria, instead of restructuring debt, 
that they get debt relief.
    I would also like to mention that there is no money 
anywhere for the poorest of the countries, that is the HIPC 
countries, and I will submit all of this information to you, 
including information about HIV-AIDS problems in sub-Saharan 
Africa and hope that you would in some way honor the work of 
Jubilee 2000, all of the church organizations and 
nongovernmental organizations that have come together to talk 
about debt relief for the poorest of our countries.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Callahan. We certainly will, and there is plenty of 
time to debate the issue. You have no problem getting the money 
out of the committee as long as it is responsible.
    I feel the Jubilee 2000 mission is incomplete, because 
there is no prohibition for these countries going right back 
into debt the next day.
    What we are trying to do is provide a way that says, if we 
pay off the debt--many of these nations are not paying 
principal or interest, but if we erase their balance sheet of 
all debt--then they cannot go right back into debt the next 
day. So when you are finished negotiating with the Treasury 
Department over how we are going to deny them or instruct them 
that they are not going to go further into debt the next week, 
if they go right back into debt, then your mission has been 
nullified because they don't have the money to provide the 
services that we want them to provide.
    But there is ample time to talk about that.
    Ms. Pelosi. Mr. Chairman, I want to join you in welcoming 
our distinguished colleague here. And I appreciate her comments 
about our assistance to the continent of Africa and the Jubilee 
2000 request.
    The chairman and I are not in agreement on the debt issue. 
In fact, when I proposed the amendment in full committee to put 
the money in, I had to withdraw it because the chairman would 
have prevailed with an amendment.
    There is debt and there is debt. Some of these countries 
have debt which was incurred by previous regimes, and it is 
irresponsible debt that we are going to try to forgive so that 
they can incur debt for constructive purposes, the way we might 
clear up our debts and take out a mortgage on our home. It is a 
debt, but it is investment. We have to make those kinds of 
distinctions. It would be very constraining on these countries 
if we had a prohibition of 4 years before they could engage in 
further investments in their community through attracting debt 
from multilateral development banks, et cetera.
    Mr. Callahan. Thank you for your testimony.
    Ms. Waters. Thank you.
                              ----------                              

                                          Thursday, March 30, 2000.

                 PEACEKEEPING OPERATIONS IN THE BALKANS


                                WITNESS

HON. DENNIS J. KUCINICH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO
    Mr. Callahan. We are pleased to have Congressman Murtha of 
the Defense subcommittee. I thought he might enjoy, or might be 
interested in hearing what the next witnesses have to say, 
because the next two witnesses are going to talk about Serbia, 
including Croatia, and some of the surrounding areas of 
Yugoslavia. Being as active and powerful as he is, I thought 
that Congressman Murtha ought to be here to hear that.
    Ms. Pelosi. May I join with you in welcoming our 
distinguished member from the DOD subcommittee.
    Mr. Callahan. Congressman Kucinich.
    Mr. Kucinich. Thank you very much. I appreciate the 
opportunity to appear before this distinguished subcommittee. I 
want to thank Chairman Callahan and Ranking Member Pelosi for 
offering me an opportunity to relate my thoughts on the 
President's budget request for foreign operations to you and 
the committee members.
    I would like to begin by reminding my colleagues that it 
has been a full year since the start of the NATO air campaign 
in Yugoslavia, and my comments will focus on U.S. and NATO 
efforts since the bombing campaign and the costs associated 
with the efforts, specifically with regard to peacekeeping 
operations and funding democracy activities in the region.
    To start, the so-called peacekeeping mission in Kosovo has 
only compounded our failure in the Balkans. A year later we are 
witnessing reverse ethnic cleansing of Serbs and Gypsies by 
Albanians. Since June of last year more than 240,000 Serbs, 
Roma and Muslim Slav Gurani have fled the province of Kosovo. 
The composition of Kosovo is now almost completely Albanian as 
Serbs and other non-Albanians continue to flee for fear of 
their lives.
    An Amnesty International report issued last month concluded 
that after 6 months of peacekeeping efforts in the region, that 
human rights abuses and crimes continue to be committed at an 
alarming rate, particularly against members of minority 
communities. It goes on to say that U.N. police and KFOR troops 
have been unable to prevent violent attacks often motivated by 
a desire of retribution against non-Albanians. Many refugees 
are forced to live in nearby enclaves under heavy NATO 
protection.
    The U.N.'s goals of maintaining a multiethnic Kosovo have 
failed. For example, an attempt to reintegrate Serbs and 
Kosovar children in a village recently failed. In response, the 
U.N.-Kosovo Mission decided to build a separate school several 
kilometers away for security reasons. These failures have 
forced the head of the U.N.-Kosovo Mission, Bernard Kouchner, 
to concede that the most one can hope for is that Serbs and 
Albanians can live side by side. So it would seem that the 
U.N.-Kosovo Mission in Kosovo has drastically changed from 
maintaining a multiethnic society to one that must learn to 
coexist side by side, but not together. Indeed, that is not 
even a representative picture.
    In fact, Kosovo's Serbian and other minority enclaves are 
being emptied of population. Kosovo will soon be ethnically 
cleansed during our peacekeeping operation, and NATO, KFOR and 
the U.S. will have to accept some of the responsibilities for 
that.
    Part of the goal was to disarm the militia groups. However, 
many remain as active as ever under KFOR occupation. For 
example, in the villages of Presovo, Medvedja and Bujanovac, 
which line the southwestern border of Serbia where Albanians 
and Serbs still live, an extremist group called the Liberation 
Army for Presovo is now active, though it did not exist before 
the peacekeeping mission began. Many members of this group are 
said to have been former militia members. This group has been 
blamed for the killing of a Serb police officer and attacks on 
U.N. staff.
    Our conflict could get worse in the future. Recently 
American soldiers raided a radical group's command post, 
seizing hundreds of stashed weapons. This region seems to be 
indicative of what is a broader expansionist goal of creating a 
greater Albania, and that of course is one of the concerns of 
many of us who were challenging the policy a year ago; that is, 
we were in effect exchanging the dilemma of the greater Serbia 
for the equally vexing dilemma of the greater Albania.
    Now there are reports that violent clashes may spill into 
Macedonia and Montenegro. According to a Reuters news report 
last week, the Yugoslav army and Montenegro police agreed on 
Saturday to set up a joint checkpoint between the coastal 
republic and Kosovo in a bid to stop smuggling and terrorism 
spilling over from the province.
    I am concerned that the continued peacekeeping operations 
may increase violence in the region. It is my understanding 
that part of the mission of KFOR is not only to keep the peace 
in a region, but also to train local residents into a civilian 
police force. My concern is that U.N. troops are legitimizing 
and institutionalizing extremist or radical elements of society 
by training them to be a police force.
    Our forces and funds are propping up extremist elements in 
Kosovo and consolidating their power. If indeed rogue elements 
are being trained to become part of the civilian force in 
Kosovo, then this funding will not merely have been wasted, but 
it will have contributed to continued instability in the 
region. I would like to put an American perspective on proposed 
spending of $29 million for continued peacekeeping operations 
in the region.
    You might be interested in knowing, Mr. Chairman, that we 
have a program in the United States called the Troops to COPS 
program, which provides law enforcement incentives to hire 
veterans who have served in our armed forces to serve as police 
officers. Funds are used to reimburse law enforcement agencies 
for training of qualified veterans. Since 1996, funding for 
this program has reached only $3.2 million in 4 years. I would 
ask why should we spend $29 million in 1 year on peacekeeping 
operations that could put extremist elements in charge of 
Kosovo and that so far have proven inadequate. Maybe we should 
be using these funds to train U.S. veterans to become community 
police officers here in America.
    Now I would like to touch upon the funding request for 
support of Eastern European democracy, the SEED program, a 
program which among other things supports democratic movements 
in the region. The funding request has increased from $77 
million in 1999 to $175 million in Kosovo, and from $6 million 
to $41 million in Serbia. It indicates increased and 
intensified U.S. involvement in the internal politics in the 
area.
    Here too our efforts have backfired. Democratic opposition 
groups in Serbia are weaker today than they were a year ago. 
Slobodan Milosevic is stronger. That wasn't our intent, but 
that is what is happening.
    It should concern Congress that we are weakening the 
popular appeal of democracy advocates. Congress needs to place 
limitation on funding to restore its integrity. Congress should 
place, I believe, the following limitations. No funds should be 
appropriated for use by any armed groups or advocates of 
violence, no funds should be appropriated for use by any group 
that advocates the violent overthrow of the Serbian government 
because otherwise we are just continuing to foment more 
violence and we are bound to be stuck with the results which 
are going to be as bad as or worse than the current regime.
    I conclude by saying that we should be skeptical of the 
budget request for peacekeeping operations and the SEED program 
based on past years' failure. I support the reduction of 
funding for peacekeeping troops in the Balkans, and I support 
the advancement of peace and democracy in the Balkans. To 
achieve these goals, Congress will have to place limitations on 
spending in the Balkans; otherwise, we are acting in a way that 
will add to the problem and a lack of democracy in the Balkans 
region.
    So I would say in conclusion, Mr. Chairman, what do we do? 
I think it is noteworthy that when the Organization for 
Security and Cooperation in Europe, OSCE, which is a regional 
intergovernmental organization with members from 55 nations, 
they had successfully deployed before all of this broke out, 
1,300 monitors in Kosovo and those monitors were working on 
prevention of conflict. Now, when you look at the expense of 
the bombing, of the vast technology and hardware and the troops 
involved and the cost in human life and the rebuilding and the 
hospitalization, a ballpark figure is $25 billion to $35 
billion. Compare that to the OSCE Kosovo Verification Mission, 
which was approximately $55 million. It is very clear that we 
had the possibility of a policy where conflict prevention could 
work.
    We saw the early warning signs of the situation where 
rights were being abused and OSCE was right in the middle of 
that, trying to prevent it. We worked prior to this war toward 
the promotion of democracy, human rights and nonviolence by 
local groups and NGOs. We worked for the use of information 
technology to help people build peacekeeping structures, and we 
had a system for introduction and funding of peace monitors.
    What this committee is ultimately faced with is, if violent 
and coercive suppression is to be preferred over peaceful 
conflict resolution. That is a subject not only for this 
committee's wisdom, but for the collective wisdom of the 
Congress of the United States. We are not going to solve 
problems through the use of continued weaponry, more bombing 
and troops. It is not going to happen. It will not happen. We 
will just create more problems and arming people who will soon 
be shooting at our own troops with our arms.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Callahan. Thank you very much.
    I don't think anyone would disagree with anything you are 
saying. What can we do, that is the question. No funds can be 
used for certain things; that is a good idea. Any suggestions 
that you have with respect to language, we would be happy to 
consider. We are at a point where the administration doesn't 
appear to know where we are going, and we don't know where to 
tell them to go.
    Mr. Kucinich. Mr. Chairman and members of the committee, I 
had the opportunity to go to Bosnia, and I have to admit that 
my experience as a Member of Congress on matters related to the 
military may have been somewhat jaded as someone growing up in 
the 1960s, but when I went to Bosnia and had a chance to meet 
with a half-dozen of the generals who are involved with 
managing the peace there, one of the things that impressed me 
in having a chance to meet with the leaders of our armed forces 
is that they were individuals of peace, that they didn't want 
to--they were not people who were looking to go in and kill 
people. They were trying to stop people from killing people.
    Perhaps it was my own stereotypical thinking that led me to 
that moment of amazement, but I will say that we do have people 
in the military who want to take a more peaceful approach 
toward resolving conflict, who don't buy into the fact that 
massive and overwhelming military power is always going to be 
the solution; and sometimes--I know members of the committee 
may feel that is what should be done.
    Clearly the idea of coercive force is reaching its 
limitation as a practical tactical and strategic approach. And 
that is why I say we could look at the success we have had in 
prevention of conflict. It is a lot cheaper in the long run. It 
may save lives and heartache.
    Ms. Pelosi. I want to the thank the Congressman for the 
testimony and the informed laying out of the challenge. We did 
not put our young people in harm's way and commit huge sums of 
money and lead the American people to go up to make peace in 
the Balkans by our actions in Serbia in order for the violence 
to change hands there. So your laying out of the facts and 
recommendations is very valuable.
    Mr. Kucinich. I appreciate the gentlewoman for saying that.
    This was a very tough debate in Congress. We all worked 
together as friends and colleagues, but there are strong 
differences of opinion. We all want what is best for America 
and the world. We have to see how the returns come in, like 
anything else. If it doesn't work out, we have to look at that 
and say, what does it mean.
    One final note on that if I may, there is a historian by 
the name of Barbara Tuchman, who wrote a book called the March 
of Folly, which studies, through history, the commitments of 
government to certain policies which became manifestly 
unworkable, but were pursued through some wrongheadedness or 
stubbornness. I wish that copies of that book could be sent up 
Pennsylvania Avenue and have some of my friends read it.
    Mr. Callahan. Mr. Murtha.
    Mr. Murtha. I don't have any questions.
    Mr. Callahan. The reason that Congressman Murtha is here is 
to hear the testimony.
    Mr. Kucinich. I want to thank the Chair.
                              ----------                              

                                          Thursday, March 30, 2000.

               CONSEQUENCES OF NATO ACTION IN YUGOSLAVIA


                                WITNESS

LJUBISA NALOVIC, DIRECTOR OF NATURAL SCIENCES, FRANCE
    Mr. Callahan. We will let Mr. Nalovic testify at this time.
    He is a Yugoslav native. He has been telling me that our 
mission, our policy, was very flawed and some of the things he 
has told me have come to reality. He was absolutely right.
    He told me before we sent the first soldier into Kosovo 
that we would be in the situation we are in.
    Mr. Nalovic, we invite you to give your testimony to the 
committee. We accept your entire statement for the record.
    Mr. Nalovic. Thank you, Mr. Chairman.
    I would like to thank you personally--you have always found 
the time to listen, during the years of Kosovo conflicts and 
today--for giving me the opportunity to address my opinion. I 
hope to be able to convince you that your country should and 
can make an important effort and contribution to help the 
Yugoslav and Kosovo problems. As one British historian put it, 
``In this matter, there is no question pro and against; the 
question is whether you do or don't know the history.''.
    It would be exhaustive to list all of the wrong decisions 
made by U.S. foreign policy-makers concerning the Balkans since 
1992 who manifestly did not know history or did not take into 
account the mentalities of populations. These decisions today, 
public and notorious, are greatly responsible for the actual 
situation in Yugoslavia and Kosovo, which could be qualified as 
without solution.
    In spite of the assurance given by letter by President 
George Bush to the Prime Minister in 1991 stating that the 
U.S., as well as Russia, France and U.K., desire to maintain 
the Federal Republic of Yugoslavia, Germany was allowed to 
recognize in 1992 Croatia and Slovenia, two Catholic republics, 
as independent countries before the problem of Orthodox 
Serbians and Muslim minorities have been solved. These 
republics have always been Germany's war allies, and the 
Serbian people remember it, from the moment the interethnic 
conflict started, ending in 1995 with the Dayton agreement and 
the exodus of over 200,000 Serbians from Bosnia in 1995, by the 
ethnic cleansing of the Serbs of Croatia with the support of 
the U.S., and today by the Serbian Roma and non-Albanians being 
cleansed from Kosovo in the presence of NATO troops.
    In the past, many of the decisions made by U.S. foreign 
policy-makers turned out to be disasters, and have been 
justified and rationalized with geopolitical and economic 
reasons. This time, by supporting the KLA, by financing their 
weapons, by publicly supporting their provocative and terrorist 
actions, in the end, the real lack of desire for political 
settlement had dire consequences--79 days of intense bombing, a 
massive destruction of Yugoslavia's economy and thousands of 
civilian casualties, which have been justified for humanitarian 
reasons and against ethnic cleansing.
    Actually, and this is the first time in the history, the 
most evident and massive ethnic cleansing has happened and is 
still going on in Kosovo in the presence of U.S. and NATO 
troops. In only 6 months, after the signature of the agreement 
and retreat of the FRY Army, over 350,000 Serbian and non-
Albanian civilians had to leave Kosovo under the threat of the 
Albanians. If to this figure is added half a million Serbians 
that have been pushed out of Kosovo since 1956, the date of the 
large autonomy given to Kosovo by Tito and limited in 1989 by 
the presidency of the former Yugoslavia--200,000 Serbians out 
of Bosnia and 450,000 Serbians out of Croatia in 1995--the 
actual Yugoslavia, 9 years under embargo and lately with its 
industry and infrastructure completely destroyed, supports over 
1 million refugees.
    Today, after 6 months of investigation, the latest OSCE 
report states, among other things, that after 79 days of 
bombing and combat, 2,018 human bodies have been exhumed in all 
Kosovo, mainly from individual graves without distinction 
whether they are Serbian or Albanian soldiers, victims of 
bombing or naturally diseased, and that the majority of these 
bodies were buried after the beginning of the NATO bombing. 
There were no signs or proof of either a planned ethnic 
cleansing on the part of the Serbians nor any kind of genocide 
or concentration camps, but massive population displacement 
started with NATO's bombing.
    None of the alleged mass graves--as the one in Izbica with 
135 bodies which had been presented to the world as proof of 
the Serbian executions for which I asked you personally, Mr. 
Chairman, in April 1999 to come with me and verify--have been 
found. And from June 1999 through February 2000, since NATO 
troops took over, 910 Serbians were killed, 802 were wounded 
and 821 abducted in Kosovo by Albanians.
    If you, Mr. Chairman and fellow Republicans, do not 
publicly ask your executive policy-makers why they involved the 
U.S. in this war before all diplomatic solutions had been 
exhausted--among which was one proposed to NATO and U.S. 
diplomats by the Yugoslavian Government on February 23, 1999, 
but kept hidden from the public--you will bear some 
responsibility in history.
    This war has caused thousands of innocent human casualties, 
the total destruction of Yugoslavia's economy and has cost 
billions of dollars to the U.S. taxpayer. It is a great 
prejudice to American people's idea of democracy not to mention 
the world's perception of the facts and consequences. Also it 
is time to show what your country can do to repair what you 
have done to the Yugoslavian people as a nation, which was 
always pro-American, always anti-German and often anti-Soviet. 
Knowing the mentality of my people who live very much in the 
past are not easily forgiving, most stubborn, I will give you 
some advice which I hope your committee and the next President 
of the U.S. will be able to consider in order to overcome the 
impasse:
    The only way to bring change is to lift the embargo and 
contribute substantial humanitarian, economic and financial 
aid, imperatively announced and initiated, before the next 
political election in Yugoslavia. That would remind the 
Yugoslavian people and the rest of the world that the U.S. is 
still a great nation, able to understand, help and maybe even 
recognize its mistakes.
    Hope should be given to the Yugoslavian people for the 
participation, with other Balkan nations, in the European 
Union. Without Yugoslavia as a central country, the economic 
development of the Balkans will be difficult if not impossible.
    Considering Kosovo, the necessary conditions for peace and 
successful democratic elections are, first, expulsion of 150- 
to 200,000 illegal aliens, mostly from Albania, which exert 
pressure on the population, increase drug traffic and literally 
control the country.
    Serious weapons collection from the population in order to 
create acceptable and secure conditions for the return of 
350,000 non-Albanian Kosovars.
    And finally opening of the political process, respecting 
the peace agreement signed and Security Council resolutions, 
considering Kosovo as an integral part of Yugoslavia, with 
meaningful autonomy.
    Mr. Chairman, the future of this country right now is in 
the hands of the American Congress, and I hope your committee 
will visit Kosovo, which will give you the opportunity to see 
the serious humanitarian consequences and problems relating to 
the presence of a large refugee population in the world and 9 
years under embargo in the NATO bombing. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Callahan. Thank you, Mr. Nalovic. You certainly have a 
rich history.
    I can attest that Mr. Murtha and I almost expressed your 
same views to the President of the United States before we went 
into Kosovo. All of us in the planning stages of the deployment 
of our troops and the involvement of NATO forces in Kosovo, 
expressed consternation to the President. We had concerns.
    But we in this country have also a Constitution that gives 
the power to the executive branch, and when the President comes 
and tells us he is going to do it anyway, our responsibility is 
to pay the soldiers.
    Mr. Murtha, Mr. Nalovic told me exactly what was going to 
take place before we sent the first soldier there. That it was 
not going to provide peace, it was just going to reshift ethnic 
cleansing, and that is exactly what has happened.
    Mr. Nalovic. I didn't come to criticize American policy. I 
am asking you to do something that doesn't cost the United 
States a penny, to lift the embargo.
    Mr. Callahan. The government must make that decision.
    Mr. Nalovic. This was promised by signature of the Dayton 
agreement. It was not done. Today, America's policy-maker is 
asking the Yugoslavian people to vote against Milosevic.
    Mr. Callahan. Is Mr. Milosevic's popularity greater today 
than it was?
    Mr. Nalovic. Double since bombing. Today it is 60 percent.
    Mr. Callahan. So even if we had a free election, he would 
be reelected?
    Mr. Nalovic. I think he would.
    Mr. Murtha. Separate the two out for me.
    Bosnia, did we handle that right?
    Mr. Nalovic. Bosnia was our fault. I don't think that 
Serbia had to do that--the Serbian forces, Serbia. That was 
awful. Now we are talking about Yugoslavia today.
    Mr. Murtha. Bosnia, the people are separated by the war. 
That hasn't changed much.
    Mr. Nalovic. That was multiethnic republic.
    Mr. Murtha. And we don't get a lot of problems in Bosnia.
    Move over to Kosovo: Your concern in Kosovo, as our concern 
was, they are living together, they hate each other?
    Mr. Nalovic. For centuries. There was a solution before 
bombing, the Yugoslavian Government accepted everything that 
NATO asked. I think Madeleine Albright didn't want it. Bombing 
started before it got published.
    Mr. Murtha. I think the State Department misled the 
President. You are saying lifting the embargo would what?
    Mr. Nalovic. Of Serbia.
    Mr. Murtha. What would that do?
    Mr. Nalovic. The Serbian people will vote against 
Milosevic. They don't trust America. They promised to lift the 
embargo in 1995--that was signed; there was a handshake--and 
the embargo stayed in place.
    My mother died during the bombing. There is no electricity, 
no water, no food, no gasoline, nothing.
    Mr. Murtha. Today?
    Mr. Nalovic. It is only black market.
    Mr. Murtha. Who is the embargo hurting?
    Mr. Nalovic. The population--350 schools, 61 bridges, all 
electricity plants destroyed; the gasoline, there is nothing 
left--just for humanitarian reasons, to protect Albanians. And 
only today there are officially 2,000 bodies, casualties from 
bombing everything today.
    The media and the manipulation made Serbian people look 
like criminals; I am sometimes ashamed to say I am Serbian. 
They are nice people. You should come to see how these people 
suffer because of the media and political situation in which 
they get involved and because of Milosevic. But just give them 
proof that the American people are democratic and understand 
the suffering.
    Mr. Murtha. You are saying, lift the embargo because of the 
hardship. Is there a criterion to lift the embargo?
    Mr. Nalovic. Yes. Would you do this if somebody told you, 
get rid of Mr. Clinton and we will work with you economically? 
You would say no. It costs the American taxpayer nothing.
    Mr. Murtha. I understand.
    Mr. Nalovic. Mr. Callahan is a friend since a long time. In 
2, 3 years Milosevic is gone. People are not stupid, but they 
don't trust anymore Americans, because they promised something 
and they didn't do it.
    Mr. Callahan. Ms. Kilpatrick.
    Ms. Kilpatrick. Thank you. I appreciate your testimony and 
your passion. This puts us in a predicament. The U.S. feels 
that they are helping the situation and from your testimony, 
you feel that they are not.
    Mr. Nalovic. The Bosnians take stones and hit tanks of 
NATO. They back up. They don't want to get involved.
    Ms. Kilpatrick. Should we pull out our troops in Serbia?
    Mr. Nalovic. Yes.
    Ms. Kilpatrick. We just passed a supplemental.
    Mr. Nalovic. I was listening this morning. I am sure that 
Europe will become more responsible if you tell them--if you 
don't pay; they have a lot of money. Europe is today 
economically in very good shape. But if you say that you were 
going to remove your troops, they would pay everything.
    Ms. Kilpatrick. Send the troops home and withdraw the 
money? Lift the sanctions?
    Mr. Nalovic. The people will get rid of him, believe me. 
But today as a condition for them to have bread and 
electricity--get rid of Milosevic, no.
    Ms. Kilpatrick. We just had 2 days of debate on a 
supplemental that has $2 billion for Kosovo in it.
    Mr. Callahan. No.
    Ms. Kilpatrick. Some portion of that.
    Mr. Callahan. $2 billion to replenish the budget of the 
Defense Department.
    Mr. Nalovic. I think you are facing that in 5 years the 
Americans will be still there and you are going to face the big 
Albania. They want to be Albania.
    Ms. Kilpatrick. We want to help where we are needed. We 
don't want to take over countries, but I understand from your 
testimony that is what is happening, and our actions have been 
negative?
    Mr. Nalovic. It is. That is why I felt that I should be 
here to tell this.
    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Mr. Callahan. Thank you.
    Thank you, Mr. Murtha, for attending our committee today.
                              ----------                              --
--------

                                          Thursday, March 30, 2000.

                   FOR FOREIGN ASSISTANCE TO UKRAINE


                                WITNESS

HON. BOB SCHAFFER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO
    Mr. Callahan. Congressman Schaffer.
    Mr. Schaffer. Thank you. I am here to talk about the 
Ukraine, a country that I believe is the linchpin of our 
efforts to promote democracy and free markets and greater 
relationships with the 15 republics of the former Soviet Union.
    The Ukraine and its political system have realized some 
pretty dramatic changes over the last few months and those are 
an optimistic sign. I am here to urge the committee to make a 
continued level of funding for the Ukraine--earmarked. 
Representative Kaptur and I are both co-chairs and have spent 
considerable time meeting with the Ukraine officials. Let me 
just mention a couple of the political remarks and I will be 
brief and submit my testimony for the record.
    Essentially, we have just seen a few months ago the final 
election of President Kuchma. He is limited to his last term. 
That provides a certain amount of--a liberating influence on 
him and his administration in a way that I think is very 
promising for us.
    We have seen the appointment of a new prime minister who is 
a banker by trade, not one who has been particularly tied to 
some of the political influences of the past. Ukraine has 
demonstrated early on in this administration that they are 
putting the right people in place to follow through on many of 
the promises that have been made and have been dealing with 
difficult struggles.
    The political considerations now, at this point, I think 
are--and what I mean by that is the pro-Socialist, old 
Communist tendencies have never been more disconnected from the 
leadership in the Ukraine than right now; and I don't believe 
that we have ever been at a point where a commitment to our 
American commitments and desires has been greater.
    I would underscore that comment that I just made about the 
President and Prime Minister with virtually a revolution of the 
Ukrainian RADA. A minor revolution took place where the old 
Socialists who were in charge of the RADA actually hunkered 
down in the new RADA building and the new majority started 
leading the country from a separate office building and 
threatening to create a new parliament building.
    That has settled down now, but we have now a strong, 
committed majority of pro-American free market democrats that 
are in the RADA today, who understand the necessity of proving 
it to those of us here in the United States Congress. They are 
serious about eradicating some of the corruption problems that 
they have had within their own economy, minimizing debt, being 
more responsible with respect to their own domestic budgeting 
and maintaining a stability in their own currency. Monetary 
policies are absolutely critical.
    There is a heightened sense of optimism and promise in the 
Ukraine. It is springtime there, figuratively and literally.
    For that reason, I am here to suggest that many of the 
problems that you and I had discussed 3 years ago with respect 
to some of the regulatory issues that were providing unfair 
barriers of almost criminal proportions with respect to 
American businesses are, in fact, 3 and 4 years old now. I 
think those have been placed behind us, and the new leaders in 
the Ukraine understand that to allow those barriers to U.S. 
businesses to occur is perilous to their future.
    I think Ukraine has never had a better opportunity to prove 
that they are serious about democracy and free market reforms. 
We have seen a number of exciting proposals that are in place 
and taking hold and inspiring not only those of us who have 
worked on Ukraine issues, but the Ukrainians themselves. With 
that, I submit my statement.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Callahan. We never anticipated that Ukraine would not 
be the shining star of the former Soviet Union states. They 
have disappointed us, I will tell you that, but we hope things 
will change for the better in the Ukraine with some of the 
corruption and problems that are so prevalent there, and we 
certainly appreciate your testimony.
                              ----------                              

                                          Thursday, March 30, 2000.

                     FOREIGN ASSISTANCE FOR UKRAINE


                                WITNESS

HON. MARCY KAPTUR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Callahan. Ms. Kaptur.
    Ms. Kaptur. I thank you, Mr. Chairman and Mr. Schaffer, for 
being here today and listening to us on the issue of Ukraine. I 
will submit additional information for the record. I want to 
thank you for your openness to our discussions in past years, 
which we believe have contributed to some improvements 
occurring within Ukraine today.
    We have a long way to go, as you said. In my own judgment, 
this is the most strategic country in Central Europe, and we do 
have a rare moment now that is very promising, but very 
difficult; and I wanted to share with you and for the record 
that many of the problems that we talked about with President 
Kuchma when he was here in December, many companies like 
Pioneer and Land o' Lakes have lost money and have not been 
able to recover back from the government. We now are very close 
to recouping some of the dollars to the satisfaction of the 
companies. This is a huge step forward if we are able to lock 
this in place this year. It is something that we have worked on 
for a very long time.
    I also wanted to say that with the new Prime Minister 
Yushchenko and with the efforts in the RADA, that needs a lot 
of effort, we do see ways in which we can try to be more 
helpful as a parliamentary set of exchanges are put in place.
    I have four recommendations that I would like to briefly 
discuss and then submit more information for the record. One 
builds on language that we have included in prior years' 
measures, specifically in the area of agriculture.
    There is no more important economic sector to Ukraine's 
future than a healthy agriculture. It won't be easy to achieve, 
but I can tell you that the language we were able to include in 
past bills has caused major reevaluation by AID when Greg Hugar 
headed the office there, and what has happened when the 
momentum to focus only on the big units down to smaller and 
independent producers has been put in limbo with the change in 
directors at the AID office in Kiev.
    I am very concerned. Even though we met with Mr. Crowley 
when he was here a few months ago and we thought we had some 
assurance that agriculture would be on the table, it appears 
again that it has fallen off the table for some reason and that 
is a mystery to us.
    We are going to suggest that America not stop trying to 
achieve reform in this sector, that we continue to include 
language to enforce these technical exchanges between our 
respective countries and agriculture, using our private farmers 
and our private sector and land grants and extension systems, 
the Cochran program.
    USDA took out the Foreign Service officer, moving the 
person over to Warsaw; this was a terrible signal. Whatever the 
reason our government did it, a terrible signal to those who 
were trying to achieve reform in Ukraine.
    It is a mystery to me why it is so hard to get the 
attention of our government, State Department, and AID in terms 
of agriculture inside Ukraine. I am not sure that they know 
what their policy is. You have got reform efforts under way, 
and those are all held in suspension now. There is something 
very unusual going on there.
    So I would just urge that agriculture be given some 
uplifting in the language that is included in the 2001 
appropriation, and we will submit that to you.
    Secondly, we would really ask the help of your committee in 
using technology to bridge the lack of infrastructure in that 
country, specifically on rural life and the development of 
rural economic opportunity within that country.
    I think that the use of satellite communication and 
broadcasting in agriculture, using some of the successful 
models that are operating, can share experience between 
villages where we can't put enough people in there. Our Peace 
Corps has hardly anybody there; our AID people are in for 3 
weeks, and then they are gone. If we could work with USAID, 
with the agriculture people, and put together broadcasting that 
would be fairly systematic, we could really reach a lot of 
people and complement some of the other activities.
    We are going to ask your assistance in doing that.
    Thirdly, we ask for language dealing with contracting. 
Because of the disarray in U.S. policy concerning rural 
development, many contracts that had been set in place are set 
to expire in August before harvest. Why can't contracts last 
through the harvest season? We do not understand what is going 
on with the way that these contracts are being administered--
again, a terrible signal to the people who are actually trying 
to live within the realities of a production year.
    Finally, on another issue, Chris Smith and I have worked 
very hard on this issue of sexual trafficking from many 
countries, including the Ukraine, to try to get an evaluation 
from our State Department on what is being done on the issue of 
sexual trafficking. Should we put in some type of FBI office 
affiliate? What do we need to do to deal with this situation? 
It is very, very serious.
    When I was in Israel this summer and I talked to Prime 
Minister Barak, Israel being one of the main recipient 
countries of these women, he had never heard this before. He 
was a new Prime Minister; I forgive him for that. When we met 
at the OSCE with Ukrainian parliamentarians, Chris Smith and I 
were there together, they practically laughed us out of the 
room.
    We are serious about this problem. These women are being 
taken from their homes and put into situations around the world 
that are dangerous, that they can't get out of. We are not 
equipped to deal with this as free societies and we are going 
to ask the help of this subcommittee in getting better 
recommendations from our own administration. I thank you very 
much.
    I also want to thank you, Charles Flickner, for always 
answering our phone calls.
                              ----------                              

                                          Thursday, March 30, 2000.

                     CENTER FOR VICTIMS OF TORTURE


                                WITNESS

JOHN P. SALZBERG, PH.D.
    Mr. Callahan. Mr. Sabo, I recognize your presence along 
with Mr. Salzberg.
    Mr. Sabo. Thank you, Mr. Chairman. The Center for Victims 
of Torture is located in Minneapolis within any constituency 
and was established in 1985 through the vision and leadership 
of then-Governor Rudy Perpich. The center was the first 
treatment facility for victims of torture at the time in the 
United States. Nearly 600 victims of torture from more than 50 
countries have been treated at the center. The center staff 
helps torture victims recover their lives and become 
contributing members of our communities.
    Realizing the increasing number of traumatized refugee 
populations entering Minnesota, the center sought and received 
funding from its State legislature to provide outreach training 
to health care and social service providers who come in contact 
with victims of torture.
    The center assists other facilities worldwide to get 
established and provide care to victims of torture within their 
own country through the center's public policy work and 
training programs. I am very proud to have the Center for 
Victims of Torture in my district and urge the subcommittee to 
give serious consideration to the testimony of its Washington 
representative, Mr. John P. Salzberg.
    Mr. Callahan. Mr. Salzberg.
    Mr. Salzberg. Thank you for another opportunity to address 
the subcommittee on how the U.S. may take a more proactive role 
in helping victims overcome the terrible effects of torture. 
Each year this subcommittee has been responsive. I am also very 
grateful for the support and presence here today of Marty Sabo. 
I am pleased to mention that the center will be honoring 
Congressman Sabo and John Porter at a reception June 21 in the 
Russell Senate Office Building to which you all will be 
invited.
    Treatment centers are an essential ingredient in the 
struggle to prevent and eventually eliminate the practice of 
torture. They serve as national symbols of concern about the 
issue of torture and provide a relatively safe place for people 
to gather efforts against the use of torture. Treatment centers 
also contribute to the growth of democracy. Grassroot leaders 
exist who advocate principles contained in the universal 
declaration of human rights and the bill of rights. They 
represent our values. By supporting treatment centers for 
victims of torture, we help these brave leaders overcome the 
effects of torture and enable them and their compatriots to 
continue to work for human rights and democracy. Finally, 
treatment centers serve as a learning resource about the issue 
and how best to help victims heal from the effects of torture. 
They become resources to train others.
    Congress recognized the importance of supporting treatment 
centers for victims of torture. In 1998, it adopted the Torture 
Victims Relief Act, and in 1999, the Torture Victims Relief 
Reauthorization Act. The Act authorizes ``grants to treatment 
centers and programs in foreign countries that are carrying out 
projects or activities specifically designed to treat victims 
of torture for the physical and psychological effects.'' It 
states only two purposes for which the funds are available, for 
direct services for victims of torture and to train others so 
that they may provide such services. The House Committee on 
Appropriation last year recommended that AID allocate $7.5 
million to support foreign treatment centers for victims of 
torture. I regret that AID's report on implementation of this 
recommendation describes many activities that have only a vague 
relationship to the committee's recommendation and the 
authorization legislation. However, I am also pleased to say 
that AID stated in this report that it will issue a $1.5 
million grant to support capacity building programs for foreign 
treatment centers. We recommend that a significant part of this 
grant provide support for direct services to victims of torture 
as Congress envisioned.
    Treatment centers need support. We ask you to include this 
recommendation in your report. We also recommend that you 
allocate $10 million for this purpose as Congress has 
authorized and ask AID to report on implementing this 
recommendation by February 1. Congress has authorized the State 
Department to make a contribution of $5 million in fiscal year 
2000 to the Voluntary Fund for Victims of Torture. The 
administration has requested this amount. As the center has 
testified in past years, the U.N. fund continues to provide 
critical support to treatment centers around the world, 
including centers in the United States. We strongly recommend 
that you endorse the administration's request.
    The World Conference on Human Rights in 1993 adopted the 
Vienna Declaration which states, ``one of the most atrocious 
violations against human dignity is the act of torture, the 
result of which destroys the dignity and impairs the capability 
of victims to continue their lives and their activities.''
    In his speech before the conference, Secretary of State 
Warren Christopher called for eliminating torture by the year 
2000. That has not happened. But you can help make it happen by 
urging our government to give greater priority to eliminating 
torture and assisting torture victims. Thank you.
    Mr. Callahan. Thank you Mr. Salzberg. We generally do 
whatever Mr. Sabo asks.
    Mr. Sabo. I wish that was the case.
    Mr. Callahan. You can see that his footprints were clearly 
visible in last year's language.
    Mr. Salzberg. We appreciate your support.
    Mr. Sabo. Thank you, Mr. Chairman.
    Mr. Salzberg. Thank you, Mr. Chairman.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

                          ROTARY INTERNATIONAL


                                WITNESS

RICHARD F. SLAGER, M.D.
    Mr. Callahan. Dr. Slager, we are going to provide the 
necessary money and instruction to UNICEF.
    Dr. Slager. For the $25 million? May I say thank you, then 
the trip was worthwhile and I want you to know that I wish you 
the very, very best on your trip back at 7:00.
    Mr. Callahan. I don't want to cut you short, but we are all 
very familiar with the efforts and success of the Rotary 
program. It is something that we all admire and we are 
encouraging other civic organizations to follow your example. 
The Kiwanis has taken your lead. We are encouraging other 
organizations to adopt projects such as you did. It is a very 
successful program.
    Dr. Slager. We are pleased with your support to help make a 
success. I spoke to Herb Brown last evening and he wanted to 
pass his best on to you.
    Mr. Callahan. Give him my best.
    Dr. Slager. I think we are on schedule. Obviously the 
transmission of the polio virus is becoming more and more 
difficult. As we go into the poorest of the poor, when people 
are riding canoes and foot and horseback, it is costing more 
than we anticipated, but by 2005, we feel we are on course to 
certify the world free of polio. Thank you very much and God 
bless.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

       INTERNATIONAL UNION AGAINST TUBERCULOSIS AND LUNG DISEASE


                                WITNESS

LEE RICHARDSON
    Mr. Callahan. Dr. Reichman, you heard me speak of our 
concern for time. Your entire statement is accepted for the 
record.
    Mr. Reichman. Mr. Chairman, I am Lee Reichman, director of 
the New Jersey Medical School National Tuberculosis Center. We 
were a component of the International Center for public health 
in Newark, New Jersey. Today I am representing the 
International Union Against Tuberculosis and Lung Disease. The 
union is the oldest nongovernmental organization dedicated to 
worldwide control of TB operating since 1920.
    First I would like to thank you personally along with 
Representative Frelinghuysen from my State of New Jersey for 
your leadership in global TB control. You were ahead of the 
curve 2 years ago, you defined it as an important problem, and 
now it is a very sexy issue, but you should take credit because 
you really started the ball rolling and we appreciate that.
    My request is simple. We ask the committee to provide $100 
million for global tuberculosis control activities in the child 
survival account of USAID.
    While that number may seem large, the real need is much 
greater. Last Thursday was World Tuberculosis Day. The 118th 
anniversary of Koch's discovery of the tubercular bacillus. 
Consider the following: Last year more people died of TB than 
in 1882 when made his discovery. More than a third of the 
world's population is infected with TB. TB is the leading 
killer of women surpassing any cause of maternal mortality. TB 
creates more orphaned children than any other infectious 
disease.
    TB is the leading killer of HIV positive individuals 
causing over 30 percent of deaths. As the number of cases 
increases, multiple drug resistant tuberculosis has become a 
major worldwide concern, concerns of security officials and MDR 
TB is always man-made, caused by neglect of normal TB 
practices. 43 percent of U.S. TB patients occurred in foreign-
born individuals. Clearly the U.S. will not control domestic TB 
until global TB is addressed. The only worse thing than no TB 
control program is a bad TB control program. We have to make 
sure well-placed good tuberculosis control programs are 
available worldwide.
    With the globalization of our economy, we must recognize 
that we cannot control TB anywhere unless we control TB 
everywhere. So I would like to thank you for your support and 
hope that we will be able to continue to make a major dent in 
tuberculosis control worldwide.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                        Thursday, March 30, 2000.  

                         KIWANIS INTERNATIONAL


                                WITNESS

BO SHAFER, PRESIDENT ELECT
    Mr. Callahan. Mr. Shafer. We know of your program and I 
thank you for your kind comments in Mobile the other day. We 
compliment you on your good program.
    Mr. Shafer. Thank you very much. On behalf of 10,000 clubs 
and 600,000 members in the United States alone of which you are 
one of them, we want to thank you for our partnership with 
UNICEF, and you folks have helped solve the problem of 
preventable mental retardation around the world from iodine 
deficiency. My name is Bo Schaffer, I am the president-elect of 
Kiwanis International, and with me is the Treasurer of Kiwanis 
International Brian Cunat from Illinois.
    I want you to know I am in just as much a hurry as you are 
because my daughter is having a baby in Knoxville, Tennessee.
    Mr. Callahan. You go see about your grandchild and I will 
worry about your money.
    Mr. Shafer. Thank you very much. Three things. I want to 
stand up while I say them. I ask you to help us continue to 
tell America how important it is to prevent iodine deficiency, 
to continue support of UNICEF for $110 million, and provide 
$2.5 million for the Children's Fund and $2.5 million for the 
former Soviet fund for iodine deficiency programs, with that we 
are done.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

  DEPARTMENT OF IMMUNOLOGY AND INFECTIOUS DISEASE, HARVARD SCHOOL OF 
                   PUBLIC HEALTH, HARVARD UNIVERSITY


                                WITNESS

DYANN WIRTH
    Mr. Callahan. Thank you. Ms. Wirth. We will accept your 
entire statement for the record.
    Ms. Wirth. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to testify today. My name is 
Diane Wirth. I am a professor at the Harvard University School 
of Public Health, Department of Immunology and Infectious 
Disease. I am here today on behalf of the American Society of 
Tropical Medicine and Hygiene as the immediate past president. 
ASTMH is a professional society of 3,500 researchers and 
practitioners dedicated to the prevention and treatment of 
infectious and tropical infectious diseases.
    I am here today to express the society's strong support for 
two issues: USAID's child survival and infectious disease 
programs and new proposals and to spur R&D on new vaccines and 
drugs to combat global infectious diseases. I will be 
summarizing the remarks contained in my written statement.
    The society thanks the members of this subcommittee for 
their previous commitment and support for the programs 
administered by the U.S. Agency for International Development 
targeted to combating the global burden of tropical and 
infectious disease. World health experts estimate that USAID's 
child survival programs have since 1985 saved over 25 million 
children's lives. Despite this progress, I am sure every member 
of the subcommittee would agree that the global burden of 
tropical and infectious diseases remains staggering and poses a 
tremendous threat to us all.
    According to the World Health Organization, infectious 
diseases account for more than 13 million deaths a year. HIV/
AIDS, TB, malaria, and hepatitis B and C are either spreading 
or becoming more drug resistant. Malaria alone is estimated to 
cause up to 2.7 million deaths each year, and tragically, every 
30 seconds a child in the world dies of malaria.
    With the enormous volume of travel and trade today and the 
interconnection of the world economies, infectious diseases do 
not respect borders. This is emphasized in unclassified report 
released in January from the CIA's national intelligence 
council assesing the global threat of infectious disease 
stating ``new and reemerging infectious diseases will pose a 
rising global health threat and will complicate U.S. and global 
security over the next 20 years. These diseases will endanger 
U.S. citizens at home and abroad, threaten U.S. Armed Forces 
deployed overseas, and exacerbate social and political 
instability in key countries and regions in which the United 
States has significant interests.
    USAID programs targeted to the prevention, treatment and 
control of tropical and infectious disease are now more 
important than ever to the Nation's foreign policy objectives 
and U.S. strategic interests.
    The ASTMH strongly supports USAID's child survival and 
disease programs and is pleased that the President has 
recognized the importance of these programs. We ask the 
subcommittee to support the President's request for a modest 
increase in funding and respectfully urge the subcommittee to 
do better. We believe a significant increase in finding for 
these important activities is warranted. These are proven, 
cost-effective programs and sound investments towards improving 
global health and protecting the health and well-being of 
Americans at home and abroad.
    The ASTMH also asks the subcommittee to work with your 
colleagues and the administration in supporting efforts to 
encourage research and development on vaccines and drugs to 
combat malaria, TB, HIV/AIDS, and other infectious diseases and 
to ensure these vaccines and drugs are accessible to 
populations in developing countries most impacted by these 
diseases. These efforts, that are embodied in the President's 
Millennium Vaccine Initiative and in legislation pending before 
Congress.
    The Society would specifically like to thank Congresswoman 
Pelosi for advancing these important initiatives through the 
introduction of H.R. 3812, and we wish to thank the members of 
this subcommittee who have been strong and tireless advocates 
for efforts to improve access to vaccines and drugs in the 
developing world.
    As we begin the 21st century, control of global infectious 
disease threats is not just a development issue, it is also a 
national security issue for the United States and a health 
concern for every American. Investments in global infectious 
disease programs are clearly a win/win for the country by 
helping others, we are also launching the best defense to 
protect the health of our Nation. We hope you will seriously 
consider these requests.
    Thank you for the opportunity to present the views of the 
American Society of Tropical Medicine and Hygiene. I would be 
happy to answer your questions.
    Mr. Callahan. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Pelosi. I want to thank Dr. Wirth for your excellent 
testimony and great leadership on this issue of grave concern 
to the world. It is really so important and I look forward to 
drawing on your great ideas as we go forward with this. We are 
hoping to succeed with the vaccine legislation. The chairman 
has been a champion for this also.
    Mr. Callahan. Dr. Spalter.
                              ----------                              --
--------

                                        Thursday, March 30, 2000.  

                         HELEN KELLER WORLDWIDE


                                WITNESS

DR. HAROLD SPALTER
    Dr. Spalter. I am here today on behalf of Helen Keller 
Worldwide to encourage the committee to continue funding for 
prevention of the childhood blindness caused by vitamin A 
deficiency and a cure of childhood blindness caused by 
cataracts. Accompanying me is Dr. Susan Pettiss, senior adviser 
who initiated the vitamin A program at Helen Keller many years 
ago. I am happy to tell you that Dr. Pettiss is a native of 
Alabama.
    Mr. Callahan. As was Helen Keller.
    Dr. Spalter. My credentials for this task are four in 
number. I have been a practicing ophthalmologist for 40 years 
and currently I am professor of ophthalmology from the 
University of New York. I am a member of the board of trustees 
of the embodiment of Helen Keller's legacy to our country, 
Helen Keller Worldwide, a United States-based private voluntary 
organization currently supporting blindness prevention in over 
30 countries.
    Third, in a voluntary capacity, I have chaired scientific 
advisory panel for research into blindness supporting eye 
research in the United States for 25 years. Finally, my wife 
and I returned from the field trip to Cambodia and Vietnam in 
January 2000 to obtain hands-on experience of your 
congressional initiatives as managed by the effective staff of 
USAID.
    In my recent trip to southeast Asia, it was easy to detect 
the respect that greeted the Helen Keller staff. As we 
cooperated in clinics, classrooms and building family 
vegetables gardens rich in vitamin A, in the makeshift 
operating rooms we developed a person-to-person bond, a bond 
special to those who strive to make the future of all children 
more happy, more secure and more productive.
    We are addressing the global problems of 250 million 
children of preschool age who have inadequate vitamin A in 
their diet, one and a half million blind children and 7 million 
children with low vision. We are talking about unthinkable 
numbers of children at risk of blindness and millions more near 
blind or already blind. Incomprehensible numbers, yes, 
preventable and curable, yes. But right here in the American 
people's house is the fountainhead of sight-saving programs 
made possible by your deliberations enabling our Nation to join 
others less fortunate.
    Our programs focused on vitamin A supplementation are 
designed to become self sustaining as already achieved in the 
Philippines.
    Mr. Chairman, I encourage you to include language in your 
report calling for increased funding for vitamin A. Related to 
that I would hope that the committee would include language 
setting a $30 million program for micronutrients. I also thank 
the committee for the leadership it has taken in recommending 
specific funding for blind children.
    Today we encourage the committee to include a 
recommendation of $1.2 million for those so afflicted. Mr. 
Chairman, I would like to thank the committee for allowing me 
to speak on behalf of Helen Keller Worldwide about the 
importance of simple but vital health interventions. I hope you 
will renew your past support of these programs, and I thank you 
and your staff for your time and consideration.
    Mr. Callahan. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

                                AFRICARE


                                WITNESS

C. PAYNE LUCAS, PRESIDENT, AFRICARE, AND FOUNDING MEMBER OF THE U.S. 
    COMMITTEE FOR UNITED NATIONS DEVELOPMENT PROGRAMME
    Mr. Callahan. Next is Mr. Lucas.
    Mr. Lucas. Thank you. I hope to yield a minute back to you.
    Mr. Callahan. You still can.
    Mr. Lucas. I am not going to read my testimony.
    Mr. Callahan. That is good. We don't really go through each 
individual one because the staff goes through and they pull out 
everything they know we are going to fully fund, and then we 
consider those things we have not been supportive of in the 
past, so your statements do not go unread, and we certainly 
appreciate the information you give us to justify why we 
include it in our bill.
    When I get to the floor, we will have your statement there 
and if anybody asks a question, I will answer them with your 
statement.
    Mr. Lucas. Let me say that under your leadership last year, 
our President went to the Yale University School of Environment 
and Mr. Brown came to our agency. We had instructions from the 
Congress to reduce the bureaucracy and that is well underway at 
UNDP. That is well underway at 25 percent. The greatest kept 
secret of America in the development community is UNDP. Much of 
the success we enjoy abroad is the result of this agency. At 
the end of the day you have got everybody overseas working in 
foreign assistance. Europeans, Asians, Africans, NGOs and 
whatnot. Someone has to coordinate that assistance. The one 
agency that does that and does it with few exceptions is UNDP 
and now that role--today we talk about democracy in Africa and 
private sector development. Much of that is as a result of the 
UNDP effort.
    Last year we asked you for $100 million for this agency. 
You were gracious enough to give us $80 million. This year we 
are asking for $90 million. We hope we will get that, given the 
fact that there now, with this AIDS crisis in Africa, which has 
been defined by Congressman Houghton and Dick Gephardt, it is 
comparable to the war that took place in Europe, 5,000 people 
dying a day.
    In the few minutes that I have here, 15 or 20 people will 
die in Africa. Someone has to coordinate that effort. That 
agency is UNDP, and I am hoping that we you will give us the 
$90 million that we ask for to coordinate billions of dollars 
that are going to be spent worldwide. We have to remember 
Americans are working all over Africa, especially in the 
private sector. 1 out of 10 people in South Africa is HIV 
infected. You have to think about the thousands of orphans who 
are running in the streets of Kenya and Indonesia who have been 
abandoned. We are in denial in the Third World and there is no 
hope that this pandemic is going to be stopped without the aid 
of this Congress, and people with responsibility like yourself 
and other members of this august body.
    Mr. Callahan. Would you like to say something?
    Ms. Pelosi. Mr. Chairman, I would like to speak to the 
coordination of UNDP of so many other investments that we make 
bilaterally and multilaterally, congratulations to you and your 
excellent work.
    Mr. Callahan. One bit of advice. Last year you opposed our 
bill. This year we want your support even though we put $80 
million.
    Mr. Lucas. The former director of our committee is no 
longer with us. We certainly wouldn't condone that, Mr. 
Chairman.
    Mr. Callahan. I would advise you to stay out of that 
portion of the legislation and direct your request to our 
committee and Mrs. Pelosi and I will decide your fate. We don't 
think you ought to be involved in the process of supporting or 
not supporting the rest of the bill.
    Mr. Lucas. Thank you, Mr. Chairman.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

                      ALFALIT INTERNATIONAL, INC.


                               WITNESSES

ROBERTO PEREZ, PRESIDENT
REVEREND BELLO, DOMINICAN REPUBLIC
    Mr. Callahan. Mr. Perez.
    Mr. Perez. Good morning, Mr. Chairman and members of the 
subcommittee. Thank you for providing me the opportunity to 
testify. I am Roberto Perez, president of Alfalit 
International, Inc. Since you have my written testimony, I will 
not read it. I prefer to offer a brief statement and respond to 
any questions you might have. Alfalit is an educational 
nonprofit interdenominational, faith-based organization that 
promotes literacy, basic education, health nutrition and 
community development in 21 countries on four continents. Our 
organization was founded in 1961. The ultimate goal is to 
eliminate human suffering that stems from illiteracy. Through 
education, we are helping to reduce poverty, child labor, 
crime, improve family health and the status of women and 
promote democracy. Today we serve more than 87,000 students 
from around the world. Alfalit is cost effective. We can teach 
an illiterate person to read and write and do basic math in 100 
hours for $26 on average. Alfalit provides basic education 
equivalent to a 6th grade level for an additional investment of 
about $85. 90 percent of Alfalit's 7,600 teachers throughout 
the world are also volunteers. Based on the numbers of books 
Alfalit has distributed since 1961, we have reached an estimate 
of 6 million men, women and children.
    Earlier I mentioned that I am president of Alfalit. Well, 
my position is actually a volunteer position, nonpaid and I 
have devoted 32 years of my life, my resources and my future to 
this organization, because I believe that it saves thousands of 
lives from misery. A great philosopher said to educate is to 
bring freedom. Education is freedom, especially in poor 
countries. Please allow me to introduce a man who earned his 
freedom through education. Reverend Bello, at the age of 17 had 
a third grade education. He could hardly read and write. In 
1967 I tutored him. He wants to read his statement in English 
for your benefit. As you say here, I think, in Congress, I 
would like to yield one minute of my time to the gentleman from 
the Dominican Republic.
    Mr. Bello.  I have traveled from the Dominican Republic to 
be here today. You might wonder why I have traveled so far to 
speak for only one minute. It is because Alfalit changed my 
life. Without Alfalit, I would be in the streets selling 
anything just to survive. I was a poor, illiterate teenager and 
Alfalit gave me the opportunity to follow my dreams. Because of 
Alfalit, I received a masters in theology and now I am working 
towards a doctorate. I became the director of the same seminary 
that would not accept me as an illiterate.
    Today my four children are educated, successful and have 
dedicated their lives to helping the poor and illiterate in my 
country so that others can learn just like I did. This is a 
photo of my daughter who is a teacher.
    Education is freedom. I thank God for this program.
    Mr. Callahan. Thank you. Very well read.
    Mr. Perez. There are hundreds of thousands of success 
stories like Reverend Bello. Alfalit is a proven program. We 
have a 39-year track record. We are both effective and cost 
effective. Because Alfalit has a track record of successes and 
currently serves 80,000 individuals in Central America and 
Latin America and Africa, we are prepared to spend our service 
in U.S. and countries where the Congress and U.S. feel our 
service is needed most.
    Mr. Chairman, we have a great respect for your leadership 
and the fine work of your staff, Mr. Charlie Flickner and Chris 
Walker. Thank you for considering our funding request and God 
bless you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Pelosi. No questions. Thank you.
    Mr. Callahan. Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Callahan. We accept your entire statement for the 
record.
                              ----------                              

                                          Thursday, March 30, 2000.

                    ASSISTANCE FOR ARMENIA AND INDIA


                                WITNESS

HON. FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Pallone. I just want to talk briefly about Armenia and 
then India. With regard to Armenia I think you know that the 
administration requested less assistance for Armenia and more 
for Azerbaijan than in previous years and again I think that is 
unfortunate. I would ask that you provide at least as much 
assistance for Armenia as you have in previous years and I know 
that we have to go through this every year but the bottom line 
is that the situation in Armenia still continues to be very 
grave in terms of the need for humanitarian assistance. They 
have made progress in market reforms, but they need they kind 
of assistance that you have been providing so I ask that it be 
at the same level.
    In addition, to maintain section 907 because I was there 
last summer with a group of my colleagues on a bipartisan 
basis, and we went to Azerbaijan as well, but I am firmly 
convinced that because the section 907 is in place, that is an 
important factor in these negotiations over the Nagorno 
Karbagh, and that if you simply lifted section 907, there would 
not be any feeling that somehow that the blockade was okay and 
it would be all right for Azerbaijan to continue with the 
blockades.
    Mr. Pallone. Two other things, Mr. Chairman. The aid to 
Nagorno-Karabakh which you put in a few years ago, we 
appreciate that, but there is still a problem in terms of its 
actually getting to these NGOs, groups, on a timely basis. So 
if you could put some language in there again asking that that 
assistance which was appropriated a few years ago go to 
Nagorno-Karabakh on a timely basis.
    And, lastly, you previously put in the legislative language 
about confidence building measures, the fact that you want 
funding for programs that will basically bring the two 
countries together, Azerbaijan and Armenia. I think it is 
important to put that in again. So I would ask that you try to 
do that again.
    With regard to India, I just came back from the President's 
trip. Again, we had a couple of Republicans and some Democrats 
accompanying the President. It was a very good trip, and I just 
think it is going to do a lot to bring the two countries closer 
together, and I wanted to mention a couple of things in that 
regard.
    You know that we had this sanctions regime with regard to 
India and Pakistan after the nuclear explosions a couple of 
years ago. Most of those sanctions were waived last year in the 
DOD appropriations bill and, as a consequence, the AID programs 
that the President highlighted when he was in India are very 
important. They have been funded and they are doing very well. 
Obviously, we want to continue to have sufficient funding for 
those AID programs. But we still have sanctions in place with 
regard to the World Bank loans.
    The U.S. is supposed to take a position at the World Bank 
meetings that it is opposed to any loans. I know you don't like 
to do any authorizing if you can avoid it in your 
appropriations bill, but I think in this case, because of the 
good progress we have made, it would be good if we could get 
some language in there saying we no longer will oppose the 
World Bank loans.
    Lastly, I don't know if it is going to happen again, but 
you know that Mr. Burton periodically comes up with these 
amendments to try to eliminate all assistance to India. In 
light of this trip, I think that is totally inappropriate, and 
you should certainly resist, as you have in the past, any 
effort to try to do that.
    The only other thing I wanted to mention, and is sort of a 
last-minute thing with regards to Kosovo, you probably heard 
there is an effort to try to put some kind of cap on funding 
for our operations. Again, I think that is a mistake and there 
should be flexibility there and we should not have a cap on the 
funding.
    And that is all I am going to bother you with.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Callahan. Ms. Pelosi.
    Ms. Pelosi. I just wanted to thank the gentleman for his 
leadership on the two subjects that he brought up, and others 
as well. I am so glad you were on the trip ably representing 
our country in India. Pretty exciting, from here anyway.
    Mr. Pallone. It was.
    Ms. Pelosi. We always have our goals on Armenia, and I am 
sure we will this year again, but----
    Mr. Callahan. Our expert on Armenia is Mr. Joe Knollenberg.
    Mr. Knollenberg. And Frank Pallone.
    Mr. Pallone. But you guys are the best.
    Mr. Callahan. I am talking about on the committee.
    Mr. Knollenberg. Thank you, Mr. Chairman.
    Mr. Pallone. Thank you. Take care. Thanks.
    Mr. Callahan. Mr. Carlin.
                              ----------                              --
--------

                                          Thursday, March 30, 2000.

   THE UNITED STATES CATHOLIC CONFERENCE AND CATHOLIC RELIEF SERVICES


                                WITNESS

FRANCIS CARLIN, DEPUTY EXECUTIVE DIRECTOR, CATHOLIC RELIEF SERVICES
    Mr. Carlin. Mr. Chairman, Ms. Pelosi, Mr. Knollenberg, 
staffers of the committee. I have already submitted my 
testimony. I know you will accept it.
    Introducing myself, my name is Frank Carlin, the Deputy 
Executive Director of Catholic Relief Services. I bring to this 
testimony 34 years of experience with CRS, 25 of that serving 
overseas directing our programs of development and emergency 
assistance. Literally from Liberia to Siberia I have worked.
    My colleague, I would like to introduce, is Carl Foreman, 
the Director of Our Congressional Services. Carl has worked 
here on the Hill for the past 5 years.
    The testimony that I am making is made on behalf of the 
United States Catholic Conference, representing the 300 
Catholic bishops throughout the United States, and my own 
organization, Catholic Relief Services, which is the 
international arm of the American Catholic Bishops and the 
United States Catholic Conference.
    The Migration and Refugee Services of USCC will be making 
separate testimony here later this afternoon. I would like to 
use the time that is allotted to highlight three important 
issues from the testimony that I have presented. The first is 
what we see as the inadequate levels of foreign assistance and 
the misdirection of foreign assistance; secondly, the 
assistance for AIDS programs and the AIDS orphans and positions 
that we would like to see adopted in the appropriations; and, 
finally, the issue of debt relief.
    On foreign aid, we view that foreign aid is more than an 
optimal form of largess. We view it as a fundamental obligation 
of solidarity between those who enjoy the bounty of this earth 
and those who do not. The United States, regrettably, is at the 
bottom of the list in donor nations. They are 21st out of 21 
donor nations, the largest of the donor nations, in terms of 
the percentage of our gross national product that we put into 
foreign assistance. That is, we would submit, regrettable.
    As a portion of that, Africa, the entire continent of 
Africa, receives what we believe to be a scandalous proportion 
of our foreign assistance appropriation. When we look at the 
assistance that is going to the Middle East, it is 30 percent 
of the geographical apportionment, in comparison to the 15 
percent that goes to the entire subcontinent of Africa.
    In addition, over 50 percent of all U.S. foreign aid is 
given for military and security purposes. We cannot do the task 
that we are mandated to do as an American nonprofit 
organization in the third world without larger forms of 
assistance from our government. Every year we increase the 
levels of private assistance, but the problems continue to 
intensify, and we look to our government to provide larger 
allotments of assistance, and particularly to Africa. We submit 
it is time to reorder our priorities.
    The second point I would like to focus on would be AIDS 
assistance. We find that USAID's preferred strategy for AIDS, 
HIV/AIDS assistance, which is based on preventive measures such 
as safe-sex practices, has been a major constraint impeding 
Catholic Relief Services' access to USAID funding. That is 
real. That is not a statement. We can back that up with places 
where we have found that problem. This focus unwisely limits 
involvement of effective agencies who are unable in conscience 
to promote such practices.
    The current request for $10 million for AIDS orphans, which 
is in the bill that you are reviewing, the appropriations that 
you are looking at, we submit should be, at minimum, double to 
begin to address seriously the vulnerability of this neglected 
group.
    Not 2 years ago I lived and worked as a regional director 
in southern Africa based in Zimbabwe. If I looked at the 
situation in Zimbabwe, with a population of 11.2 million 
people, we had situations where entire villages had no adults. 
Not a single adult. All children. One of the biggest growth 
industries was coffins, and that still persists. Twenty-five 
percent of the adult population in Zimbabwe is affected by HIV/
AIDS.
    In the municipality of Mutare, on the border with 
Mozambique, 20 percent of the children are orphans, 2,000 dying 
daily; 1.2 million children will be orphaned in 5 years. 
Something needs to be done for the problem of the orphans soon. 
We are looking at a continent where child soldiers are 
beginning to dominate on the battlefields, and where else can 
these children go in economies that are being torn apart.
    Finally, the final position is on debt relief. Your 
continued leadership and the support on debt cancellation is 
essential. There has been a lot of success. There has been a 
lot of forward movement. There has been a lot of bilateral 
support on this issue. We ask for continued and focused 
attention on monitoring the implementation of the HIPC 
agreement and the poverty reduction strategy, and we urge that 
debt relief not be delayed, particularly the $800 million that 
is pending over the next 3 fiscal years that we are looking at.
    This is something that among the nonprofit organizations we 
are hearing more and more. There is a concentration of concern 
and attention.
    Finally, regarding population assistance, it is the 
position of the American Bishops Conference that we encourage a 
reevaluation of the U.S. priorities for population assistance 
that will intensify the efforts to end hunger, reduce 
illiteracy, and promote sustainable development. In our view, 
any support for coercive population programs leads to a 
violation of human rights and brings us into disrepute in the 
developing world.
    In conclusion, I would like to thank you for the 
opportunity to be able to come here, and I would like to thank 
you for your past support, the hard work that has been done, 
and the entree you provide us each time we come to this table.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Callahan. Thank you. Ms. Pelosi.
    Ms. Pelosi. I just want to thank you, Mr. Carlin, for your 
fine work and your excellent presentation.
    Mr. Callahan. I might make one brief comment with respect 
to the percentage of gross national product. I will give you an 
example that distorts that theory.
    Mozambique, 90 days, we have spent $18 million in AID 
assistance from our bill, $28 million in military assistance, 
which is providing for assistance, and not fighting a war 
there. They are there to help the people. So our aid has 
actually doubled, if you consider the fact that our military 
support in situations like Mozambique is never counted in these 
figures. So I don't think you should be embarrassed about the 
U.S.'s contribution to the world human misery problems.
    Ms. Pelosi. Mr. Chairman, I would like to then chime in and 
say that I do think that we do not commit enough of our own 
resources to match the leadership role that we need to have in 
the world.
    Mr. Callahan. That may be.
    Ms. Pelosi. The AIDS in Africa issue is something we have 
known about on this committee for a long time and have tried to 
find money for, and now other people have discovered it. The 
administration is making a big push, the U.N. has it there, and 
it should come as no surprise, what you have told us, Mr. 
Carlin. It has been an ongoing issue for a very, very long 
time, and now many people have died who did not have to because 
the commitment, not just of the U.S. but of Africa too, because 
of so much denial and all of it.
    But I do think, for example, Mr. Flickner was just calling 
to mind that we had put this AIDS orphan issue at our office's 
initiative in the 1999 House Report. But we have known about it 
for a long time, about these orphans. So we need all the 
countries of the world, the G-7, and we have been asking the 
administrations, Republican and Democrat alike, to get this on 
the agenda of the G-7, or the G-8, whatever it is called now, 
whoever is in the room at the time, if Russia is there or not. 
Because if you can ignore the human toll, which would be hard 
to do, if you are talking about the economies of the developing 
world, you cannot talk about it without talking about the toll 
that AIDS is taking in these communities.
    So I thank you for your leadership, and I do wish that we 
had a stronger commitment to put resources where they are 
needed so that more is not needed, because we can prevent some 
of these tragedies that are there.
    But the chairman is right, the American people are very 
generous and very compassionate and they want us to come to the 
aid of Mozambique, and we should get credit for what we do. But 
I think we can do much more. Thank you.
    Mr. Callahan. Thank you, Mr. Carlin.
                              ----------                              

                                          Thursday, March 30, 2000.

          FAITH ACTION FOR PEOPLE-CENTERED DEVELOPMENT POLICY


                                WITNESS

WALTER OWENSBY, MINISTER, PRESBYTERIAN CHURCH USA
    Mr. Callahan. Mr. Owensby.
    Mr. Owensby. Chairman Callahan and members of the 
committee, we appreciate the opportunity to be here with you 
today. I am Walter Owensby, a minister of the Presbyterian 
Church USA, and I am accompanied by Miss Lisa Wright, Acting 
Director of the National Council of the Churches of Christ.
    We are here today to speak on behalf of Faith Action for 
People-Centered Development Policy, which is a working group of 
more than 20 Protestant communities, Roman Catholic groups, and 
faith-based advocacy organizations, and to add our brief 
personal testimony to the written document that you already 
have.
    At the head of our list of concerns this year is the 
international debt of the poorest countries, and we want to ask 
Congress to approve the funds and authority needed to provide 
cancellation of both bilateral and multilateral debt owed by 
the highly indebted and most impoverished countries that 
already qualify for consideration under U.S. law. However, we 
feel strongly that funding for debt relief must not come at the 
expense of other assistance programs or other lending programs.
    Indeed, there is a compelling need to increase the level of 
U.S. commitment to sustainable development, and we ask that you 
increase funding sufficiently to provide full support for 
recommendations such as needed to restore designation for the 
Development Fund for Africa and increase funding to implement 
fully a critical array of programs for Africa, including the 
African Development Foundation, Microenterprise Lending, Child 
Survival, Conflict Resolution, and the Africa Seeds of Hope 
Act. We urge you to restore funding for the United Nations 
Development Program. Additionally, we ask Congress to replenish 
fully The International Fund for Agricultural Development in 
order to promote food security for Africa.
    While we continue to work for reforms at the World Bank, we 
also believe that financing for the International Development 
Association is of critical importance to sub-Saharan Africa. We 
have been encouraged by the increased seriousness of both 
Congress and the administration regarding the AIDS/HIV 
pandemic, and we urge Congress to pass legislation and 
appropriate the necessary funds to make a major contribution to 
both prevention and treatment of this disease.
    We are also concerned that the interests of the 
pharmaceutical industry may supersede the needs of effective 
treatment for those living in poverty and, thus, we urge an 
approach to the issue of compulsory licensing that will protect 
against that possibility.
    Development assistance to Latin America should be increased 
above last year's levels to meet the ongoing reconstruction 
needs resulting in the massive damage that has been done by 
hurricanes and floods. And, further, we recommend that there be 
renewed support for the Inter-American Foundation and its 
development activities.
    In looking at the foreign assistance budget, we of course 
take note of the large portion of U.S. foreign assistance that 
has been devoted for the last 20 years to supporting the Arab-
Israeli peace process. And now, with some better hopes for 
peace in the region, we are encouraged by Israel's voluntary 
acceptance of an annual reduction of $120 million over the next 
8 years, and we ask that you redirect the full amount to 
development programs in other countries within the region and 
beyond.
    And while we join Congress in enthusiastically supporting 
the Middle East peace process, we also urge that supplemental 
peacemaking appropriations to the region be directed toward the 
actual costs of implementing peace agreements and not for 
military uses. Additionally, we urge that needs related to the 
Israeli-Arab peace process not be met at the expense of other 
regions of the world.
    The post-Cold War era has produced nearly 14,000,000 
refugees and more than 17 million persons who are displaced in 
their own homelands in dozens of countries around the world. We 
urge you to return U.S. refugee admissions to their historic 
levels of over 100,000 persons per year and to restore a higher 
level of funding to the migration and refugee assistance 
account to meet the pressing needs of those who have fled their 
homes and homelands.
    We also call for strong Congressional commitment to 
conflict resolution, multilateral peacekeeping efforts, and 
U.S. participation in the banning of land mines.
    And, finally, we ask you to reject funding for ineffectual 
anti-narcotics programs that too often result in human rights 
abuses.
    We thank the committee for this opportunity to express our 
views and look forward to a continuing dialogue on these and 
other issues.
    Mr. Callahan. Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

            AMERICAN ISRAEL PUBLIC AFFAIRS COMMITTEE (AIPAC)


                                WITNESS

HOWARD A. KOHR, EXECUTIVE DIRECTOR
    Mr. Callahan. Mr. Kohr.
    Mr. Kohr. Good afternoon, Mr. Chairman.
    Mr. Callahan. We have been suggesting to all of our 
witnesses today that the shorter you talk, the better off you 
are going to be.
    Ms. Kurz. We should leave now.
    Mr. Callahan. So we ask you to recognize that when the sand 
expires, so does your time.
    Mr. Kohr. I appreciate that.
    Mr. Callahan. We will accept your statement for the record.
    Mr. Kohr. It is a pleasure to be here once again. I am 
joined by my colleague, Ester Kurz, Director of Legislative 
Strategy. I want to first start by saying thank you very much 
to you, Mr. Chairman and the members of this committee, for 
your long, consistent and steadfast support of the U.S.-Israel 
relationship. As I see from other remarks, I am sure you 
understand how important that has been to Israel and to U.S. 
Interests in the region.
    A lot has changed since I was here a year ago. There is a 
new prime minister in Israel who has committed himself to 
reinvigorating the peace process on all three fronts, on the 
Palestinian track, on the Syrian track, and on the track with 
Lebanon. It is important to note that on the Palestinian track, 
since last September, he has signed an agreement with Chairman 
Arafat and President Clinton at Sharmel-Sheikh, and under the 
terms of that agreement he has continued Israeli withdrawals 
from the West Bank, opened up a safe passage route for the 
Palestinians traveling from the West Bank and Gaza, he has 
released additional prisoners, and even just last week he 
completed the withdrawal from another 11 percent of the West 
Bank. And that now means that the Palestinian Authority is in 
control of 40 percent of the territory and 99 percent of the 
Palestinian population.
    Earlier this week the Palestinians and the Israelis 
continued to get on the Palestinian track at Bolling Air Force 
Base to continue talking about the final status issues. Their 
hope is to conclude a framework agreement on permanent status 
by the end of May and in preparation for a final agreement 
sometime in the middle of September.
    On the Lebanese front, the Barak government has decided, in 
a formal cabinet decision, to withdraw unilaterally from the 
entire security zone in southern Lebanon by July of this year. 
They prefer to do this with an agreement, but absent the party 
to negotiate with, they will do it even without an agreement.
    The greatest disappointment, Mr. Chairman, and the greatest 
concern, are the changes on the Syrian track. And despite 
Israeli concessions, despite the high-level meeting this past 
weekend between President Clinton and President Assad, Syria 
continues to refuse to resume the peace talks with Israel. They 
have boycotted since January. Prime Minister Barak has 
indicated his desire to return to these talks and to continue 
in a spirit of negotiations with no ultimatums. President 
Clinton has said, which we concur with, the ball is now in 
Assad's court.
    We do remain cautiously optimistic that progress can 
continue on most, if not all, of these fronts. There still 
exists the unique opportunity to bring an end to the Arab-
Israeli conflict and bringing incalculable benefits to the 
United States.
    In addition to all the parties in the region, I think it is 
important to note again the United States, both the 
administration and the Congress, has been and is indispensable 
to these efforts, both in terms of helping to facilitate 
negotiations, and in terms of assisting Israel as it takes 
risks for peace.
    Four years ago, the prime minister, then Prime Minister 
Netanyahu, came before the Congress and, on the strength of 
Israel's improving economy, made a pledge to begin the process 
of lessening its dependence on U.S. economic assistance. 
Unfortunately, and ironically, as Israel comes closer to making 
peace with its neighbors, military threats to its existence are 
not lessened but rather increasing, frankly, very dramatically 
from the rogue states on its periphery.
    Weapons of mass destruction and the programs to deliver 
them are being developed at a faster rate than before. Iran's 
test of the Shahab-3 ballistic missile in 1998 sent a signal to 
all of us that, regardless of the moderating trend on the 
domestic front, the Islamic republic in Iran is determined to 
acquire strategic military capabilities.
    Congress took an important step this month in unanimously 
passing the Iran Nonproliferation Act. But the facts on the 
ground have not improved. If anything, they have gotten worse, 
and particularly in the advancements of Iran's nuclear program.
    In Iraq, there are indications that Saddam Hussein's regime 
has rebuilt portions of its prohibited arsenal since U.N. 
inspectors were forced out and the U.S. conducted Operation 
Desert Fox in 1998. Israel has yet to have an operational 
missile defense system in place that fully meets these 
challenges. In light of these threats, the annual U.S. aid 
request of $840 million in ESF and $1.98 billion in foreign aid 
funding becomes increasingly important to Israel to maintain 
its defense and deterrence capabilities.
    Mr. Callahan. In light of the fact that you have exceeded 
your time already, we are going to accept the balance of your 
statement for the record.
    Any questions?
    Ms. Pelosi. No, Mr. Chairman. I just want to commend Mr. 
Kohr, our witness here now, for his really excellent testimony. 
It is a very important statement for the record in so many 
areas and so timely. I too among disappointed about the 
progress or lack thereof in the Syria talks, but hope that that 
will change.
    Mr. Callahan. They are in Washington 365 days a year.
    Ms. Pelosi. We can talk to them again.
    Mr. Callahan. You can talk to them again.
    Ms. Pelosi. Because they are here 365 days a year. They are 
a great inspiration to the Congress. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

    MIGRATION AND REFUGEE SERVICES/USCC AND CATHOLIC RELIEF SERVICES


                                WITNESS

MARK FRANKEN, EXECUTIVE DIRECTOR
    Mr. Callahan. Mr. Mark Franken. You have heard my 
instructions about time limitations.
    Mr. Franken. Yes.
    Mr. Callahan. And we will be glad to submit your statement 
for the record.
    Mr. Franken. Thank you very much. Thank you for having us 
here today.
    I represent the U.S. Catholic Bishops, and my focus today 
is on particularly the question of refugee protections and the 
migration and refugee assistance account within the budget. In 
the interest of time, let me get right to the point. We appear 
here today because of our concern for the steady decline in 
U.S. leadership with regard to refugee protection.
    Although the United States continues to admit a good number 
of refugees, for the past 8 years it has declined in the number 
of refugees admitted to the United States. In fiscal 1992, 
there were 132,000 refugees, and the budget before you is for 
76,000 in 2001. And this is at a time when the worldwide 
refugee population remains at about 13 million.
    U.S. leadership in responding to the plight of refugees 
should not be underestimated. What we do here has 
reverberations around the world. And it is not coincidental 
that in those years in our decline in the number of refugees 
that we have admitted, the international regime for refugee 
protection has deteriorated. We believe that the 
administration's request for $658 million for this account is 
inadequate to the job. We are recommending an increase of $42 
million, which we think is a modest proposal. It would have the 
effect of allowing for the admission of an additional 20,000 
refugees, which is not an inordinate burden.
    Moreover, we know that the American people understand the 
objective of this program is to protect refugees and to save 
lives. And there are churches, community volunteers, 
synagogues, mosques, and temples around the country that are 
willing and able to take refugees.
    An important feature of the refugee program is the 
partnership between the public and private sector. For every 
dollar that the Congress invests in this program, the private 
sector contributes at least that much. So it is a good 
investment.
    My written testimony, which I appreciate being in the 
record, will go over some of the particular refugees that we 
have concerns about, for which an increase in the budget would 
address. But let me speak to one group in particular, and it is 
the children, the refugee children, who do not have parents or 
guardians with them.
    I think the American public would be shocked if they knew 
that nearly three-quarters of a million unaccompanied refugee 
minors languish in the world today. In the past 3 years, the 
U.S. Government admitted 40 out of nearly three-quarters of a 
million unaccompanied refugee minors. These children are 
particularly vulnerable, and there are opportunities for their 
resettlement in this country.
    We also, because the migration refugee assistance account 
speaks to the assistance that goes to refugees in relief 
situations, we note, distressingly, that the budget does not 
increase at all in this area of basic food, clothing, shelter 
for refugees.
    Another emerging situation that is confronting the 
international community is the question of displaced people 
within their countries. These are people who are refugees but 
they have not crossed an international border. There are more 
displaced people in the world today than there are refugees. We 
think that the MRA account, if it were to be increased, could 
begin to help some of these people.
    In conclusion, let me say that the bishops are concerned 
with this gradual abdication of U.S. leadership in the refugee 
program. We hope that this subcommittee will exert leadership 
in reversing this trend and, by doing so, we serve our vital 
interests and act as examples to other nations. We also honor, 
in doing so, our democratic values; we continue our tradition 
of compassion, which has long characterized our Nation; and 
offer an important beacon of hope to refugees around the world.
    I thank you for your consideration.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Callahan. Thank you very much. Any questions?
    Ms. Pelosi. No, but thank you very much.
    Mr. Callahan. Mr. Knollenberg?
    Mr. Knollenberg. No. Thank you
                              ----------                              

                                          Thursday, March 30, 2000.

                             SEEDS OF PEACE


                                WITNESS

JOHN WALLACH, PRESIDENT AND FOUNDER
    Mr. Callahan. Mr. Wallach.
    Mr. Wallach. Mr. Chairman, Ms. Pelosi, Mr. Knollenberg, I 
am really honored to be here and I am humbled.
    Sixty years ago this month my parents escaped from 
concentration camps in Nazi Germany. They were led by a priest 
out of the camps. My mother was supposed to be on a ship to go 
to England. She missed the boat. The boat was bombed and 
everybody was killed. She was subsequently imprisoned. The 
prison camp was bombed. Everybody was killed. They were able to 
go over the Pyrenees, led by a priest, and got to Portugal in 
1941, and then came to this country. I was born here in 1943.
    When I was 6 years old, I used to lie in bed and wonder why 
I had lived and 1 million Jewish children were killed. In 1993, 
after the World Trade Center bombing, I asked myself a simple 
question: What are terrorists trying to achieve? They are 
trying to instill fear. Why haven't we, as a civilization, as a 
people, come up with something that inspires hope; that says no 
to terrorism?
    I was a newspaper reporter in this town for 25 years. I 
turned to three people I have interviewed many times; the late 
Yitzhak Rabin, Hosni Mubarak, and Yasser Arafat, and I said, 
would you send me 15 kids for one summer, because I would like 
to try to break the cycle of violence by showing that young 
people can lead.
    Forty-five kids came that first summer in 1993. They had an 
extraordinary experience and wound up on the lawn of the White 
House at the historic signing ceremony on September 14, 1993, 
of an Israeli-Palestinian accord.
    In 1995, I left my job and went to work, with the help of 
Elie Wiesel, the Nobel Prize Laureate, full time for Seeds of 
Peace. Seeds of Peace was the organization that I founded in 
1993. Today, instead of 45 youngsters, we have 450 youngsters 
every summer at our own campsite in Maine. They are chosen by 
their governments, ten governments, eight Arab governments and 
the government of Israel. The government of Cyprus, the 
governments of Greece and Turkey, and this summer, for the 
first time, seven governments from the Balkans are conducting 
competitions in their country, through their ministries of 
education, asking thousands of youngsters to answer the essay, 
``Why I Want to Make Peace With the Enemy.''
    In the Middle East alone last year, 4,000 youngsters 
applied for 450 places at Seeds of Peace. Without government 
support, without going to any government for support, we opened 
our own center, a 5,000 square foot building in Jerusalem. That 
center today is the home of 18 classrooms and a state of the 
art computer lab, where 100 Israeli and Palestinian children 
every week are coming to that center to engage in advanced 
coexistence workshops, to learn conflict resolution, and to 
become the leaders of tomorrow.
    We have been featured on ``Night Line'' and on ``60 
Minutes'' because we are the only program that exists anywhere 
in the world that is preparing the next generation for the 
leadership roles in making peace. I come to you today to ask 
you for support for our center in Jerusalem.
    I personally have worked for the last 7 years nonstop to 
raise $2.5 million a year to fund our program. I am very proud 
of the fact that 10,000 Americans, of every race, religion and 
creed, of every ethnic background, support Seeds of Peace with 
their contributions of from $5 to thousands of dollars. It 
costs us every summer to run our programs in Maine for the 450 
kids that are selected by the 10 governments $600,000, or 
roughly $2500 per youngster, a small investment to prepare the 
leaders of tomorrow.
    There is an enormous demand for what we do, which is 
basically train these youngsters in how to make peace. They 
live together, they eat together and play a lot of sports 
together, but they spend 3 hours a day in intense, what we call 
coexistence sessions, where they are led by professional 
facilitators, and we think of ourselves as almost a 
detoxification program. All the hatred that has been programmed 
into a 13 or 14-year-old comes out. And under the guidance of 
Israeli and Palestinian facilitators, who work side-by-side, 
these youngsters go through a process in which they tell the 
other side, ``I am the victim, you are the aggressor.'' That 
has to happen. And then suddenly, after they have been through 
that process, they hear the other side say, ``I'm the victim, 
you're the aggressor.'' And they both find out they are both 
victims.
    In that process, over the course of 3\1/2\ weeks, we do 
three 3\1/2\ week programs every summer, they bond in the most 
extraordinary way and they go home to become the true leaders 
of tomorrow. Those kids are now visiting our center, engaging 
in these workshops, engaging in advanced sessions. It is the 
only place in the Middle East where Israelis and Palestinians, 
and even Egyptians and Jordanians are coming to be together 
with each other to plan for a different and for a better 
future.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Mr. Chairman, if I could I would like to 
make a comment or two. I have gotten to know John Wallach, and 
of course Lindsey Miller over here, but I have been to this 
camp in Lewiston, Maine. It is an extraordinary camp.
    And when he talks about these kids coming together, they 
come together hating each other, despising each other. But I 
was there at a juncture about 2 weeks into the 3-week period, 
when they had learned to like each other, to respect each 
other, and they played together. But this is not a camp for 
playing, it is a camp for doing and learning and actually 
breaking down this resistance that has been there for 
centuries.
    I must tell you that what I saw makes me say that this is 
an extremely well-thought-out program. Privately funded over 
the years, yes, but they are at a point where it is starting to 
grow into proportions where they need some financial 
assistance. I am one individual, and I am sure there are others 
too, that is very strongly supportive of what Seeds of Peace 
does. I have seen what it does and have seen the kids after 
they become the ambassadors in their various countries.
    The kids are not selected at random. They have to pass 
muster in a variety of ways. So I just speak very highly of the 
program and what it can do. We spend so much on defense, and I 
am the first to say we should, but we should also spend a 
little bit on peace and breaking down those resistant barriers 
that are there.
    So thank you, Mr. Chairman.
    Mr. Callahan. That testimony helped your cause very much. 
We pay a lot of attention to Mr. Knollenberg here as well as 
Ms. Pelosi.
    Ms. Pelosi. If I may, Mr. Chairman, I want to join Mr. 
Knollenberg in praising Seeds of Peace. As you may recall, last 
year we got in the report language $860,000 for the program. 
There has been some concern at the State Department, et cetera, 
in getting this money and what account it comes out of and the 
rest. So we need to free up last year's money and hopefully do 
better this year in a more clear way so that the administration 
will spend what Congress appropriated.
    Mr. Wallach. We are going ahead in any event with our 
programs in Jerusalem. And, in fact, next weekend, if I might 
add this, for the very first time in the history of the region, 
150 educators, teachers and high school principals, Egyptians, 
Israelis, Palestinian and Jordanian, are going to be coming 
together under other sponsorship in Cyprus for a 3-day 
conference called Teaching Tolerance in the Classroom.
    Mr. Callahan. We thank you, Mr. Wallach.
    Ms. Pelosi. I also want to say that Congressman Allen and 
Congressman Baldacci have been strong advocates of Seeds of 
Peace in the past.
    Mr. Wallach. Thank you very much.
                              ----------                              

                                          Thursday, March 30, 2000.

      THE BUSINESS ALLIANCE FOR INTERNATIONAL ECONOMIC DEVELOPMENT


                                WITNESS

DARWIN G. JOHNSON, CHAIRMAN OF BARENTS GROUP, WHOLLY OWNED SUBSIDIARY 
    OF KPMG CONSULTING, LLC
    Mr. Callahan. Mr. Johnson and then Dr. Guthrie.
    Is Darwin Johnson here?
    Mr. Johnson. Yes. Thank you, Mr. Chairman.
    Mr. Callahan. We will accept your statement for the record 
and ask you, or insist that you abide by the sand clock.
    Mr. Johnson. Yes, sir. My name is Darwin Johnson, and I am 
chairman of the Barents Group, which is an emerging markets 
consulting group for KPMG Consulting, and I am here today 
representing the Business Alliance for International Economic 
Development. I appreciate, especially given my 15 years some 
time ago working at OMB, the opportunity to be here today to 
comment on the planned foreign assistance funding for the year 
ahead.
    I will abbreviate my comments, but I do want to talk 
briefly on where our focus is today. It is the view of the 
Business Alliance that the funding levels put forward by the 
Budget Committee for fiscal year 2001 do not meet the 
humanitarian assistance needs of the country nor do they help 
to lay, to a sufficient degree, the foundations for sustained 
economic growth in emerging markets and developing countries.
    I know others will deal with the humanitarian side of this, 
so I wanted to explore from a perspective of self-interest what 
it is that foreign aid does for American citizens, and I wanted 
to highlight three particular points.
    Foreign assistance represents an investment in creating 
economic partnerships and building long-term trading 
relationships with developing nations. Increasingly, it is a 
global world with global linkages. Our presence in emerging 
market countries really does facilitate and improve 
communication and improve trade. We are now getting far more 
out of developing countries than we ever put into them, and the 
form of foreign assistance, U.S. exports to developing 
countries, rose in 1998 to $287 billion, accounting for 42 
percent of the total U.S. global trade. I don't think people 
realize sometimes just how much of our foreign trade does in 
fact go to these countries. A USAID study estimates that the 
surge in trade with developing countries has supported roughly 
1.5 million jobs.
    The second point is that it is worth reminding the 
committee, I am sure you have probably heard this before, that 
80 percent of the total foreign assistance budget goes to 
business services, to U.S. businesses, and U.S. individuals. 
These expenditures support about 200,000 jobs in the United 
States. I am an economist, so I understand this in itself is 
not a rationale for foreign aid, but I know a lot of people 
think that foreign aid is money that disappears from the 
economy never to be seen again and, in fact, 80 cents on the 
dollar is going directly to American citizens.
    A third point that I think is worth emphasizing is that 
foreign assistance is supporting improved financial and fiscal 
infrastructure in emerging market and developing nations, and 
this, in turn, is contributing to a more stable global 
financial system. When we see the impact of financial crises, 
whether they be in Mexico, in Russia, or Indonesia and see the 
impacts on our own financial system, we see that in fact we do 
benefit from financial stability around the world.
    Taking this from another perspective, how does the U.S. 
foreign aid compare to what other developed countries are 
doing? While the United States has generally, over the years, 
been cutting foreign assistance and reducing its presence in 
emerging markets, other developed countries, most notably 
Western Europe and Japan, have been going in the other 
direction and increasing their presence in these emerging 
market countries.
    A few numbers related to foreign aid funding related to 
those points might be worth mentioning briefly. A recent 
research by the Business Alliance reveals that while the U.S. 
was the second largest donor of official development assistance 
in 1998, it was in fact last when you look at it as a 
percentage of GNP, as a measure of our ability to support this 
kind of funding.
    The 15 members of the European Union spent $27.4 billion in 
1998, which is three times the level of U.S. funding of $8.8 
billion, even though the economy of the EU is only about 5 
percent larger than ours. They spent three times as much with 
only 5 percent more income. In Japan, which is the world's 
leading donor nation, gives more development assistance to our 
Latin American neighbors than we in the United States.
    I would say foreign aid is an investment again. The United 
States is a wealthy country. There are returns for this 
investment, and we have the luxury of being able to afford to 
make this investment which will generate returns in future 
years.
    I can see my time is going quickly.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Callahan. No, your time has expired. We do appreciate 
your testimony. We will accept the entire statement for the 
record.
    Mr. Johnson. Thank you very much.
                              ----------                              

                                          Thursday, March 30, 2000.

   NATIONAL ASSOCIATION OF STATE UNIVERSITIES AND LAND-GRANT COLLEGES


                                WITNESS

RICHARD GUTHRIE, ASSOCIATE DEAN, AGRICULTURE AND ASSISTANT DIRECTOR OF 
    INTERNATIONAL PROGRAMS
    Mr. Callahan. Dr. Guthrie. Doctor, you realize the 
consequences.
    Mr. Guthrie. Yes, sir, I have been listening.
    Mr. Callahan. We will accept your statement for the record.
    Mr. Guthrie. My name is Richard Guthrie. I am from Auburn 
University and I am representing the National Association of 
State Universities and Land-Grant Colleges. I want to thank 
you, Mr. Chairman and members of the committee, for the 
opportunity to speak with you. I also wanted to thank you for 
your continued support and understanding of international 
agricultural development.
    Last year this committee included report language 
recommending at least $305 million for the international ag 
programs, including $34 million for collaborative research 
support programs, the CRSPs, for which we are grateful in our 
universities. This effort was spearheaded by Peter McPherson, 
President of Michigan State University.
    This year we are asking for $500 million for international 
agricultural programs, including again $34 million for the 
CRSPs because these programs are so important. We are asking 
for this because Congress understands the issues and recognizes 
the importance of international agriculture and USAID, 
unfortunately, the Agency for International Development, is 
really not living up to its own statements on the importance of 
agriculture and is not providing the resources and programming 
emphasis necessary.
    Obviously, agriculture is one of the most important ways to 
start the engine of economic development, and more than two-
thirds of the population of developing countries is engaged in 
agriculture-related activities. Our investment in the growth of 
developing countries enhances our export markets for goods and 
services produced here in the United States, including 
agricultural exports from your State.
    But agricultural development is much more important than 
simply serving as the foundation of economic growth. It is 
absolutely crucial to every other program, project and goal 
that we want to pursue in the developing world. It underpins 
all the investments we have already made. It is impossible to 
promote the health and nutrition, especially of children, 
without a strong food system in place. Any work to develop the 
capacity of populations in developing countries through 
education and training would be lost to disease and hunger 
without agriculture.
    In addition, development of a country's future human 
resource base, which fuels economic growth, depends upon its 
children's cognitive and physical development and their 
resistance to disease. Immunization of children is not enough 
to overcome the effects of malnutrition. And despite our 
efforts, without sufficient food, these innocent children will 
remain just as vulnerable to disease and death resulting from 
lack of Vitamin A and other nutrients as they were before. As 
the health of these children is directly affected by the 
nutrients supplied by food, development strategies should link 
child survival and development to sustainable food systems.
    Agricultural development is also an essential component of 
our work on other goals. Agricultural development must be 
incorporated in our projects dealing with environment. The 
world's natural resources must be sustained in order to allow 
for sustained economic growth in the future. And agriculture is 
the key interface between humans and the natural environment.
    Democracy starts with the people and equitable access to 
resources. As most of the populations of developing countries 
reside in rural countries, land tenure reform, farmers' co-ops, 
and ag associations are important means to foster democracy in 
these countries. The status of women is improved by 
agricultural development as well. In many parts of the 
developing world, women produce more than half of the food 
consumed by the household. Further, women spend more of their 
income than men do to improve the nutritional and food security 
of their families, thus improving the health of all and 
increasing the chance for their children's survival.
    On a very basic level, in order to alleviate hunger and 
ensure food security, ag and food systems development is 
essential. Our global food production must increase 
significantly in the next few decades, particularly in 
developing countries. In less than 3 decades, the global 
population will increase by more 2 billion people to total more 
than 8 billion. Nearly 96 percent of this growth will come in 
developing countries. At the same time, the demand for food is 
expected to double. Today, more than 800 million people go 
hungry and are undernourished. The number may exceed 1 billion 
by 2020.
    Thank you again, Mr. Chairman and members of this 
subcommittee for the opportunity to testify. I look forward to 
working with you to help find the resources necessary for this 
important program.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

                    AMERICAN TASK FORCE FOR LEBANON


                                WITNESS

PETER J. TANOUS, FOUNDING CHAIRMAN
    Mr. Callahan. I am going to ask Mr. Knollenberg to preside 
for a few minutes. Mr. Tanous is up next.
    Ms. Pelosi. Mr. Chairman, if I may, as Mr. Tanous is coming 
up here, I want to call to the subcommittee's attention the 
interest of our colleague, Nick Rahall, in the testimony of the 
American Task Force for Lebanon. And if I may say, in the 
spirit of bipartisanship, Mr. Knollenberg, the President and 
CEO of this organization, Mr. Darrell Issa, is the nominee in a 
very Republican district in California. He is a Republican and 
he may be our colleague before too long.
    So in the spirit of bipartisanship, I want to welcome you 
to our subcommittee.
    Mr. Knollenberg [presiding]. The gentleman is recognized, 
and the sand is beginning to fall so you are on, sir.
    Mr. Tanous. Thank you very much. I am Peter Tanous, and I 
am the founding chairman of the American Task Force for 
Lebanon, and we are grateful to you and the subcommittee for 
permitting us the opportunity to testify.
    The American Task Force for Lebanon is an American 
organization working to reestablish a secure, stable, 
independent, and sovereign Lebanon, with full control over its 
territory. Our members reflect most religious groups in Lebanon 
and include a prominent roster of American talent, including 
two Members of Congress, Congresswoman Pelosi just mentioned 
one of them, and former members of the House and Senate, and 
two former State governors.
    During its 15-year civil war, Lebanon sustained $25 billion 
in direct damage to its infrastructure, according to a 1991 
United Nations assessment. The current recession in Lebanon is 
largely due to causes beyond Lebanon's control, such as the 
high public debt incurred in reconstructing war-damaged 
infrastructure and the understandable nervousness of investors 
in the Middle East over the stalled Middle East peace process.
    In the appropriations bill that President Clinton signed 
into law last year, Congress designated $15 million for Lebanon 
in fiscal year 2000. We were surprised to find that the 
administration's fiscal year 2001 budget lowered the level of 
foreign assistance to Lebanon to $12 million.
    Mr. Chairman, we urge your and your colleagues' support for 
$15 million for Lebanon in fiscal year 2001, the same level as 
in fiscal year 2000. We understand that large amounts of 
American aid are being discussed in connection with an eventual 
Middle East peace plan. I hope you will agree that the $3 
million we are requesting be restored is a paltry amount for a 
country that is an integral part of the peace process.
    Mr. Chairman, USAID's Rural Community Development Clusters 
Program is one of the best advertisements the United States has 
in Lebanon. These rural development projects include 226 
villages and 29 rural clusters and affect approximately 600,000 
people. When our ambassador to Lebanon or other American 
officials inaugurate these projects, it reflects enormous good 
will on the United States. We understand that even anti-
American organizations, like the Hezbollah, have commented 
favorably on these rural projects.
    Mr. Chairman, the rural community development clusters 
program has many projects in south Lebanon, and these projects 
can play a helpful role in the context of a comprehensive 
Middle East peace agreement. It is in the interest of the 
United States and Israel that the local economy be improved in 
this very sensitive region.
    All USAID projects in Lebanon are administered by U.S.-
registered PVOs. Since May 1997, there has been a USAID officer 
stationed in Lebanon and this helps ensure that accountability 
meets congressional standards.
    We also urge direct funding of the American schools and 
hospitals program, the ASHA program, for fiscal year 2001. This 
program supports such fine institutions in Lebanon as the 
American University of Beirut, the Lebanese-American 
University, and International College. The ATFL strongly favors 
assistance being directed to scholarships for needy students so 
that a cross-section of Lebanon's population has access to 
these institutions, which are probably the finest in the Middle 
East. Many of the leaders of the Middle East have been educated 
in these institutions, which provide the best advertisement for 
the American way of life. Their continued viability serves the 
national interest.
    We also urge continued trading of the Lebanese army 
personnel under the IMET program. Lebanon receives 
approximately $550,000 in IMET funds and 100 personnel trained 
annually. We also urge that nonlethal equipment continue to go 
to the Lebanese armed forces under excess defense articles, 
EDA, on a grant basis, to build up the Lebanese armed forces as 
a national institution and prepare it for a future peacekeeping 
role.
    Mr. Chairman and members of the subcommittee, we come to 
Congress each year to make requests and comment upon the level 
of foreign assistance to Lebanon. We do so as patriotic 
Americans interested in an improved relationship between the 
United States and Lebanon. We know that a strong Lebanon will 
make for a stronger and more peaceful Middle East for all 
nations.
    I thank you for the opportunity to testify.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. That is an excellent job. You beat that 
thing, which is pretty tough to do around here.
    I want to suggest to you that we think there ought to be 
good reason to restore that $3 million that you talked about. I 
don't know that any of us would disagree on that.
    Ms. Pelosi?
    Ms. Pelosi. No, I am a strong supporter of it. And as I 
said, Nick Rahall has been a strong impetus on this and 
educating and moving us forward on it, and we will report to 
the chairman that you ended early.
    Mr. Tanous. That ought to be worth at least $3 million. 
Thank you very much, sir.
    Ms. Pelosi. Thank you.
                              ----------                              --
--------

                                          Thursday, March 30, 2000.

                        FLORIDA STATE UNIVERSITY


                                WITNESS

DR. RAYMOND E. BYE, JR., INTERIM VICE PRESIDENT FOR RESEARCH
    Mr. Knollenberg. Dr. Bye from Florida State University. We 
will accept your entire comments for the record, and you may 
commence.
    Mr. Bye. Thank you, Mr. Chairman, Ms. Pelosi. I want to 
thank you for the opportunity to appear before the committee 
today, and also thank the committee for support in the past for 
development programs that have included partnerships for 
Florida State University.
    The subcommittee was particularly instrumental in the 
development of improved programs of legal training and justice 
in the Caribbean. I think one of the great successes of these 
initiatives is the Caribbean Law Institute. Funded by USAID, 
the program began in 1998 as a partnership between the 
University of the West Indies and Florida State University. 
Since that time it has provided the basis for commercial law 
reform in the Caribbean.
    The Caribbean Law Institute has brought U.S. legal 
expertise to the Caribbean and has brought about such 
legislative acts as the New Companies Act, consumer law, 
bankruptcy legislation, and insurance reform. Standardizing 
these commercial statutes throughout the Caribbean allows for 
increased U.S. trade in the region and, therefore, I urge the 
committee to continue its support for that institute.
    Mr. Chairman, Florida State University is now turning its 
attention to another area of the world. We believe that there 
is a great need for legal education in the former Soviet Union. 
Too often changes in law and in the constitutions have taken 
place there without the legal expertise to carry out these 
changes. This includes a broad range of needs from lawyers to 
judges.
    Building on this experience with the Caribbean Law 
Institute, Florida State University is developing a project to 
utilize distance learning technologies and approaches to 
provide basic legal principles for students and professionals 
in the former Soviet Union and Central, Southern and Eastern 
Europe. This program will again be a joint partnership with 
other universities in the United States and in Great Britain.
    The President of Florida State University, will return next 
week from a trip to the Ukraine and several other areas where 
he is currently. That trip is aimed specifically at refining 
the specifics of this distance learning project. We are not 
limiting the program to any specific country, such as the 
Ukraine. The President is looking at how already developed 
programs in the Ukraine and partnerships on projects on the 
Ukraine-Poland border might be used for program development.
    Mr. Chairman, based on the experiences at our university to 
date, distance learning programs will be an economically 
beneficial way to provide legal services to a large number of 
people in the former Soviet Union. As resources decrease in 
this region and needs continue, we believe that this may be a 
wave of the future. It is a way to provide services without the 
high price of ground costs.
    To properly initiate a project of this nature we estimate 
that approximately $2 million will be required in fiscal year 
2001. Mr. Chairman, I would ask the committee to consider 
providing report language supporting the distance learning 
project in the fiscal year 2001 report. The Caribbean Law 
Institute and the Distance Learning Project in the former 
Soviet Union will be programs that years from now we think the 
committee can say made a difference.
    Thank you very much, Mr. Chairman.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Dr. Bye, we thank you kindly for that 
testimony. We will include all of what you said, and any 
additional information in the record. Thank you very much.
                              ----------                              

                                          Thursday, March 30, 2000.

                UKRAINIAN CONGRESS COMMITTEE OF AMERICA


                                WITNESS

MICHAEL SAWKIW, JR., WASHINGTON, D.C. DIRECTOR
    Mr. Knollenberg. Michael Sawkiw, with the Ukrainian 
Congress Committee of America.
    Mr. Sawkiw. Mr. Chairman, being Ukrainian, I see you have a 
gavel, but I also see you have a Ukrainian gavel.
    Mr. Knollenberg. That would have to belong to the real 
chairman. He doesn't use it on us.
    Mr. Sawkiw. Speaking of the chairman, I am in the hot seat.
    Mr. Knollenberg. Why don't you commence, because we can 
deal with this later.
    Mr. Sawkiw. Mr. Chairman and members of the subcommittee, 
good afternoon. I appreciate this opportunity to provide my 
comments on the fiscal year 2001 Foreign Operations 
appropriations bill and, in particular, on U.S. assistance to 
the Ukraine. I know I am not the only spokesman here who has 
talked about foreign assistance. I know Representative Schaffer 
was here earlier on behalf of the Congressional Ukrainian 
Caucus, and I commend him for that as well.
    The organization that I represent is the Ukraine Congress 
Committee of America, a representative organization of 
Americans of Ukrainian descent. It is of utmost importance to 
the Ukraine-American community that Ukraine achieve economic 
reform to provide for its competitiveness within the global 
economic environment.
    Indeed, in its brief 8 years of reestablished independence, 
Ukraine has achieved a myriad of domestic and international 
goals. After years of economic stagnation in Ukraine, 
industrial output has increased nearly 7 percent. Ukraine has 
stabilized its currency, following the near collapse of the 
Russian and Asian financial markets, and Ukraine has instituted 
for the first time a nondeficit budget earlier this year.
    But in the past several years reports of official 
corruption in Ukraine have cast a shadow over foreign 
investment. The situation also has prompted some to call into 
question continued assistance to America's strategic partner, 
Ukraine. Progress has been achieved in Ukraine in the 
reformation of the judicial and legal systems. Government 
structures have been modified to spur investment opportunities 
for foreign and indigenous businesses alike. These reforms, 
however, remain a time consuming process, one that deserves the 
continued support of the United States.
    This point brings me to the urgent plea which I would like 
to make to Congress. In fiscal year 2001, give Ukraine the 
necessary tools for which to construct a private sector and 
business economy governed by the rule of law. Congress should 
see to it that USAID promotes commercial law reform as a 
priority of U.S. assistance to the Ukraine.
    The new dynamics of the 21st century present many 
opportunities for Ukraine as its reformist Prime Minister 
Viktor Yushchenko implements a rigorous reform agenda designed 
to spur economic activities in his country. Therefore, it is my 
considered advice that the rewards of continued U.S. assistance 
to Ukraine are limitless.
    As one of Europe's largest countries, the assistance that 
Ukraine receives from the United States would instill economic 
viability in that country and eliminate tendencies in 
neighboring Russia to restore its lost empire. In fact, in an 
editorial in the Wall Street Journal just several days ago, 
former Under Secretary of State Robert Zoellick writes about 
the recent election of Russian President Vladimir Putin, and I 
quote, ``Unlike Mr. Gorbachev, Mr. Putin will restore Russia's 
influence over its neighbors. Russia wants weak border states 
that it can dominate.''
    Mr. Chairman and members of the subcommittee, let us not 
sit here at this very table a year from now and ponder the 
question ``who lost Ukraine.'' Ukraine and its strategic 
importance to the United States is too vital to lose sight of, 
and its economic success is incumbent on U.S. foreign 
assistance.
    Mr. Sawkiw. Congress should increase its assistance to 
Ukraine and target that assistance in the following key areas.
    Energy sector revitalization which includes the closing of 
Chernobyl, real structure reform with an independent judiciary, 
the promotion of programs geared toward agriculture 
restructuring, assistance for the structure against crime and 
corruption as well as the building of a civic society. Thank 
you for your attention.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Knollenberg. Thank you, Mr. Sawkiw, and the entirety of 
your commentary will be included as well. And I will yield back 
to you, Mr. Chairman, and I will catch a plane.
    Mr. Callahan. Thank you very much. If the question is ever 
answered who lost Ukraine, it is going to be Ukraine.
    Mr. Sawkiw. It is a matter obviously that we see the new 
prime minister as being a reform prime minister. He was the 
chairman of the National Bank of Ukraine for the longest time. 
He understands what reform is necessary in Ukraine. I think 
this is a prime minister that the United States can have some 
confidence in. Thank you.
    Mr. Callahan. Mr. Ardouny.
                              ----------                              

                                          Thursday, March 30, 2000.

                      ARMENIAN ASSEMBLY OF AMERICA


                                WITNESS

BRYAN ARDOUNY, DIRECTOR, CONGRESSIONAL RELATIONS
    Mr. Ardouny. Thank you.
    Mr. Callahan. Mr. Sarafian, you can come on up and sit at 
the table and be prepared.
    Mr. Ardouny. Good afternoon. Mr. Chairman, I want to thank 
you for the opportunity to be here today on behalf of the 
Armenian Assembly. The Armenian Assembly is a national 
nonprofit, nonpartisan organization representing Armenian 
Americans and those who share our goals. One of our purposes is 
to strengthen the U.S. relationship with Armenia in the Nagorno 
Karabagh. I realize that time is limited as the sands runs 
there, so I will briefly highlight our recommendations.
    First, the assembly commends the subcommittee's decision to 
provide funding for confidence building measures to resolve the 
Nagorno Karabagh conflict in fiscal year 2000, foreign 
operations appropriations bill, and strongly urges the 
subcommittee to provide this funding again. Confidence building 
measures will help facilitate among the parties and lead the 
way for peace. The Armenian Assembly strongly believes that 
peace in the region must be achieved before any long-term, 
large-scale regional development projects can take place. The 
Armenian Assembly agrees with the U.S. Deputy Secretary of 
State Strobe Talbott's assertion, and I quote, whatever 
differences each of these states, and he is referring to 
Armenia, Azerbaijan and Georgia has with its neighborhoods, 
each must face the reality of growing interdependence. For 
example, economic prosperity in Armenia, Azerbaijan and Georgia 
will depend on the equitable distribution of water in the 
judicious management of transportation. These issues demand 
cooperation among states that will be possible only if 
conflicts within those states are resolved.
    Second, the Armenian Assembly recognizes the current 
budgetary restrictions under which the subcommittee must 
operate. Therefore, we recommend that the subcommittee ensure 
that the IS account receive the same percentage of funding as 
it did in fiscal year 2000.
    As for the south caucuses generally, and Armenia 
specifically, we request that the percentage received in fiscal 
year 2000 be maintained in fiscal year 2001.
    After the tragic events of October 27, 1999, now more than 
ever, U.S. assistance to Armenia is necessary to help Armenia 
through this difficult period and to ensure continued market 
reforms.
    Third, the Armenian Assembly urges the subcommittee to 
maintain support of the Freedom Support Act in its current form 
and strongly opposes any efforts to weaken or repeal it. In 
particular, the Armenian Assembly strongly opposes the 
administration's renewed fiscal year 2001 budget request to 
repeal section 907.
    The administration's request is counter to both the will of 
the House and the Senate as demonstrated by the 1999 Senate 
vote and the 1998 House vote.
    In its current form, section 907 constitutes a focused 
appropriate message to the government of Azerbaijan that the 
U.S. will not support efforts to marginalize via blockade 
entire populations of neighboring states.
    Finally, the Armenian Assembly strongly supports the 
subcommittee's efforts to provide 20 million in humanitarian 
assistance to the people in the Nagorno Karabagh and urges the 
subcommittee to provide this funding via legislative language 
in the fiscal year 2001 bill. The Armenian Assembly remains 
concerned about the administration's inadequate efforts to 
carry out the will of Congress.
    First, the administration was reluctant to fully implement 
the provisions of the fiscal year 1998 foreign operations 
appropriations bill, which directed the coordinator to provide 
$12.5 million forthwith to the victims of the ongoing Nagorno 
Karabagh conflict.
    In addition, for 2 years in a row, the administration has 
ignored the House report language recommending $20 million in 
humanitarian assistance for the victims of the Nagorno Karabagh 
conflict residing in the Nagorno Karabagh from January 1, 1998 
to September 30, 2000. It also appears that the administration 
intends to terminate aid programs to Nagorno Karabagh prior to 
the September 30, 2000 time frame. According to USAID, Armenia 
strategic plan for fiscal year 1999 to fiscal year 2003, USAID 
``does not anticipate activities in NK, humanitarian or longer-
term developmental beyond the May 2000 end date of the current 
assistance program.''
    In conclusion, Mr. Chairman, on behalf of the Armenian 
American community, I would like to express our deep and 
sincere gratitude to this subcommittee and Congress for its 
steadfast support of U.S. assistance to Armenia. Armenia views 
the United States as a strategic partner and friend who 
responded during times of desperation. With the support of the 
United States, Armenia will be able to accomplish its 
objectives, which are regional peace and stability, a 
successful transition to a free market economy and a 
flourishing democracy. The Armenian Assembly looks forward to 
working with you and the members of the subcommittee. Thank 
you.
    Mr. Callahan. Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

                 ARMENIAN NATIONAL COMMITTEE OF AMERICA


                                WITNESS

ARAM A. SARAFIAN, ANCA--EASTERN U.S., BOARD MEMBER
    Mr. Callahan. Mr. Sarafian.
    Mr. Sarafian. Good afternoon. I will begin by first 
thanking you, Chairman Callahan, for your leadership. I would 
like to thank the whole committee for their assistance in the 
area of foreign assistance.
    I would also like to thank the subcommittee for allowing 
the Armenian National Committee of America, the ANCA, the 
Nation's oldest and largest Armenian American grassroots 
advocacy organization, the opportunity to be present here and 
share our views on these important issues.
    U.S. foreign assistance plays a pivotal role in advancing 
our American values overseas, especially in the areas of 
democracy and free market economy. Our foreign assistance 
builds strong markets which U.S. corporations use for 
increasing their exports and for investing in foreign 
companies, providing transitional and developing economies the 
opportunity to overcome obstacles that prevent their 
advancement.
    I have been able to witness firsthand the beneficial impact 
of U.S. foreign assistance. I have had the opportunity to see 
that especially in the area of easing regional tension, 
promoting democracy and free markets and developing nations 
that otherwise would be condemned to poverty. I was a U.S. Army 
officer, intelligence officer assigned to Task Force Pershing 
in Bosnia and Croatia as part of Operation Joint Guard, the 
NATO stabilization force escort. While I was there, I witnessed 
U.S. assistance that was used to provide aid to all of the 
ethnic groups, people of all ethnic backgrounds, to overcome 
the hardships that they faced by the brutal war that has 
occurred in the former Yugoslavia. U.S. assistance was used as 
a lever to encourage inter-ethnic cooperation that had all but 
disappeared.
    I was stationed along the Sava River that divided Croatia 
and the Serbian section of Bosnia. When I first arrived, there 
was no border crossings that were open but the lines used at 
U.S. foreign assistance helped to open civilian border crossing 
points between the Croatians and the Bosnian Serbs. U.S. 
foreign policy in the caucuses region served a similar purpose. 
In particular, U.S. assistance helps ease the regional tensions 
and promotes harmonious relations among the countries. Armenia, 
a historical ally of the United States from the first Armenia 
republic in 1918, is in particular need in the caucus region. I 
was fortunate enough to be able to visit Armenia on two 
occasions. During my first trip in 1992, that was the height of 
the humanitarian crisis. I witnessed U.S. private and public 
assistance that meant the difference between life and death for 
many people there. I was fortunate enough to return this past 
September in 1999, where I saw the benefits of our U.S. foreign 
assistance, and especially I saw the transition from 
humanitarian assistance to developmental assistance which is a 
big step for a country to take. This development assistance is 
now paving the way for increased U.S. foreign investment trade 
and commercial relations.
    We hope that in the future, American foreign assistance 
won't be needed at all for Armenia, but currently that is not 
possible with the ongoing blockade by Turkey and Azerbaijan. 
U.S. foreign assistance is critical to offset the devastating 
effect that this blockade is having on Armenia.
    For this reason, we encourage the House to maintain at 
least the current percentage of funding that Armenia receives 
with a fiscal year 2000 baseline to $102.4 million.
    The Turkish blockades have had a notable impact on the 
population of Nagorno Karabagh. We thank the committee, 
especially Representative Knollenberg, who unfortunately had to 
leave, for your leadership in getting direct aid for Nagorno 
Karabagh. Prior to that aid being provided, Nagorno Karabagh 
was the only region in the caucuses that was not receiving U.S. 
regional assistance.
    We regret to inform you that, as you know, USAID has been 
very slow in providing the money that you have allocated. We 
encourage this committee to maintain the same funding level for 
Nagorno Karabagh, and we would also ask you to encourage USAID 
to expeditiously dispense this desperately needed aid for the 
people of Nagorno Karabagh. We also thank the committee for 
maintaining section 907. You are all aware of the devastating 
effect of the blockades.
    Repealing section 907 before these blockades are lifted 
would essentially award Azerbaijan for their aggression and the 
human misery that the blockades have caused and that their 
aggression has caused. Sadly, the administration's proposed 
budget for fiscal year 2001 does reward Azerbaijan by 
increasing the aid that it receives by 77 percent, despite the 
fact that Azerbaijan is not participating in the OSE 
negotiations, it has been back sliding on its economic and 
democratic reform, and it has been consistently cited as the 
most corrupt nation and the worse human rights offender in the 
caucus's region.
    We encourage the committee to maintain section 907 and not 
to increase aid to Azerbaijan until progress is made in 
promoting democracy and human rights and lifting their 
blockade.
    I would like to close by saying that there are a number of 
major arms deals pending with Turkey. We would like to 
encourage Congress as a whole to execrise it oversight 
authority to ensure that such transactions are consistent with 
American interests and values abroad. I thank you again for 
this opportunity to speak and I am willing to answer any 
questions that you may have.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Callahan. We have nothing to add except to say that you 
are right, Congressman Knollenberg is your greatest ally here 
in the Congress.
    Mr. Sarafian. We hope that you will be, too.
    Thank you.
    Mr. Callahan. I am just saying that he is the greatest 
ally. He does a good job for you.
    Mr. Sarafian. Thank you.
                              ----------                              

                                          Thursday, March 30, 2000.

                         COMMISSION FOR LEBANON


                                WITNESS

CHOR-BISHOP SEELY BEGGIANI, CHAIRMAN
    Mr. Beggiani. It is good to be with you again, Mr. 
Chairman. I wish to thank the committee and you, Mr. Chairman, 
for giving me the time to make a presentation, and I would also 
ask that my full text be included in the record.
    I represent the Diocese of St. Maron, which includes 
Maronite Catholics who come from Lebanon who are first, second, 
and third Lebanese Americans and also recent immigrants. Our 
diocese incorporates the whole eastern part of the United 
States. We have a deep concern for what goes on in Lebanon 
because of all of the relationships we have with the people 
there. The reconstruction of Lebanon is proceeding slowly, but 
the money spent by the United States to help Lebanon is not 
wasted because Lebanon has a long history as a democratic 
country respecting human rights and respecting the fact that 
religions of various types can live in harmony with each other.
    However, Lebanon's recovery is being slowed because of the 
instability in the region. Now that there is much talk about 
peace settlements, another fear has arisen and that is that 
agreements will be at the expense of the tiny country of 
Lebanon. I am here, first of all, to ask that the committee 
support the financial aid package to Lebanon, but I also wish 
to spend just a moment or two highlighting the deep concerns of 
Lebanese Americans about the future of Lebanon, and I would 
point to two factors which could seriously affect the future of 
Lebanon as a country.
    First of all, there is the issue of the Palestinian 
refugees. Some estimates say there are over 400,000 Palestinian 
refugees in Lebanon. Lebanon is an extremely small country, 
densely populated with very little resources. Our diocese 
believes that refugees of any nationality have a right to 
return to their home, and we hope that some settlement can be 
done in that regard.
    However, our fear, and it is a very serious fear, is that 
whatever settlement is arrived at between Israel, Syria and 
Israel and the Palestinians, the Lebanese government will be 
told to accept a large number of Palestinians on Lebanese soil. 
However, now instead of being refugees in camps, they will have 
some kind of legitimate status. Lebanon as a country cannot 
handle this. It would be like adding 13 percent to its native 
population, analogous to the United States being asked to take 
in 34 million refugees and integrate them into American 
society.
    The United States certainly has far more resources and 
territory.
    I do not think that this is a fantasy. The settlement is 
going to happen. The Palestinians have to go somewhere. They 
cannot remain in Lebanon. If they did, this would radically 
change the religious balance in Lebanon. It would affect 
seriously the political and social life of the country. The 
Christian population would become an ineffective minority, and 
tensions would be created not just between Christians and 
Moslems, but between the Moslem communities themselves. So I 
know that this is not the immediate purview of the committee, 
but since the committee is trying to reconstruct Lebanon, we 
cannot let the political side destroy it.
    The other issue that is very important is the presence of 
foreign armies in Lebanon. We are happy to see that the Israeli 
government has announced that it will withdraw its forces from 
Lebanon. We hope that they will do this to correct the anomaly 
that exists. In international law, countries cannot station 
armies and occupy even small territories of other countries.
    However, we also have the presence of a large number of 
Syrian forces in Lebanon. They have been there for 24 years. 
Whatever the reasons were for their original presence, we 
believe those reasons are now over. The Lebanese government and 
country should be able to take care of their own affairs. If 
Syria is in Lebanon to help it fight against Israeli attacks, I 
do not recall the Syrian forces of firing a shot when the 
Israeli forces either invaded Lebanon or bombed the country. So 
in that regard, they have been completely ineffective.
    If they are there in Lebanon in order to deter the 
different forces, the different militias in Lebanon from 
fighting each other, the militias have all been disarmed and so 
there is no reason for them to be there.
    Finally, the Lebanese Army is now very competent and very 
capable of taking care of its affairs. So we do not see why 
Syria should remain, and we are surprised that none of the 
countries in the Middle East negotiations or the United States 
itself has set up any kind of timetable for the Syrian forces 
to withdraw.
    Finally, Mr. Chairman, we not only ask for the $12 million 
that the State Department is suggesting, but for $15 million 
aid to Lebanon as was done last year, and we know that the 
committee and you, Mr. Chairman, fought hard for this and we 
hope that you will do the same again this year.
    Mr. Callahan. Thank you. I might say that Congressman 
Rahall is a big advocate of your cause, and so am I.
    Mr. Beggiani. Thank you. We appreciate it.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

                    THE AMERICAN LEBANESE INSTITUTE


                                WITNESS

DAVID EPPERLY
    Mr. Callahan. Mr. Epperly.
    Mr. Epperly. Chairman Callahan, thank you for having us 
here today. My name is David Epperly and I am testifying on 
behalf of the American Lebanese Institute which is a member of 
the Council of Lebanese American Organizations, and our 
institute reflects the interests and sentiments of 3 million 
Americans of Lebanese descent. We work to further the cause of 
freedom and sovereignty in Lebanon commencing with the 
immediate, complete, unconditional withdrawal of all foreign 
forces, particularly those of Syria.
    I concur with everything that Monsieur Beggiani just spoke 
about. Just a brief background, let me outline our concerns, 
and I will try to be brief here. We understand that it is not 
the task of this committee to solve the complicated internal 
politics of Lebanon, but since we last appeared before you last 
year, the situation in Lebanon really has not changed. As 
Monsieur Beggiani was telling you, there are a lot of concerns 
right now in our community about Lebanon, starting with the 
Palestinian issue which is very relevant. The Syrian issue is 
probably the overlying or backdrop of all of the problems that 
beset Lebanon.
    Foreign occupation, the Israelis have expressed their 
desire to withdraw from Lebanon, so that is not a problem. The 
Syrians are, in effect, running a puppet government in Lebanon, 
and that is a serious problem and there is no timetable 
established for their withdrawal. They have reneged on several 
commitments to do so. That is what we see as a problem for 
Lebanon. In the current peace negotiations between Israel and 
Syria, Lebanon is not at the table. Lebanon seems to be on the 
table. That is a huge concern. We are afraid that any deal that 
might be cut would be at the expense of the Lebanese.
    With that being said, there are still 40,000 Lebanese--I 
mean Syrian troops inside Lebanon and an untold number of 
intelligence operatives. There are 1.5 million illegal Syrian 
workers in Lebanon, which is, I think roughly equivalent to 42 
percent of the population of the country. There are ongoing 
human rights abuses. There is active censorship and denial of 
freedom of the press in Lebanon. The economic mismanagement of 
the government there is beyond belief. The national debt hovers 
around $24 billion, and Lebanon's budget deficit is currently 
running at more than 50 percent of government revenues which is 
about an astounding 42 percent. That was last year. People are 
suffering. The common person is suffering in Lebanon. Lebanon 
is in recession. There is a spree of depression.
    What we would recommend, what we would like to see would be 
that not a single taxpayer penny go to the Lebanese government, 
that all appropriations should be channeled directly to 
credible individuals and institutions in the Lebanese private 
sector, mainly the American University of Beirut, other private 
universities and colleges in the country, hospitals and medical 
facilities and the hard-working NGOs that do the work in 
Lebanon.
    We believe that supporting the Lebanese Army is a worthy 
objective as long as it is done under the watchful eye of the 
U.S. Government.
    In regard to any eventual aid if the Congress is 
contemplating some time in the future sending aid to Syria, in 
the event of some type of peace agreement, we would hope that 
Congress would not fund or send any U.S. funds to Syria as long 
as it occupies Lebanon. That would, I think, certainly run 
counter to the spirit of freedom and democracy on which our 
country is founded.
    Mr. Callahan. We don't have a stake at the table either, 
the Congress of the United States doesn't but we certainly 
agree with your mission. We think Syrians and Israelis both 
ought ought to be removed from Lebanon. As far as giving the 
money to Syria, under any circumstances, I am not going to be a 
party to giving money to a known terrorist. So unless there are 
some major changes taking place in Syria, you don't have to 
worry about me, but I am not in those negotiations, just like 
you are not.
    Nevertheless, I support your mission and your cause to have 
a free Lebanon and to return it to some degree of normalcy 
without the presence of foreign troops.
    Mr. Epperly. We have always appreciated your support, Mr. 
Chairman.
    Mr. Callahan. Thank you.
    Mr. Epperly. I would like to give you a book. This is 
written by a friend of ours, of our organization, and it gives 
you a pretty good background of the situation in Lebanon.
    Mr. Callahan. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

                NATIONAL ALLIANCE OF LEBANESE AMERICANS


                                WITNESS

TOUFIC BAAKLINI, CHAIRMAN
    Mr. Baaklini. I would like to thank you, Mr. Chairman, for 
all of your support and the committee support for Lebanon and 
Lebanese people and for all people on behalf of Lebanon.
    My name is Toufic Baaklini, and I am the chairman of the 
government affairs committee of the National Alliance of 
Lebanese Americans. It is a tax exempt, charitable organization 
whose primary mission in the United States is to inform and 
educate fellow citizens regarding issues of Lebanese/American 
interests and to bring a heightened sense of awareness to our 
fellow Lebanese Americans of Lebanon's rich cultural heritage, 
which is seriously threatened by a deepening foreign 
occupation.
    Since the committee last conducted public hearings on the 
issue of appropriations for Lebanon last March, the country and 
the region has witnessed a change in the climate of the 
negotiation and peace with the elections that took place in 
Israel and other developments. The country and the region have 
witnessed a change in the climate of negotiations with the 
discussions which took place in Israel and other countries.
    The fight in south Lebanon has been characterized since the 
withdrawal as a pure resistance effort of Hezbollah fighting 
Israelis justified by the presence of Israeli troops on 
Lebanese soil. Following the withdrawal, Jezzine was relatively 
calm with Lebanese gendarme taking up policing duties in the 
city. However, Timur Goksel of UNIFIL predicted that this 
should not be taken as a model for full withdrawal. He said 
that there would be no peace along the Israeli border as long 
as 350,000 Palestinian refugees remained in Lebanon as 
contractors for those who oppose a comprehensive peace. David 
does not mention that.
    It is very important to get the Palestinians out of that 
area, otherwise there will not be peace. UN and Palestinian 
sources estimate the actual number of Palestinian refugees in 
Lebanon is approximately 200,000. On the diplomatic side, on 
the developments in the peace process, talks resumed in 
Shephardstown, West Virginia on January 3, 2000. They adjourned 
with the intention of the parties to have them resume for a 
second round on January 19, 2000.
    However, due to a Syrian boycott, they have been postponed 
indefinitely despite a Syrian/U.S. Summit in Geneva between 
President Clinton and Hafez Assad on March 26, the core issue 
remains unresolved. Assad demands the return of the Golan all 
of the way to the water line of Lake Tiberias, but Israel 
insists on a service road around the circumference of the lake 
that would remain under Israeli sovereignty. This Israeli 
position, and Assad's inability to accept it, has left this 
track without progress.
    Significantly the day the resumption was announced, 
December 17, there was a flare-up in southern Lebanon between 
Hezbollah and Israeli forces. Then on the day of the 
resumption, January 3, an assault against a Lebanese Army 
patrol near the town of Assoun was staged by an Islamic 
fundamentalist group killing an officer and several others.
    Also there was a grenade attack on the Russian Embassy in 
Beirut and a murder of a Roman Catholic nun near Beirut. 
Commentators noted at that time that Syria was probably behind 
each incident in an effort to depict Lebanon as inept and 
unstable in need of a continuing Syrian military presence.
    It was also noted that these attacks in Lebanon gave Syria 
negotiating leverage with Israel. The glowing possibility of a 
unilateral Israeli withdrawal from south Lebanon on March 5, 
the Israeli cabinet voted unanimously to withdraw completely 
from Lebanon, and Barak has decided that such a withdrawal 
would be accomplished within the context of UNRES 425.
    Mr. Callahan. We accept your full statement for the record. 
We hear your message from all Lebanese interested people.
    Mr. Baaklini. Thank you, Mr. Chairman for your support. You 
have always been very helpful you have regards from Mobile.
    Mr. Callahan. Thank you very much.
    Mr. Baaklini. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

               ASSEMBLY OF TURKISH AMERICAN ASSOCIATIONS


                                WITNESS

PIERRE OBERLING
    Mr. Callahan. Mr. Oberling. We accept your statement for 
the record.
    Mr. Oberling. Thank you, sir. I am grateful for the 
opportunity to appear before you in order to present testimony 
on behalf of the Assembly of Turkish American Associations. 
Twice within the past generation, the Turkish Cypriots have 
been subjected to major ethnic cleansing campaigns by their 
Greek Cypriot neighbors and their Greek supporters.
    The first ethnic cleansing campaign occurred in 1964. 103 
Turkish Cypriot villages were destroyed, hundreds of Turkish 
Cypriot men, women and children were slaughtered and remaining 
part of the Turkish Cypriot population was herded into small, 
overcrowded enclaves surrounded by barbed wire fences.
    The second ethnic cleansing campaign occurred in 1974. The 
Turkish Cypriot enclaves throughout the island were attacked by 
Greek Cypriot forces led by freak officers, and hundreds of 
more Turkish Cypriots were massacred. But this time, Turkey, 
honoring its treaty obligations to save Cyprus from foreign 
conquest, intervened. Nearly all of the Turkish Cypriots from 
the south of the island then moved north to seek shelter in the 
Turkish occupied zone. Thus, for the second time in 10 years, 
they became refugees in their own country.
    Since then, the Greek Cypriot government has shown no sign 
of remorse. No Greek Cypriot mass murderer of Turkish Cypriots 
has ever been punished for his crimes. In fact, no massacre has 
even been acknowledged by the Greek Cypriot government. Instead 
Greek Cypriot officials have helped abuse upon their former 
victims, and have subjected them to a total trade boycott in 
the hope of forcing them to become once more second class 
citizens or more precisely, noncitizens, in a Greek Cypriot 
dominated state.
    The Turkish Cypriots, whose main goal is mere survival, 
have promoted the creation of a new partnership state in which 
their safety would be guaranteed. They have eagerly 
participated in all of the efforts undertaken by the United 
Nations to solve the Cyprus problem. In 1983, in the face of 
Greek Cypriot intransigence, the Turkish Cypriots declared 
their own independence, believing that only such a drastic 
action might convince the Greek Cypriots to negotiate with them 
on a realistic basis, thus setting the stage for the creation 
of a genuine federation.
    But the Greek government has thus far not displayed any 
interest in serious negotiations. Rather, the Greek Cypriots 
have embarked upon a steadily escalating series of border 
violations and other blatant acts of provocation directed 
against the Turkish Cypriot state. They have also tried to 
extend their boycott of the Turkish republic of northern Cyprus 
to the field of higher education. For example, Greek Cypriots 
have relentlessly excoriated and harassed the president of a 
New England university just because he has promoted contacts 
between his institution and a Turkish Cypriot university.
    This is what can only be determined as a low blow for the 
Turkish Cypriots, whose economic development has been stunted 
by the Greek Cypriot trade embargo, having expended the same 
amount of energy towards educational growing that other nations 
generally devote to economic growth. They have all but 
eliminated illiteracy, and they have founded as many as four 
universities.
    One can truly say that few people have been as harshly 
punished for the mere act of refusing to let themselves be 
annihilated as has the Turkish Cypriot people. That the United 
States still supports the Greek Cypriot embargo is really 
heartbreaking to one who has become intimately acquainted with 
the sufferings of the Turkish Cypriots.
    Mr. Callahan. Thank you, Mr. Oberling.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

                NATIONAL COORDINATED EFFORT OF HELLENES


                                WITNESS

ANDREW E. MANATOS
    Mr. Callahan. Mr. Manatos.
    Mr. Manatos. Thank you, Mr. Chairman. I ask that my 
prepared remarks be entered in the record.
    Mr. Callahan. They are entered into the record.
    Mr. Manatos. I had planned to explain what has happened 
since we were last here, which was a very instructive and 
positive things between Turkey, Turkish Cypriots, Greeks, Greek 
Cypriots and some beautiful, beautiful movement. I am sorry to 
hear the previous testimony which, as anyone who knows me, 
knows that I don't speak extremely, but I have to say 
unfortunately there is a tremendous amount of fantasy in the 
previous testimony. I can bring to you some extremist Greek 
Cypriots who would also present some fantasy. But let me just 
leave the subject by saying that we have taken some objective 
analysis, third parties who have no relationship to Greece, to 
try to see actually what did happen on Cyprus. What we learned 
was very interesting. That was prior to the death of one 
Turkish Cypriot or one Greek Cypriot, there were statements of 
``we will be annihilated, we will be destroyed if Cyprus 
becomes part of Greece.'' This was back in the 1950s.
    As was admitted on BBC television, a bomb was planted by 
the Turkish Cypriots in their own information office yet they 
blamed the attack on the Greek Cypriots. The Turkish-Cypriot 
backlash from this staged bombing resulted in 25 Greek Cypriots 
being killed, and four Turkish Cypriots being killed. After 
that, $15 million a year documented came from Turkey to support 
these so-called fighters. Money came from Greece to support 
some extremists there. Yet in that 16-year period, 
approximately 1 to 2 people a month were killed in the entire 
country on both sides. I think more Turkish Cypriots than Greek 
Cypriots, but not far off.
    Frankly, if you look at a lot of places around the world, 
even our own country here, you can find this kind of conflict 
between people who live together, and the proof of it is in the 
last 2 months, Mr. Chairman, 200 Turkish Cypriots have risked 
their lives to get through the green line to go to live among 
the Greek Cypriots. More than half the Turkish Cypriots have 
left the occupied area since the Army came to protect them, and 
here is the incredible thing: Where did they move? They moved 
to London, to Greek Cypriot neighborhoods. It is an incredible 
story.
    There is a tremendous amount of misinformation about this 
situation and you just heard a good part of it. In my remaining 
grains of time here, if I might get back to what I wanted to 
mention, one, is that there has always been a good relationship 
between the military in Greece and the military of the United 
States. Secretary Cohen just said the other day the closest 
defense person closest to him is the Greek defense minister.
    This year Senator Helms has added $2 million in the IMET 
fund to bring even more Greek officers here for training. That 
is something that we would hope would survive. Another very 
positive thing that the Greek American community is doing is in 
the former Soviet Union. Greek Americans have gone to Hellenic 
communities and put up health care centers and the State 
Department has been supportive. The centers are now treating 
26,000 people a month. The conditions of these people are just 
incredible. Since there is State Department money in this and 
Greek money in this, every time these people come in they see 
the American flag. There are stickers of the American flag all 
over everything. We are getting tremendous PR for it. It is put 
together by a group called the World Council of Hellenes 
Abroad, those people of Hellenic background who live outside of 
Greece and it is a very successful program.
    Let me get back to this issue of Greek Cypriots and Turkish 
Cypriots. They have started doing joint projects. Greece and 
Turkey have been doing wonderful things together, since the 
earthquake which is really what changed the whole feeling. A 
Greek Cypriot boy had a problem with leukemia and scores of 
Turkish Cypriots came over the Green Line to have their blood 
tested and to try to help him.
    The help going back and forth is not at all like you just 
heard. It has been very, very positive. We hope to encourage as 
much of that as we can. As you know, for Turkey to get into the 
EU, they have to adhere to the EU criteria, the standards that 
the civilized world requires. We are hoping Turkey will do it. 
The best thing that can happen for all people is for them to 
start adhering to the rules that the rest of the world adheres 
to because prosperity and peace comes from that.
    I see you leaning toward that club, Mr. Chairman.
    Mr. Callahan. We hear your message loud and clear. We hope 
some day there is peace between Turkey and Greece and the 
Cypriots. We also hope for peace in the Middle East and we hope 
for peace in the Balkans and peace in Africa, but it is 
frustrating, it seems to me, that there is some progress being 
made and we hope to see the day when there will be a handshake 
and an agreement between the Turks and the Greeks. Thank you.
    Mr. Manatos. Thank you, Mr. Chairman. We have put out a 
number of joint statements with the Turkish Americans in the 
last year because this thing is coming around.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Callahan. Mr. Laghari.
                              ----------                              

                                          Thursday, March 30, 2000.

                         WORLD SINDHI INSTITUTE


                                WITNESS

MUNAWAR LAGHARI, DIRECTOR
    Mr. Laghari. Thank you very much. My name is Munawar 
Laghari. I am appearing on behalf of the World Sindhi 
Institute. I express gratitude to Chairman Callahan and the 
honorable members of the subcommittee for the privilege of 
presenting my views. The purpose of my testimony is to impress 
upon you the need to make U.S. aid to Pakistan conditional and 
contingent upon a return to democracy, a protection of human 
rights, and a restoration of political rights of the people of 
Sindhis and other nation states within Pakistan.
    The WSI is a nonprofit and nongovernmental organization 
designed to heighten awareness of Sindhi and Sindhis amongst 
the government and the people of the United States. I 
respectfully present the following for your kind consideration. 
I was born in Sindh, which is southeastern province of 
Pakistan. The population of Sindh is 40 million and Karachi, 
the capital of Sindh is the largest city in Pakistan. It has 
two seaports and one international airport. Sindh is indeed a 
region of paramount strategic and economic importance to 
Pakistan as well as to the United States.
    Sindh has large deposits of natural gas and other minerals. 
It contributes over 70 percent of the total revenues in 
Pakistan. Unfortunately, Pakistan's economy is not a successful 
economy. In fact, it may be one of the worse managed in the 
world. Over the years Pakistan has attempted to spend in excess 
of 50 percent of its national budget on defense, thus 
compromising the welfare and the prosperity of its citizens. 
The recent nuclear tests by Pakistan demonstrate the extent of 
these misplaced priorities.
    Historically and culturally, Sindhis have been peace-
loving, secular and democratic people. As a result of this 
democratic spirit, they have, for the most part, remained 
alienated in Pakistan. The brand of Islam currently encouraged 
in Pakistan is incompatible with the spiritual values of most, 
if not all, citizens of Pakistan.
    Islamic fundamentalism, which is gaining ground in 
Pakistan, has dehumanized the vast majority of the already 
disenfranchised entities such as women, peasants and urban 
working people. It also has paralyzed the justice system, thus 
robbing people of the due process of law. The WSI believes that 
this committee has the power and the moral imperative to 
support programs in Pakistan that would promote sound economic 
growth and ensure that respect for human beings is not 
compromised. The committee through USAID and other governmental 
agencies, or NGOs, can play a very important role in restoring 
economic priorities with political and social goals of 
democratizing and secularizing Pakistan, but before any aid is 
distributed to Pakistan, the WSI respectfully urges this 
committee to consider the following criteria:
    Improvement upon the record of human rights and democratic 
developments in Pakistan, including prospects for 
democratically elected government, free and independent 
judiciary and political autonomy of provinces; distribution of 
tax and other revenue between the provinces with special weight 
to ensure that every province receives its due share; 
preservation of Sindh's agriculture and livelihood by ensuring 
Punjabi releases of sufficient amounts of water from the Indus 
river; reduction in military expenditures to allow greater 
social investment and promotion of nongovernmental 
organizations to provide direct aid to affected communities and 
economically depressed areas and other drought- and famine-
affected areas of Sindh.
    For the kind consideration of the committee, I am attaching 
herewith a copy of an article by Associate Zahid Makhdoom, 
published in the recent issue of SindhWatch Magazine, which is 
the official periodical of the World Sindh Institute. The 
article provides the background and complementary data in 
support of this testimony. Once again, I am grateful for you 
for your very thoughtful and kind gesture in allowing my humble 
presentation.
    Mr. Callahan. Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

                               EARTHVOICE


                                WITNESS

JAN HARTKE, EXECUTIVE DIRECTOR
    Mr. Callahan. Mr. Hartke. We are familiar with your 
organization. How is that tree doing?
    Mr. Hartke. It grows better every year, just like this 
committee does.
    Mr. Callahan. You know the rules.
    Mr. Hartke. I know the rules. I have been cutting testimony 
as I heard the prior witnesses.
    Mr. Callahan. Good.
    Mr. Hartke. First, Mr. Callahan, let me thank you 
personally on behalf of my own organization and other 
environmental organizations. We appreciate your leadership and 
the enormous patience that you have demonstrated over the years 
and again today. It is wonderful to have someone in the 
Congress who takes the kind of concern and shows the kind of 
global interest that you do, and we are very proud of you and 
this committee, and I might add the highly respected staff.
    First, in the overall context, I just urge full funding for 
the 150 account. We now have an organization that has reached 
300 major corporations and nongovernmental organizations. It is 
growing by leaps and bounds, and we expect to have a massive 
amount of new support. I hope this is going to be heard in the 
halls of Congress as to why we need to engage in interaction. 
But today, I am here to testify in regard to the efforts to do 
humanitarian demining in four sustainable development 
institutions.
    Specifically, I would like to get to the punchline first. I 
would urge Congress to provide $40 million for humanitarian 
demining, $176.5 million for the global environment facility of 
which $107.5 million is for the current-year commitment, and 
$69 million is arrears from previous years; $10 million for the 
international fund for agricultural development and $10 million 
for the United Nations development program, and at least $90 
million for the development program.
    I would like to summarize, as I watch the sand go out of 
the hour glass, some of the reasons for that.
    First, in regard to land mines, the United States national 
security status, you recognize demining as one of the most 
significant humanitarian efforts because it saves lives and it 
also minimizes the need for other humanitarian support. Each 
year 25,000 people are either maimed or killed. It includes 
another 20 times that number of animals, both animals people 
use to--in the fields to get their crops in, their pets and 
other wildlife, including an elephant which just got its leg 
blown off. It also impedes sustainable development and casts a 
pall on whole communities and even whole countries. The fiscal 
year 2001, being of $40 million in humanitarian demining, will 
sustain expanding U.S. efforts in 36 countries, including those 
most severely affected by land mines and permit expansion into 
several of the other land mine-affected countries.
    I personally recently came back from Nicaragua where I 
watched these human dog teams in action, and I must say it was 
a very compelling experience. You watch one of these dogs who 
has the ability to smell the mine 6 feet below the ground and 
detect the difference between all kinds of metal junk or 
plastic junk, and a land mine and he runs a line, as we used to 
say in Indiana, as straight as an Indiana corn field line, so 
that he doesn't end up going to one side or the other where 
they miss the spot.
    And then a young boy finally is permitted with 40 pounds of 
suit on, chest protector and everything else out in the hot sun 
of Nicaragua, with his own equipment, standing and holding in 
front of him after the dog comes back, and he allegedly has 
cleared it with their capacities. He takes that fateful step 
each time, and when I do it here in the committee room, it 
doesn't have much impact, but when you watch it in the field, 
you wonder if he is going to get his leg blown off, and he has 
to do that through a whole mine field, you begin to see the raw 
courage that people on our behalf are exhibiting to try to 
clear these areas.
    I saw a home 100 feet from a land mine area where there are 
two 6-year-old girls that I talked to later and their mother is 
terrified they have to live there every day. Like she said, it 
is tough to sometimes make sure my children are not running 
down there because they don't understand what it means to step 
someplace on a piece of dirt and be blown up.
    The whole program globally you can have great confidence 
in. It is being run by a man named Pat Maternal. He is a 
nonpartisan, seasoned nonpolitical pro in the State Department. 
His personal experience and character are beyond repute.
    You should be proud to have him in the government.
    Second, in the global environment facility, I think it is 
the best performing and best run environmental fund in the 
world. The GEF has provided about $2.5 billion in funding for 
more than 600 projects, and yet over $5 billion has been posted 
by other sources, the biggest source being developing country 
governments.
    Mr. Callahan. We appreciate your presentation. We accept 
your entire statement for the record.
    Mr. Hartke. Mr. Chairman, thank you very much.
    Mr. Callahan. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

                          WORLD WILDLIFE FUND


                                WITNESS

ESTRELLITA J. FITZHUGH
    Mr. Callahan. Ms. Fitzhugh.
    Ms. Fitzhugh. Mr. Chairman, I represent the World Wildlife 
Fund. I am the congressional liaison there known worldwide by 
its panda logo. WWF is dedicated to protecting the world's 
wildlife and the rich biodiversity that we all need to survive. 
Since its inception in 1961, WWF has sponsored more than 2,000 
projects in 116 countries. Many of the programs funded in the 
foreign operations budget have helped conserve the world's 
biodiversity. Without the other worthwhile development, 
programs cannot effectively address a range of global programs. 
For example, the cost effective solution to potable water is 
keeping intact the world's watersheds and wetlands.
    Medical solutions to current and future diseases depends on 
plants and wildlife.
    We applaud, you, Mr. Chairman, and other members of this 
subcommittee, for your role last year in inserting committee 
report language directing USAID to reverse its budgetary 
decline in the agency's biodiversity conservation work. In 
addition, we appreciate the subcommittee appropriating $13 
million to implement the Tropical Forest Conservation Act.
    The subcommittee's initiatives in 1999 set the stage for 
the administration to follow suit this year with its greening 
globe initiative. WWF strongly supports this request. The 
initiative proposes $33 million in additional funds for USAID's 
biodiversity conservation programs for a total request of $100 
million for this activity. The administration's initiative also 
requests $37 million to implement the Tropical Forest 
Conservation Act. These funding levels are critical to 
reinvigorating USAID's conservation efforts. The bottom line is 
what has AID funding achieved in the world's natural systems.
    Let me give you a few examples. In Brazil's Atlantic 
forest, it is one of the world's most endangered tropical 
forest. Industry and local groups are learning to protect and 
sustainably manage this globally outstanding area.
    In Namibia, rural populations for the first time can 
legally benefit from their natural resources. In the Galapagos 
Islands of Ecuador, natural resource management and protection 
of the islands, incredibly biodiversity are being improve. In 
Nepal, the approaches to forest management are in place.
    These success stories above have helped persuade some of 
the host governments to enact groundbreaking conservation 
policies. For example, legally establishing conservancies in 
Namibia or a marine sanctuary in the Galapagos Islands. Let me 
say at this point that the WWF disagrees with AID's active 
consideration of closing down its conservation program in 
Nepal. We think that it is ill-timed given the dynamic yet 
nascent community forest system there in that country.
    Another important related benefit of conservation programs 
is the establishment of democratic processes as local citizens 
learn to manage, benefit and demand a say in their community's 
resources.
    WWF also urges the subcommittee to appropriate the 
requested funding levels for the multi-level conservation 
programs, including the global environment facility, the State 
Department's international conservation programs and IDA, the 
World Bank Foundation.
    Conserving and managing our natural resources is 
fundamental to achieving such basic needs as clean air, water 
and providing medicines. Yet one of the first programs AID 
officials cut due to insufficient funds is biodiversity 
conservation. The key to long-term development is 
sustainability of resources.
    Therefore, we urge the subcommittee to appropriate adequate 
funds for bilateral and multilateral foreign aid to ensure that 
AID's strategic objective of protecting the environment is 
effectively integrated into its policies. WWF also urges the 
subcommittee to adopt strong biodiversity language for fiscal 
year 2001 to maintain the momentum that it began last year.
    Finally, Mr. Chairman, and Madam Ranking Member, restoring 
the fundamental balance between human enterprise and the 
biological diversity upon which we all depend is a long-term 
commitment. We ask for and need your commitment in this and 
future years.
    Mr. Callahan. Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

     INTERNATIONAL PARTNERSHIP PROGRAM OF THE UNITED STATES ENERGY 
                           ASSOCIATION (USEA)


                                WITNESS

JIM ADAM, PAST CHAIRMAN, USEA AND CHAIRMAN EMERITUS, BLACK & VEATCH
    Mr. Callahan. Mr. Adam.
    Mr. Adam. Chairman Callahan, thank you for the opportunity 
to testify. My name is Jim Adam, and I am past Chairman of the 
United States Energy Association and Chairman Emeritus of Black 
& Veatch. I am here today to represent USEA and to encourage 
your support for the energy-related programs of the U.S. Agency 
for International Development.
    USEA is a nonprofit association of 160 public and private 
energy organizations, corporations, and governmental agencies. 
We are founded on the principle that access to affordable and 
reliable energy is essential for sustainable economic and 
social development.
    In 1991, with funding from USAID, and utilizing the 
experience and resources of the U.S. energy industry, USEA 
launched our International Energy Partnership Program. To date, 
we have established 60, one-on-one utility and regulatory 
partnerships in over 25 developing countries or countries in 
economic transition. Over 6,000 utility and regulatory 
executives have participated in USEA partnership activities, 
one-third from U.S. and two-thirds from overseas.
    Some of our U.S. partners are: Alabama Power Company, 
Sacramento Municipal Utility District and PacifiCorp of 
California; Georgia Power Company and Southern Company; 
Michigan Public Service Commission; New York State Electric and 
Gas, and Niagara Mohawk Power Corporation of New York.
    Here are just a few examples of the results from our 
partnerships: In the Philippines, Southern Company and Georgia 
Power assisted Philippine National Power Corporation with its 
corporate restructuring efforts affecting 14,000 megawatts of 
generating capacity.
    In Russia, Columbia Gas Distribution Company of Ohio helped 
its Russian utility partner establish an automated customer 
information system and direct access payment centers that is 
projected to save $61 million.
    In India, Energy Line Company of Illinois and California 
signed a $100,000 contract to conduct a pilot automation 
program to improve electric distribution in the City of 
Bangalore, India.
    USEA established the U.S./Caspian Oil and Gas Environmental 
Program to join U.S. oil and gas companies with the nations 
bordering the Caspian Sea to solve critical environmental 
problems.
    In Africa, Public Service Commission of Maryland is 
assisting the newly formed Public Utility Regulatory Commission 
of Ghana in West Africa to draft equitable utility rates and 
improve consumer protection measures.
    In support of USAID's strategic objectives, these 
partnerships benefit developing countries by promoting 
efficient, sustainable and environmentally sound supply and use 
of energy through the transfer of U.S. market-based 
technologies, services, and best practices for energy system 
operation and regulation.
    The program also enables U.S. energy companies to 
understand the dynamics of non-U.S. energy markets and to forge 
international strategic alliances. The partnerships help 
encourage U.S. energy trade and investment overseas.
    Our 50-plus U.S. partners have contributed over $40 million 
of their time, free of charge, toward partnership activities 
since 1992. None of these U.S. participants would continue to 
invest their time and resources if they were not convinced of 
the value of our program.
    The U.S. Government, especially USAID, has recognized that 
USEA's partnerships support the strategic interests of the 
United States by promoting economic stability, environmental 
protection and market economies.
    Last week in India, President Clinton announced a new 
USAID-supported partnership between USEA and the Confederation 
of Indian Industries. USEA and the confederation will establish 
a private sector trade and investment working group on clean 
energy and environment.
    Also, the President launched a new South Asia Regional 
Energy Initiative, in which USEA will be establishing regional 
partnerships on energy regulation, transmission, independent 
power generation and rural electrification.
    We have also found that the energy partnerships further our 
foreign policy objectives, such as the promotion of democratic 
processes and institutions, and the easing of societal 
transitions.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Callahan. Well, Mr. Adam.
    Mr. Adam. Let me sum up here, Mr. Chairman.
    Mr. Callahan. We will sum it up. We can read your 
statement. In fact, we already have. But we appreciate very 
much your coming today. Questions?
    Ms. Pelosi. No. Thank you, Mr. Adam.
                              ----------                              

                                          Thursday, March 30, 2000.

                          FRIENDS OF THE EARTH


                                WITNESS

ANDREA DURBIN, DIRECTOR OF FRIENDS OF THE EARTH'S INTERNATIONAL PROGRAM
    Mr. Callahan. Ms. Durbin.
    Ms. Durbin. Good afternoon. My name is Andrea Durbin, 
Director of Friends of the Earth's International Program. I 
appreciate the opportunity to testify today before the 
subcommittee to discuss environmental appropriations 
priorities. In particular, I will address ways to use this 
year's appropriation process to achieve meaningful 
environmental reform through the World Bank and to identify 
some international environmental programs that we support.
    We have worked for more than a decade to transform the 
World Bank to become an agent of environmental sustainability. 
Congress has a unique ability to drive this reform. We applaud 
the subcommittee's past leadership in addressing environmental 
and accountability concerns with the World Bank. In particular, 
I would like to thank Congresswoman Pelosi for her personal 
commitment to improving the World Bank over the years.
    Looking at the big picture, we believe that the World Bank 
group must redirect where its money goes. Despite its ``green'' 
rhetoric, the Bank has decreased its spending on 
environmentally beneficial projects while it has increased 
spending on environmentally destructive ones. From global 
warning to deforestation to water and air pollution, the World 
Bank is using taxpayer dollars to finance environmental 
degradation around the world. Congress and environmental groups 
have sought to address this problem by establishing 
environmental standards at the Bank. Since the Bank continually 
violates these standards, new leadership is needed to ensure it 
actually abides by them.
    Last year, Congressman Cox and Congresswoman Pelosi 
introduced H.R. 2969, the Ecosystem and Indigenous Peoples 
Protection Act. This bill requires the Bank to abide by its 
policies and would allow the U.S. to deduct appropriations if 
it does not. We encourage Members of Congress to cosponsor this 
bill.
    Besides requiring the Bank to follow its own policies, the 
subcommittee could also help to restrict the kinds of 
environmentally harmful projects that the Bank supports. The 
World Bank should follow the leadership set by OPIC and 
establish a lending ban on projects for sectors that cause 
irreversible environmental damage and irreparable harm to 
communities.
    Extractive industries, oil, gas, and mining, are prime 
examples of these kinds of projects. These projects are often 
associated with serious environmental and social problems and 
do not fulfill the World Bank's poverty alleviation mission. 
These projects tend to benefit wealthy multinationals at the 
expense of the environment, fueling climate change, 
deforestation, and biodiversity loss. They rarely benefit the 
people the Bank intends to help and often exacerbate poverty.
    Environmental, human rights, development and religious 
groups have called on the World Bank to establish an immediate 
ban on financing new explorations in pristine frontier 
ecosystems, and to develop a plan to phase out of financing 
oil, gas, and mining projects. Treasury Secretary Summers last 
week stated in testimony that the World Bank should not support 
sectors that already have ample private sector support. These 
are exactly the kinds of sectors he is talking about. We 
encourage the subcommittee to act upon these concerns during 
the appropriations process this year.
    In addition, I would like to express our agreement with the 
Meltzer Commission's recent recommendation about MIGA, the 
World Bank's private political risk insurance arm, that it 
should be abolished. MIGA's financial support of the private 
sector often harms the environment and rarely fulfills the 
bank's poverty alleviation mandates. MIGA's annual report reads 
like a ``who's who'' of the world's largest banks and 
corporations: Citibank, Chase Manhattan, and Coca-Cola all 
benefit from U.S. Taxpayer support. MIGA underwrites harmful 
pulp and paper operations, downtown high-rises, and five star 
luxury hotels. These projects neither promote nor alleviate 
poverty.
    This year, President Clinton has asked Congress for a $16 
million capital increase for MIGA. We urge the committee to 
reject this request and to reject the use of taxpayer money to 
support projects that do not fulfill the World Bank's 
development mission.
    As for the other international programs, Friends of the 
Earth would like to express our support for fully funding the 
GEF, the ``Greening the Globe'' initiative for forest 
conservation programs at the AID, and fully funding the HIPC 
debt initiative. We also support funding the Tropical Forest 
Conservation Act at the authorized amount.
    In conclusion, the committee has a real opportunity to use 
the appropriations process this year to leverage positive 
change. With the increasing attention to the problems of the 
IFIs, we hope that Congress will seek effective solutions.
    Thank you for the opportunity to testify.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

                      THE ALLIANCE TO SAVE ENERGY


                                WITNESS

DAVID M. NEMTZOW, PRESIDENT
    Mr. Callahan. Mr. Nemtzow.
    Mr. Nemtzow. Mr. Chairman and members of the subcommittee, 
thanks very much for the opportunity to testify before you 
today in support of the administration's request for fiscal 
year 2001 spending at USAID's energy programs. I also want to 
thank you for scheduling this hearing the same week that OPEC 
was meeting, which reminds us all about oil's power in our 
economy and around the world. I know you planned it that way.
    I am David Nemtzow, and I am President of the Alliance to 
Save Energy. We are a bipartisan, nonprofit coalition of 
business, government, environmental and consumer leaders. We 
were founded in 1977 by Senator Charles Percy, and we are 
currently chaired by Senator Jeff Bingaman, and your 
colleagues, Ed Markey and Mr. John Porter. We have a long 
history of evaluating energy efficiency programs in the Federal 
Government, in State government, in corporate and around the 
world, and I want to testify in the strongest support of 
USAID's energy efficiency programs.
    I want to thank you and the ranking minority member for 
your support of these activities in the past and encourage you 
to keep on supporting AID's energy efficiency programs. They 
function in two important ways. One is that they spur 
technology transfer and help get efficiency technologies, 
whether it is controls, or power, or whatever it may be, to the 
rest of the world, to Eastern Europe, to the developing world, 
and many of these remain in America.
    Number two, AID does leverage literally hundreds of 
millions of dollars of other investment, and whether that is a 
foundation or corporate or World Bank, the energy programs in 
particular at AID do a very good job. And I know the 
subcommittee is very interested in ensuring that AID gets a big 
bang for the government money, and I think our leveraging helps 
that.
    I joked earlier about oil, but let me just say that every 
Member of Congress, certainly both of you, know what has 
happened to oil prices and what it has done to the U.S. economy 
and what that means for the world's economy. In the developing 
world, of course, oil is even more costly relative to their 
economy than it is in ours. But the latest oil spike, and we 
got a little bit of relief we hope from OPEC a couple of days 
ago, but the latest oil spike not only reminds us all of how 
important oil is, but it also reiterates that we live in one 
global oil market. And that means that when AID helps 
developing countries save oil there, that helps us here because 
it lowers price pressure.
    So if you will forgive the alliteration, I want to say that 
lower oil demand in Madras helps truckers in Mobile, and lower 
oil demand in San Salvador helps home owners in San Francisco. 
And it is literally true. We live in one oil market, and AID is 
helping us by helping the developing world.
    I think you know about these programs, and I hope you are 
aware that there are two new initiatives that have been 
proposed by this administration. One is the clean energy 
initiative that the President put forward in his 2001 budget, 
which aims to double exports of clean energy goods by 2005. We 
think this has a lot of merit. There is still some detail that 
the administration has not put forth. We hope you will push 
them to get that detail and keep an open mind as to what their 
proposal is.
    Secondly, when the President was in India just recently, he 
announced new support for clean energy in the South Asian 
subcontinent. Again, we have not seen the details, but we all 
know how important India is to the world economy and how 
quickly their energy is growing, and if they don't grow 
efficiently, then they will put a lot of stress on world oil 
markets as well as environmental pressures.
    In conclusion, I want to respectfully recommend to the 
subcommittee that you continue to support these programs, but 
also that you ask AID and make sure that energy efficiency is 
not an after thought. They have done a particularly good job in 
other areas, and you have supported them with child survival 
and biodiversity. Energy efficiency tends to come later.
    I have noticed even in the last year or two that the AID 
missions around the world, and the Alliance to Save Energy 
works with many of them, the missions are much more interested 
in energy than they used to be. They used to be interested 
because someone at headquarters made them do it. Now they 
actually see the merits and they are hearing it from the 
countries that they work with that energy is a big part of 
their budget.
    So I hope you will help carry that message and help push 
headquarters here to take a serious look at energy efficiency. 
It will help the developing countries, it will help AID be a 
more successful agency, and I think it will help U.S. consumers 
at the same time.
    Again, thank you for past support of these programs and 
thank you very much for allowing the Alliance to Save Energy to 
testify before you today.
    Ms. Pelosi. And you saved time.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

           INTERNATIONAL CONSERVATION, THE NATURE CONSERVANCY


                                WITNESS

ALEXANDER F. WATSON
    Mr. Callahan. Mr. Watson. And, Mr. Gardiner, you can get on 
deck.
    Mr. Watson. Mr. Chairman, Ms. Pelosi, it is a great honor 
and pleasure for me to appear before your committee to testify 
about the international conservation work of the Nature 
Conservancy and the importance of the U.S. Government's support 
for conservation of our global natural heritage. I will be 
brief but, hopefully, I can submit my statement with its 
attachments for the record.
    Mr. Callahan. Certainly.
    Mr. Watson. The Conservancy strives to protect plants and 
animals that make up the natural world, primarily through 
protection of habitat, which is under severe pressure 
worldwide. We work with funds that are approximately 92 percent 
private in origin, and right now are engaged in a major private 
fund-raising campaign to raise a billion dollars over the next 
3 years. $120 million of this will be for our international 
work. So far, we have about $435 million in hand in cash and 
pledges, of which about $55 million is for international 
conservation work.
    We are really grateful to our members and donors and 
investors for their support, but our cooperative relationship 
with the Agency for International Development remains vital for 
our international program efforts. I have been pleased in the 
past to report to this committee about the work of the Parks in 
Peril program in Latin America and the Caribbean and other 
similar efforts in the Asia/Pacific region.
    Parks in Peril is one of the most successful and respected 
conservation programs in the world. With vital aid assistance, 
Parks in Peril has brought real protection to 37 protected 
areas or sites, parks, and nature reserve in 15 countries 
comprising over 28 million acres. Parks in Peril does this by 
collaborating with local organizations to build long-term 
support and stability at the sites through measures such as 
strengthening local nonprofit organizations, fostering 
ecotourism, training park guides, and helping local communities 
develop livelihoods that are compatible with conservation of 
the natural resources.
    The AID Latin America and Caribbean Bureau has supported 
Parks in Peril with a total of $37.5 million over the life of 
the program. We have also had a close working relationship with 
the Environment Center in the global bureau of AID, especially 
as regards our Asia/Pacific programs. Leverage of this U.S. 
Government investment is high. Over $14 million of documented 
matching funds from private sources that we have raised, and 
also about $270 million raised during the last decade by us and 
our local partners from other sources.
    The Conservancy has presented a proposal to AID that we are 
now calling PIP 2000. If this is approved, it will expand the 
Parks in Peril methodology to bring about conservation in many 
more sites. We are pleased that the committee has praised Parks 
in Peril in its past reports and we hope you will do so again 
this year.
    AID's support to biodiversity conservation is contained 
within the environment item in the development assistance 
account. While biodiversity conservation is not a line item, it 
has enjoyed favorable language in the committee's reports. The 
request this year is for $100 million, and this would permit 
enhanced conservation efforts, especially in tropical forests. 
The Conservancy urges the committee to make every possible 
effort to find room for the full request and to continue to 
include strong language in support of biodiversity conservation 
in your report.
    Funding of the Tropical Forest Conservation Act, or 
``Portman Act,'' is another very important measure that falls 
within your jurisdiction. There are two major debt reduction 
deals moving forward that we expect will use up the $13 million 
appropriated last year. The administration has requested $37 
million more for this year, and we urge the committee to fund 
this initiative at the request level, or even at the authorized 
level if possible.
    Finally, Mr. Chairman, request for the U.S. Government 
contribution to the Global Environment Facility is $175.6 
million for fiscal year 2001. About 40 percent of these funds 
go toward biodiversity conservation, and every dollar of U.S. 
money to the Global Environment Facility is leveraged 4 to 1 by 
funds from other donors, and we urge the committee to fund the 
GEF at the highest possible level.
    Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Callahan. Thank you, Mr. Watson, we are very familiar 
in south Alabama with your great organization.
    Ms. Pelosi. Mr. Chairman, I have to excuse myself. Mr. 
Gardiner, forgive me, other witnesses. I have to go to 
California right now. They have come for me like three times.
    Mr. Callahan. Go.
    Ms. Pelosi. Thank you for your testimony.
                              ----------                              

                                          Thursday, March 30, 2000.

               THE INTERNATIONAL EXECUTIVE SERVICE CORPS


                                WITNESS

HOBART C. GARDINER, PRESIDENT AND CHIEF EXECUTIVE OFFICER
    Mr. Callahan. Mr. Gardiner.
    Mr. Gardiner. Good afternoon, Mr. Chairman. I would like to 
remind you of our success. We do not have quite the publicity 
program, it is not part of our mission. We don't promote 
ourselves, but in this budget environment we feel we should 
trumpet our successful performance.
    What is it we do? As you know, we strengthen private 
sectors in the underdeveloped world and in the emerging 
nations. We develop economies. We stabilize democracy. We try 
to improve health conditions. What is important is that the 
taxpayer gets real bang for his buck. We leverage the taxpayer 
dollar. We bring that dollar back home because of the export of 
American goods and services. High impact, cost effective, 
grass-roots, people-to-people, business-to-business.
    I want to cite, because I think they are really remarkable 
and not many people appreciate it, some of the impact which 
demonstrates the return on investment that our taxpayers 
receive. We have done over 20,000 projects since 1964. One 
million volunteer working days is represented by this activity. 
We have created over one million jobs. We have received over a 
half a billion dollars in the value of the donated services of 
our volunteers. We have received almost a quarter of a billion 
dollars in contributions from our clients.
    It is to me remarkable that a program dedicated toward U.S. 
foreign policy objectives gets that kind of contribution. We 
have developed $2.8 billion in client purchases from the United 
States. This is where the dollar comes back home. And what we 
represent, as you know, is voluntaryism at its best. We are 
concerned, however, that recently volunteer organizations such 
as ours are being lumped into a category of nonprofit. We are 
nonprofit, but we are volunteer. We are not a fee-based 
organization.
    As you know, we came into being shortly after the Peace 
Corps started, and we were called the businessman's Peace 
Corps. Not long ago, Secretary Albright mentioned we ought to 
create a businessperson's Peace Corps. Well, we have existed. 
We exist. So we do not think the wheel has to be reinvented, 
but that the wheel ought to be used. Our concern is that when 
Madeleine Albright asks for an increase in money for the Peace 
Corps, and we admire the work of the Peace Corps, but asks for 
an increase so that we can send out 10,000 volunteers in 2001, 
our volunteers have decreased. We have been sending out on the 
order of a thousand, we reached 1,300 something a year or so 
ago, but we are now down to 600. We are sending out fewer 
volunteers. In a Nation where people retire early, in a Nation 
that has a tremendous national asset in retired citizens, we 
think those citizens ought to be given an opportunity to help 
forward and contribute to U.S. foreign policy objectives. But 
the trend is going the other way insofar as it affects us.
    Part of this is because of the environment, of budget 
reduction within AID. And the people with whom we work, the 
managers in AID, have sought ways of cutting costs and, in so 
doing, they have cut back on our programs. There is a trend 
taking place within AID where there is diminishing support for 
private sector development. To us, it is alarming, because that 
is an essential building block of economic activity and trade 
opportunities for the United States. In addition, AID is 
favoring the larger for-profit contractors over our kinds of 
activities.
    So we are hopeful that you will make people aware that 
voluntaryism is alive and well in the United States but that 
the government is not taking advantage of it to forward 
programs overseas. The sustainable development slogan that is 
mentioned from time to time, we think, is much more of a catch 
word than a reality, because the AID programming now, 
unfortunately, does not really emphasize economic growth.
    Economic growth, I think within AID, refers to agriculture 
or microenterprise, and this concerns us. We know child 
survival, health, education, and democracy are all extremely 
important. But if the countries overseas are to become self-
reliant and not be dependent on our foreign aid, they have to 
develop a strong private sector, and that is what we do.
    I would be very happy to answer any questions.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Callahan. I think you can just respond later for the 
record, but what would you do with the extra money if AID 
allowed your organization to keep its fees it earns?
    Mr. Gardiner. We would restart our program in Latin America 
and the Caribbean. You tried to help us a year or so ago to 
restart that program. We have been unable to do it. We would 
also become much more active in Africa. We think Africa needs a 
lot of help to strengthen its private sector.
    Mr. Callahan. Thank you very much.
                              ----------                              

                                          Thursday, March 30, 2000.

    INTERACTION, AMERICAN COUNCIL FOR VOLUNTARY INTERNATIONAL ACTION


                                WITNESS

LOUIS L. MITCHELL
    Mr. Callahan. Mr. Mitchell and Mr. Daulaire.
    Mr. Mitchell. Mr. Chairman, thanks for this opportunity to 
testify on behalf of InterAction regarding the 2001 foreign 
operations appropriation bill. My name is Lou Mitchell, 
President and CEO of an international development nonprofit 
that strengthens capacities of local organizations to meet 
social and economic needs in their communities.
    I also serve on the executive committee of InterAction, 
which, as you know, is a coalition of 160 U.S. PVOs that 
together receive more than $3 billion each year in private 
contributions and handles over $1.3 billion in Federal funds.
    My work in the international development arena spans 35 
years. Throughout those years, I have witnessed the political 
winds drive foreign assistance funding up and down. During the 
Cold War, funding was generally up. During the decade of the 
1990s, funding levels have declined. I would not argue that 
more funding equals more development. I do argue, however, that 
the lessons learned over the past decades equip U.S. PVOs with 
better and more effective skills to design and implement 
programs with more efficiency and greater impact than ever 
before.
    Through increased funding, foreign aid does not equate with 
more development, but increased funding for effective programs 
does equate with better and more development. Yet even as U.S. 
PVOs' knowledge and skills grow, foreign operations spending 
dwindles. If the Cold War provided the impetus for foreign aid 
in the past, today the impetus is the direct impact that 
multidimensional problems of developing countries have on our 
own country's future.
    Foreign assistance at the beginning of this new century, I 
respectfully submit, Mr. Chairman, has become a domestic issue. 
Consider the interconnected world in which we live. Today, 
where boundaries dissolve as globalization moves jobs and money 
in the twinkling of an eye around the world, infectious 
diseases that begin in faraway countries rapidly show up on our 
shores. Failed states, civil instability, and outright warfare 
press upon our economic and military reserves. Ozone depletion 
and global warming deliver rising seas and more natural 
disasters. Widening disparities in income push more and more 
people out of their countries and onto our doorsteps.
    The interconnectedness of our world has made foreign 
assistance a domestic issue. U.S. PVOs, often in partnership 
with local partners, have the know-how and competencies to 
successfully address the roots of many of these problems. It 
only takes the will of the 106th Congress to stop the decline 
in foreign aid funding and begin to invest in America's future.
    Investing in developing cooperation is like investing in a 
profitable mutual fund that over the years grows with 
exponential returns; returns in expanded economic 
opportunities, decreased environmental and health risks, 
widespread peace and security, and the chance for everyone to 
determine their own futures. It will yield high returns for our 
children and their children and their children's children.
    If we do not invest in the future, or if our investments 
are paltry, I ask what our children will say. Thank you.
    Mr. Callahan. We thank you, sir.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

                       THE GLOBAL HEALTH COUNCIL


                                WITNESS

NILS DAULAIRE, M.D., M.P.H., PRESIDENT AND CEO
    Dr. Daulaire. Mr. Chairman, I am Nils Daulaire and I am the 
President of The Global Health Council, which is this country's 
largest membership alliance dedicated to critical global health 
issues. I am not going to read the statement. You received it, 
and I am sure have accepted it for the record.
    Mr. Callahan. It is accepted for the record.
    Dr. Daulaire. What I wanted to do is highlight a number of 
things our members and our alliance believes this committee 
should be paying attention to and focusing on as you go through 
the appropriations process.
    I would like to start with, first of all, our recognition 
and appreciation of all that you have done over the years for 
child survival and infectious diseases, which has been 
tremendously important for the work that we carry out globally 
and the work that Congresswoman Pelosi has carried out on 
behalf of AIDS, infectious diseases, particularly TB, and 
reproductive health and family planning. So we recognize that 
this committee is a very friendly place, but we also recognize 
that you have some very difficult choices to make as you go 
through the appropriations process.
    I am a physician. I have worked for 25 years in developing 
countries delivering health care services to children and their 
mothers, and what I see now as we come into the 21st century is 
a vista of opportunity that I could only dream about 10 years 
ago. We have really changed where the world is. And when I say 
we, it is not just our members but the entire context of global 
health.
    Look at what is happening in this country. Our children and 
grandchildren are likely to be looking at lifespans of a 
century or more in the very near future. The changes in 
biotechnology and genetic engineering, the new drugs, the real 
burgeoning of an understanding of human biology has been 
tremendously important, and it has opened new windows that we 
could not have imagined, very much like the PC windows were 
opened 20 years ago.
    What we also see, though, is a tremendous and looming 
threat. And I point to things like the National Intelligence 
Council's report on the National Security Threat of Global 
Infectious Diseases. These are hard-nosed security analysts who 
are looking at what is happening in the developing world and 
seeing it as a real threat not just to the well-being of the 
people living in those countries but to the well-being of 
Americans in the 21st century as well.
    And you look at what is being invested. In this country we 
spend $4,000 for every man, woman, and child in health care. We 
spend over a trillion dollars in health in our country through 
private and public sources. When we look at what is needed to 
close the health gap, to close 80 percent of that enormous 
differential between the health of people living in this 
country and the people living in developing countries, it is a 
pittance. Fifteen dollars per person would provide a basic 
package of health services, many of which you have heard about 
earlier today in other testimony. But what we look at, in this 
alliance that ranges from religious and missionary groups to 
technical assistance organizations to academic institutions, 
what we see is the value of providing health care in a 
continuous and integrated context.
    What we have strongly urged is consideration of a bill 
which has been introduced here in the House of Representatives 
earlier this month by Congressman Crowley, who came to this 
issue not from the standpoint of one party or another, but from 
the fact that as the Congressman from the Queens, six of his 
constituents died from a disease imported from overseas, West 
Nile encephalitis just last year, and he has begun to 
recognize, as many have, the importance of these global health 
threats.
    What we have proposed, and what he has introduced in the 
Congress with bipartisan support, is the Global Health Act of 
2000, which calls for an authorization of an extra $1 billion, 
roughly a doubling, of U.S. commitment to five critical areas 
in global health, which you have already supported over the 
years through this committee. They are infectious diseases, and 
you have heard today about the important issues of TB, malaria 
and other things; HIV/AIDS, and I don't need to reiterate what 
is happening in the Third World with the spread of the AIDS 
pandemic; of child survival, which you have been a leader in 
over the years; of maternal health, to save the lives of those 
600,000 women who die and leave behind them over a million 
orphans a year left to the depredations of society in places 
where they do not know how to deal well with orphans; and, 
finally, for reproductive health and family planning, so that 
women and couples can make voluntary choices to care for the 
size of their families and make rational considerations for 
their future.
    Now, we recognize that a billion dollars in today's budget 
climate is not the kind of thing you simply can go out and say, 
sure, we will do that. We recognize this is an aspirational 
budget. But we would like you, as you go through the 
appropriations process this year, to look at what this can mean 
not only for the health and well-being of millions of people in 
the developing world, but also for the future of our own 
children and grandchildren here.
    We thank you very much for everything you have done.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Callahan. Thank you, Doctor. I might suggest that you 
might lobby some of your medical colleagues in the Congress of 
the United States, because we cannot get a single one of them 
to support it.
    Dr. Daulaire. I am meeting, hopefully, with one of my 
medical colleagues who went to medical school with me, who is 
in the United States Senate now, and I will certainly work on 
that.
    Mr. Callahan. I am not worried about the Senate, I am 
worried about the House.
    Dr. Daulaire. I will work on that as well. Thank you very 
much.
    Mr. Callahan. Thank you.
                              ----------                              

                                          Thursday, March 30, 2000.

  INTERNATIONAL INITIATIVE OF THE ROBERT F. WAGNER GRADUATE SCHOOL OF 
                 PUBLIC SERVICE AT NEW YORK UNIVERSITY


                                WITNESS

PROFESSOR DENNIS SMITH, PH.D., DIRECTOR
    Mr. Callahan. Professor Smith.
    Mr. Smith. Chairman Callahan, thank you for your patience. 
I understand you have places to go and things to do, so you 
have my testimony, and I will try to make a long story short.
    I don't think I have to go over the enormous challenge of 
creating democracies and market economies around the world. I 
would like to argue that the universities in the United States 
are one of the strongest weapons in the arsenal of democracy. I 
represent the Robert F. Wagner Graduate School of Public 
Service at New York University, which, for more than 60 years, 
has developed and trained managers for public service.
    In the past 10 years, because of what has been going on in 
the world, we have been increasingly involved in providing that 
kind of management education, professional education for people 
around the world. We have recently developed a new program to 
train managers of organizations, like this 160-member 
organization, InterAction, about which you just heard.
    The challenges of AIDS, and demining, and all the other 
enormous issues that have been presented to you today, whatever 
you invest in them, the success of that investment will depend 
to a certain extent on the effective and accountable management 
of those programs and those policies. That is what my school is 
about. And in order to be able to extend the reach of our 
programs, we are proposing to get government help in developing 
an International Center for Democratic Public Service in our 
school's new facility that we are building.
    That would involve investing in distance learning that 
would expand the reach of all our programs and take advantage 
of all the modern technologies for distance learning: 
Interactive televideoconferencing, which we already use; CD-ROM 
capacity; Internet; Web, a whole set of things, which, with 
those investments in our school, we could dramatically expand 
the ability to deliver our programs to people in Africa, Asia, 
Latin America, Middle East, and millions in the states. And 
that is what we are asking for support to do, and we look 
forward to consideration of that proposal.
    Mr. Callahan. Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 30, 2000.

  INSTITUTE FOR CUBAN AND CUBAN-AMERICAN STUDIES, UNIVERSITY OF MIAMI


                                WITNESS

PROFESSOR JAIME SUCHLICKI, DIRECTOR AND EMILIO BACARDI MOREAU PROFESSOR 
    OF HISTORY AND INTERNATIONAL STUDIES
    Mr. Callahan. Mr. Suchlicki.
    Mr. Suchlicki. Mr. Chairman, I have learned to respect a 
man that has a gavel on his right and a wooden hammer on his 
left, so I will be very, very brief.
    I am with the University of Miami and I would like your 
support on a project called the Cuban Transition Project in 
which we are trying to work closely with the U.S. Government to 
prepare the U.S. Government for the inevitable transition that 
will take place in Cuba.
    I think one of the lessons we have learned from the Eastern 
European transitions is that they are difficult, they are long-
term, they are painful, and we were not prepared to deal with 
them. So we want the U.S. Government to be ready to deal with 
transition in Cuba, whether it is peaceful or violent. And 
there are a number of issues, such as the----
    Mr. Callahan. You are saying Castro is going to die?
    Mr. Suchlicki. Well, if for no other reason than because he 
is getting there. So we are going to have to deal with a 
transformation of the economy.
    Mr. Callahan. Somebody said that in 1975 before this 
committee.
    Mr. Suchlicki. But he is closer now. So there are issues on 
the economy, rebuilding the society, issues of transformation 
of the value system of the Cubans, issues of migration that are 
going to affect the United States, and other issues that are 
still pending. The Russians still have an intelligence facility 
in Cuba. The Chinese are getting involved in Cuba right now. 
The Cuban American community will be a factor. So I think all 
these issues will come up when the transition in earnest begins 
in Cuba.
    I think that we have the capability at the University of 
Miami, the staff and the people, and we need your help to 
develop this project and work closely with the U.S. Government, 
both Congress and whatever administration is in the White 
House, to get them ready for the transition.
    What we are asking is $5 million, I think through AID, for 
this project.
    Mr. Callahan. Well, we thank you very much.
    Mr. Suchlicki. Thank you. And if you don't mind, I want to 
leave you a little brochure of my institute. And if you are 
bored on the plane and you want to read about Cuba, this is my 
Cuba book.
    Mr. Callahan. I thank you, sir. We are not far away from 
the transition needs, because as soon as the Chinese and the 
Canadians and the Japanese and the Germans and the French take 
every possible avenue of profitability, then the United States 
will open up our economy and we will go in and feed the 
starving and tend to the sick.
    We are almost there. They have just about taken every 
economic opportunity there is.
    Mr. Suchlicki. I think there will be some more. I hope. 
Thank you for the support.
    Mr. Callahan. Thank you. Thank you all.
    The committee stands adjourned.
    [The information and statements for the record follow:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
